<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 25, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:16 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, Bennett, and Dorgan.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. GALE A. NORTON, SECRETARY
ACCOMPANIED BY:
        LYNN SCARLETT, ASSISTANT SECRETARY, POLICY, MANAGEMENT, AND 
            BUDGET
        JOHN TREZISE, DIRECTOR, OFFICE OF BUDGET

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. We're going to call this hearing to order, 
thank you very much, Madam Secretary, for allowing us to 
maneuver a little bit this morning. We did have a lot of things 
going on, and it was my fault, because both committee hearings 
that I'm involved in this morning have quite a lot of gravity 
to them. I appreciate your flexibility to come down and start 
45 minutes late, we will try to get done the important work 
that you do and the important work that I think we do.
    I also appreciate you coming by earlier this week. We had a 
good discussion on a number of topics, of which I think we are 
moving to some fruition and we will probably cover a little 
more of that today, but nonetheless, thank you for coming.
    The Department of the Interior budget totals $11 billion 
this year, $10 billion of which is under this subcommittee's 
jurisdiction. This amounts to a 3.4 percent increase if we take 
out the emergency funds provided in fiscal year 2004 for 
wildland fire.
    In the context of the broader budget situation and our 
emphasis on defense and homeland security, that's pretty good. 
I think it's a sign that the President and the director of OMB 
have confidence in what you're doing over at the Department of 
the Interior, and I also want to congratulate you on a lot of 
things that you've done down there.
    But as we get into the details, it's obvious that we're 
going to have some issues in your budget as we go forward, and 
I'm sure they can be worked out. As has become the custom in 
recent years, every specific project or priority identified by 
Congress in fiscal year 2004 has been stripped from the budget, 
generally without any apparent consideration of its worthiness 
of those priorities. You've used those reductions to finance a 
number of increases in your own priorities, such as various 
programs that make up the ``Cooperative Conservation'' 
Initiative. While many of these programs have long been 
supported by this committee, we're going to have to look 
carefully at the trade-offs inherent in these proposed 
increases.
    There are also a handful of big ticket items in your budget 
proposal that we'll want to talk about. You're proposing a $53 
million increase, or 28 percent for the abandoned mine 
reclamation in conjunction with the administration's proposal 
for SMCRA reauthorization. As I'm sure you're aware there are 
several different reauthorization proposals that have been 
introduced in Congress, and I think it's anybody's guess on the 
outcome of the legislative process and how that will impact the 
2005 appropriation.
    You've also asked for an additional $161 million for 
activities related to Indian trust reform. Let me first say 
that your dedication to addressing this problem has been 
outstanding and it cannot be denied. There is plenty for people 
to quibble about in the terms of the specifics of trust reform, 
but nobody can rightly deny that you have dedicated an immense 
amount of time and effort to the problem and that you have 
advanced the ball significantly down the field.
    That said, we still need to talk a great deal about the 
next set of investments that you're asking us to make in what 
sometimes appears to be a fiscal black hole. Sometimes we throw 
good money after bad.
    Your budget also includes an additional $58 million for the 
wildland fireaccount, including increases of $29 million for 
fire suppression and $25 million for hazardous fuels reduction. 
I don't have to tell you that these costs of wildland fire have 
been eating our lunch, just absolutely tearing our head off the 
past few years. Consistently high levels of fire borrowing has 
been disruptive to a number of programs, and have led directly 
to the cutting or cancellation of projects funded by this 
committee. We hope to avoid that this year, but as you know, 
sometimes those kinds of activities are unavoidable.
    I'm hopeful that between the additional funds included in 
your request and the firefighting reserve fund I worked to 
include in the Senate budget resolution, we can avoid 
disruptive borrowing this year. But over the long term the 
solution lies with better management of our forests, and in 
actively working to restrain firefighting costs. I look forward 
to hearing your progress on those fronts.
    Finally, I want to express my appreciation for one 
particular item in the budget request. For the first time 
during your tenure, the administration is not proposing a large 
decrease in PILT, payment in lieu of taxes. Counties that have 
large amounts of public lands rely on those funds in their 
budgets. While I certainly like to see a larger increase than 
the one you've proposed, this budget is a significant 
improvement over the previous ones. In that regard, I give you 
great credit and we appreciate that very much.

                           PREPARED STATEMENT

    Since we've got a busy committee schedule this morning, 
I'll simply stop here and say that this is a work in progress, 
as you well know and I'm sure that we can find common ground 
and fund the agency as it should be.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Welcome Madam Secretary. It's good to see you here again.
    I appreciated your taking the time to come by my office earlier 
this week. We had a good discussion about a number of topics, many of 
which I'm guessing we'll cover again this morning. But obviously 
there's a lot more to cover. When it comes to your department, there is 
never an absence of things to talk about.
    The fiscal year 2005 budget request for the Department of the 
Interior totals about $11 billion--$10 billion of which is under this 
subcommittee's jurisdiction. This amounts to about a 3.4 percent 
increase if we take out the emergency funds provided in fiscal year 
2004 for wildland fire.
    In the context of the broader budget situation and our emphasis on 
defense and homeland security, that's pretty good. I think it's a sign 
that the President and the Director of OMB have confidence in what 
you're doing over there.
    But as we get into the details, it's obvious we're going to have 
some issues with your budget as we go forward. As has become the custom 
in recent years, every specific project or priority identified by 
Congress in fiscal year 2004 has been stripped from the budget--
generally without any apparent consideration of the worthiness of those 
priorities.
    You've used those reductions to finance a number of increases for 
your own priorities, such as the various programs that make up the 
``Cooperative Conservation'' initiative. While many of these programs 
have long been supported by this Committee, we're going to have to look 
carefully at the tradeoffs inherent in these proposed increases.
    There are also a handful of big ticket items in your budget 
proposal that we'll want to talk about. You're proposing a $53 million 
increase, or 28 percent, for Abandoned Mine Reclamation in conjunction 
with the Administration's proposal for SMCRA [SMACK-rah] 
reauthorization. As I'm sure you're aware there are several different 
reauthorization proposals that have been introduced in Congress, and I 
think it's anybody's guess how the outcome of the legislative process 
will impact the fiscal year 2005 appropriation.
    You've also asked for an additional $161 million for activities 
related to Indian trust reform. Let me first say that I think your 
dedication to addressing this problem is admirable, and cannot be 
denied. There is plenty for people to quibble about in terms of the 
specifics of trust reform, but nobody can rightly deny that you have 
dedicated an immense amount of time and effort to the problem, and that 
you have advanced the ball significantly since you arrived. That said, 
we'll need to talk a great deal about the next set of investments 
you're asking us to make in what sometimes appears to be a fiscal black 
hole.
    Your budget also includes an additional $58 million for the 
wildland fire account, including increases of $29 million for fire 
suppression and $25 million for hazardous fuels reduction. I don't have 
to tell you that the costs of wildland fire have been eating our lunch 
for the past several years. Consistently high levels of fire borrowing 
have been disruptive to a number of programs, and have led directly to 
the cutting or cancellation of projects funded by this Committee.
    I'm hopeful that between the additional funds included in your 
request and the firefighting reserve fund I worked to include in the 
Senate budget resolution, we can avoid disruptive borrowing this year. 
But over the long term the solution lies in the better management of 
our forests, and in actively working to restrain firefighting costs. I 
look forward to hearing of your progress on those fronts.
    Finally, I want to express my appreciation for one particular item 
in the budget request. For the first time during your tenure the 
Administration is not proposing a large decrease in the PILT program. 
While I'd certainly like to see a larger increase than the one you've 
proposed, this budget is a significant improvement over previous ones 
in that regard. I give credit where credit is due.
    Since we have a busy committee schedule this morning, I'll stop 
here and simply say that I look forward to working with you as the 
process goes forward--which hopefully it will.

    Senator Burns. I welcome my good friend from across the 
little Missouri River in North Dakota, Byron Dorgan.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Senator Burns, thank you very much. Madam 
Secretary, thank you for being with us this morning. This is a 
fairly sizable Department and budget request with a lot of very 
important functions, and I will want to visit with the 
Secretary about a range of things, some of which she will 
anticipate before she came here, the United Tribes Technical 
College, tribal college funding, and a series of issues dealing 
with the Bureau of Indian Affairs and Indian health issues and 
so on.
    As I indicated, this is a very large appropriation for an 
agency that has an impact on much of this country in many 
significant ways and I'm very pleased the Secretary is with us 
today. Senator Burns, you mentioned the payment in lieu of 
taxes. Let me add a comment about that. That is a very, very 
important piece of work that we do and we have chronically 
underfunded that over many, many years. The Federal Government 
really does have a responsibility to make up for those revenues 
that had been previously paid in taxes to support schools and 
children and local government functions, and we have not done 
nearly enough, and so we'll visit about that this morning as 
well.
    Senator Burns. Thank you, Senator Dorgan. Senator Bennett.

             OPENING STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman, and 
Secretary Norton, welcome. I must join with my colleagues in 
saying thank you for recognizing reality on PILT. Previous 
budgets have always low-balled it, knowing that the Congress 
would bring it to where it needed to be and then we'd get 
beaten up for being the spendthrifts, and we're glad to have 
you join us now in spending the PILT levels that make more 
sense.
    I notice your chart here about the national parks system. 
I'll be happy to talk to you about that. I remember our 
colleague, Malcolm Wallop, with whom I served on the Energy and 
Natural Resources Committee, who always voted against adding 
any acreage at all to the national parks system, and I'd say 
why, don't you like national parks? He said, I love national 
parks, but what we have been doing for decades is adding to the 
national parks system while not adding to the budget, and I'm 
not going to vote for an additional acre of national park until 
we get the budget where it ought to be. And I'll be happy to 
visit with you about that during the question period.
    I've raised in previous times and will again in the 
question period the question of how much of the budget of 
various agencies goes for litigation. I've talked to our people 
in Utah about that and I'll be glad to pursue that with you, 
and then Alan Greenspan's warning to us on the Joint Economic 
Committee about the coming crisis, indeed, it's not coming, 
it's here, in natural gas and our inability to produce as much 
natural gas as we need to. It is the fuel of choice because 
it's cleaner, easier to transport, et cetera, than anything 
else, so everybody wants to build a natural gas fired--
electricity plant, and then they wonder why the price keeps 
going up when they will not allow us to exploit the natural gas 
that we have on our public lands.
    So those are the areas that I will be talking to you about. 
Welcome and thank you for your service. This is not a fun 
Department always. This is not an easy situation ever, and your 
willingness to take on this assignment and serve as diligently 
as you have is something that does not get commented upon and 
appreciated as often as it should. So welcome to the committee 
and thank you for your willingness to carry on in this 
assignment.
    Senator Burns. Thank you, Senator Bennett. The chairman of 
the full committee, Senator Stevens, have you a statement?

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you, Mr. Chairman. I have just a few 
comments about Alaska. I do at the time, appropriate time, have 
a couple of amendments that I'd like--a couple of questions 
that I'd like to ask. If it does not become my turn before that 
time, I'll submit it for the record.
    Senator Burns. Thank you. Madam Secretary, welcome this 
morning and we look forward to your statement.

                SUMMARY STATEMENT OF HON. GALE A. NORTON

    Secretary Norton. Good morning, Mr. Chairman, members of 
the committee. I'm happy to be here today to present our fiscal 
year 2005 budget proposal. Interior manages one out of every 
five acres of America's lands, lands where people work, play, 
enjoy nature's beauty, and sustain this nation's cultural and 
historical legacies.
    Our mission is challenging because the world around us is 
so complex. Expectations evolve, new technologies emerge, and 
our mission encompasses so much. We seek to leave a legacy of 
healthy lands and waters, thriving communities, and dynamic 
economies. That legacy depends on how well we work together 
across landscapes and across communities.
    As the chairman has noted, our overall budget request is 
approximately $11 billion in 2005. This is an increase of $250 
million. That includes the capability to help us achieve our 
vision of healthy lands, thriving communities, and dynamic 
economies by accelerating the clean-up of abandoned mine lands, 
advancing trust reform, expanding opportunities for cooperative 
conservation, and mitigating water problems in the West.

                             NATIONAL PARKS

    In each of these endeavors, we are harnessing the 
collective creativity of our employees and our partners. Let me 
begin by discussing the national parks. Our parks harness these 
energies by employing about 118,000 volunteers who contribute 
over $4.5 million of work annually. The parks provide a very 
positive visitor experience. Visitor satisfaction with our 
parks was surveyed at 96 percent last year.
    An environmental advocacy group recently released 
Endangered Rangers, a study of the severe staffing shortages 
crippling America's national parks. The portrayal of what this 
report calls a human resources backlog is perplexing, given 
both recent and long-term funding commitments in support of our 
national parks and the funding support that has come from this 
committee.
    The Park Service budget for park operations is at an all-
time high and we are proposing a further increase of $80 
million in 2005. The group's report says that funding for parks 
has declined by 20 percent since 1980. The chart that is behind 
me shows the reality. Park operations funding in nominal 
dollars has increased by 3\1/2\ times since 1980. That's far 
ahead of the overall Federal budget growth or Interior's 
appropriation. The red line on the chart is the overall Park 
Service budget increases, where the other two lines are 
Interior and overall Federal spending.
    To put this number in context, in inflation-adjusted 
dollars, the Park Service increase has been 121 percent. The 
discretionary spending for the Department of the Interior has 
increased by 12 percent in inflation adjusted dollars.
    The President and Congress have demonstrated a strong 
commitment to the parks. Although visitors are satisfied, we 
recognize the need to continue to improve park management to 
ensure that dollars are spent effectively and efficiently. I am 
working with Fran Mainella to review how we manage our parks to 
ensure that priorities are set and goals are achieved.

                        PARK MAINTENANCE BACKLOG

    The President pledged to address the park maintenance 
backlog. Our 2005 budget provides tools to improve 
accountability and a total of $1.1 billion in support of the 
President's commitment to address the deferred maintenance 
backlog. That budget includes $725 million for park facility 
maintenance and construction, which is a $25 million increase 
over 2004. Also, within the highway bill, there is a proposal 
for $310 million for park roads.
    We have already undertaken 1,300 projects to ensure safe 
trails, sturdy roofs, and smooth roads for our parks. We have 
also implemented management reforms to ensure that these funds 
are spent wisely and that the maintenance backlog will not 
recur. For the first time in its history, the National Park 
Service will have by the end of this fiscal year a complete 
facility condition index, thus allowing a systematic approach 
to facility repair and maintenance.
    Our budget also includes a $10 million increase in the 
National Park Service's historic preservation account for the 
First Lady's Preserve America Initiative, a multi-agency effort 
to promote the protection and contemporary use of historic 
sites through heritage tourism.

                          ABANDONED MINE LANDS

    Another challenge that is addressed in our 2005 budget is 
abandoned mine land reclamation. The problems caused by 
abandoned mines have long presented challenges to communities 
in which they are located. Since the Surface Mining Act was 
established in 1977, our program has reclaimed over 225,000 
acres of damaged and dangerous lands. But despite all the work 
done over the past two decades, more than 3\1/2\ million 
Americans still live less than 1 mile from dangerous, abandoned 
coal mines.
    I've traveled to see these sites in several States, and 
it's easy to see why they are so dangerous. There are steep 
cliffs, there are ponds with submerged dangers in them. Since 
1999, about 100 people have died in incidents related to 
abandoned mines.
    Over the past 25 years, the allocation formula under the 
act has resulted in shifting funds away from high priority 
sites. Most abandoned mine lands now go to States based on 
current coal production, yet there's no relationship between 
the current production and the magnitude of the abandoned mine 
land problem in each State. Today only about 52 cents of every 
dollar that we give out in abandoned mind land funding goes to 
the high priority sites.
    Because of this problem, we estimate that it would take 60 
years to reclaim dangerous abandoned mine sites in Pennsylvania 
and 50 years in West Virginia. Our budget addresses this 
dangerous problem by directing abandoned mine land funding to 
where the danger is the greatest. The reauthorization proposal 
would change the funding structure and it would allow States 
like Pennsylvania and West Virginia to eliminate significant 
health and safety problems within 25 years.
    Our proposal will remove 142,000 people from risk annually, 
an increase of 67 percent over the current program. To support 
this proposal, we are requesting $244 million for the abandoned 
mine land program. This is the largest amount ever requested 
since States established their programs almost 20 years ago. By 
acting now to refocus the program, and by directing funding to 
the highest priority sites, the abandoned mine land reforms 
will save $3 billion over the life of the program.

                              INDIAN TRUST

    Let me now move on to Indian trust. This is another of our 
long-standing challenges. We very much appreciate the funding 
support that we have received from this subcommittee over the 
years in order to tackle this challenge.

                           INTERNET SHUTDOWN

    Before I go into our trust reform priorities, I'd like to 
report on the court-ordered shutdown of Interior's Internet 
access. Interior has invested tremendous effort and resources 
over the past 2 years to dramatically improve the functioning 
and security of our computer systems. Despite these efforts and 
tangible improvements, on March 15, the U.S. District Court for 
the District of Columbia in Cobell v. Norton issued a 
preliminary injunction that ordered a shutdown of most of 
Interior's information technology systems from access to the 
Internet. This ruling crippled our ability to carry out a host 
of statutory mandates and to provide services on which the 
public depends.
    It forced most of the Department's computers to be 
disconnected from the Internet, including external e-mail. It 
shut down our web sites. Our work force is spread across 
thousands of locations. The Internet allows us to handle 
information that we need to fulfill our responsibilities to 
manage these diverse areas. The court's ruling affected Indian 
schools, wildlife refuges, financial accounting, and 
distribution of oil and gas royalty payments.
    Fortunately, late yesterday the Court of Appeals put this 
ruling on hold temporarily and will soon consider a longer-term 
and more extensive appellate review. So as of today, most of 
our system will be back up and running, but we still have for 
the Bureau of Indian Affairs, the Office of Special Trustee, 
and the Solicitor's Office a disconnection that has been in 
effect for over 2 years now. They have had no Internet access 
since December 2001. This is also on appeal.

                        INDIAN TRUST MANAGEMENT

    Now I'd like to focus on our unprecedented efforts to 
address trust management. We have a chart that shows our 
increased funding for trust management. In 2003, the Department 
began reorganizing trust functions in the Bureau of Indian 
Affairs and the Office of Special Trustee. The new organization 
resulted from a detailed analysis and a year-long consultation 
process with tribal leaders. Our reorganization reflects a 
synthesis of the views we heard during that consultation 
process.
    The reorganization will help us meet our fiduciary trust 
responsibilities and provide better customer service for our 
beneficiaries. Yet one of the greatest challenges in managing 
these trusts remains, the fractionation of individual Indian 
interests in land that the Federal Government holds in trust.
    As you can see from this chart, with each successive 
generation, individual interests in the land have become 
further and further divided among heirs, each of whom holds a 
smaller and smaller interest in the land. For example, if a 
couple in 1887 owned an undivided interest in 40 acres and that 
couple has four heirs, as you see on the chart, and each of 
them has four of their own heirs, by the time we reach the 
fifth generation, each heir owns less than half a percent of 
the original 40 acres. Without corrective action, millions of 
acres of land will be owned in such small ownership interests 
that no individual owner derives any meaningful value from that 
ownership.
    Our 2005 budget supports our trust reorganization needs. It 
also funds a major expansion in our efforts to reduce the 
fractionation of Indian trust lands. To support these trust 
reform efforts, the 2005 budget includes a $53 million increase 
to reduce the fractionation of Indian lands. Another $7 million 
increase will sustain and expand work begun in prior years to 
reform, re-engineer, and reorganize trust duties so the 
Department can better fulfill its fiduciary responsibilities. 
This work will not be easy. We will continue to work with this 
committee to find constructive solutions for land 
fractionation, probate, and related issues.

                             WILDLAND FIRE

    We are also continuing to work with Congress on the problem 
of catastrophic fires. Our Nation's communities must not 
continue to experience the unnatural catastrophic fires that 
have devastated homes and habitats in recent years. We must 
restore forest and rangeland health.
    On December 3 of last year, President Bush signed the 
bipartisan Healthy Forests Restoration Act. That legislation 
will help us reduce threats from destructive wildfires, enable 
us to restore forest and rangeland health, and encourage public 
participation in selecting and implementing projects to reduce 
unnaturally high levels of brush build-up and overly dense tree 
stands.
    Our budget provides a $25 million increase to conduct fuels 
reduction projects and monitor the results. In total, our 
budget includes over $300 million to advance the goals of the 
new legislation. This investment, together with that of the 
Forest Service, will provide a total of $760 million to meet 
the goals of the Healthy Forest Restoration Act. Our new 
stewardship contracting authority will help us to partner with 
small businesses, non-profits, and local communities to restore 
healthy forests and reduce catastrophic fires.

                        COOPERATIVE CONSERVATION

    Our overall cooperative conservation budget of $507 million 
includes many different grant programs, many of which are very 
familiar to this committee. All of these are based on 
cooperation with States, tribes, local governments, and the 
private sector. Through a variety of conservation partnerships, 
Interior's land managers are joining with citizen stewards to 
remove invasive species, reduce stream bank erosion, and 
enhance habitat for threatened and endangered species.
    For example, our 2005 budget proposal of $58 million for 
invasive species will enable us to partner with other agencies, 
States, tribes, and communities to combat the brown tree snake, 
salt cedar, and many other invasive species through research, 
prevention, control, and rapid response methods. In the Klamath 
River basin, the Department is seeking a long-term resolution 
to conflicts over water and land management. Our 2005 budget 
includes $67 million for this effort, an $18 million increase. 
By improving the health of the Klamath River basin ecosystem, 
we will benefit farmers, tribes, and wildlife.
    Through our cooperative conservation challenge cost share 
program, we funded 256 projects with more than 700 partners in 
40 States and Puerto Rico. We achieved an almost two to one 
matching of non-Federal to Federal funds, with a non-Federal 
portion of $23 million complementing the $13 million Federal 
share.
    Another example of cooperative conservation is the 11-State 
High Plains region, which includes agencies, communities, and 
citizens partnering together from North and South Dakota down 
to Texas. Our budget includes a $5 million increase for the 
High Plains partnership that will help leverage funding by 
partners for conservation efforts over the next 10 years on 2 
million acres.
    Central to all of our resource protection and resource 
management activities is an emphasis on results. Monitoring 
helps us assess those results. Are we achieving healthy lands? 
How effective are our management practices? Our budget includes 
increased funding for our monitoring efforts.

                         MANAGEMENT EXCELLENCE

    Across all of these proposals is the need for excellent 
management, and we have taken a number of steps to improve our 
management to make sure that we are operating more efficiently, 
including improvements to our information technology system 
purchasing and state-of-the-art e-government initiatives, and a 
clean audit opinion for the Department and improved financial 
management.

                           PREPARED STATEMENT

    Our 2005 budget supports our journey toward management 
excellence. Above all, it is a budget focused on partnerships 
and results. We look forward to working with Congress, the 
States, and all Americans to achieve these goals. Thank you.
    [The statement follows:]

               Prepared Statement of Hon. Gale A. Norton

    Good morning. I am pleased to be here today before the Subcommittee 
on Interior and Related Agencies to discuss the fiscal year 2005 budget 
for the Department of the Interior. I appreciate the opportunity to 
highlight our priorities and key goals.
    The Department of the Interior's mission is complex and multi-
faceted. We provide recreation opportunities. We provide access to 
resources. We protect some of the Nation's most significant cultural, 
historic, and natural places. We serve communities through science, 
wildland firefighting, and law enforcement. We fulfill trust and other 
responsibilities to American Indians, Alaska natives, and the nation's 
affiliated island communities.
    Interior's mission is also challenging. It is challenging because 
the world around is increasingly complex as expectations evolve, new 
technologies emerge, and our responsibilities to the American people 
increase.
    Above all, our mission is inspiring. We have close connections to 
America's lands and people, whether American Indians and naturalists, 
hikers and hunters, ranchers and recreation enthusiasts, or 
environmentalists and entrepreneurs. Our responsibilities touch the 
lives of individuals across the Nation. How well we fulfill our mission 
influences:
  --Whether farmers will have water and people can turn on the tap;
  --Whether our children will enjoy America's grand vistas, places, and 
        history;
  --Whether we can hike, bird watch, canoe, or hunt and fish; and
  --Whether we can warm our homes and fuel our transportation systems.
    By fulfilling Interior's mission, we can leave a legacy of healthy 
lands and waters, thriving communities, and dynamic economies. That 
legacy depends on our ability to work together across landscapes and 
with communities. It depends on the efforts of our 70,000 employees, 
200,000 volunteers and thousands of partners.

                            BUDGET OVERVIEW

    Our 2005 budget request for current appropriations is $11.0 
billion. The Department anticipates collection of $10.1 billion in 
receipts in 2005, equivalent to 92 percent of our current 
appropriations request.
    The 2005 request includes $10.0 billion for programs funded in the 
Interior and Related Agencies Appropriations Act, an increase of $228.4 
million or 2.3 percent over the 2004 enacted level.
    Interior's 2005 budget request provides the single clearest 
statement of how we plan to work toward our goals in the upcoming year. 
Our budget fulfills the President's commitments to fully fund the Land 
and Water Conservation Fund; address the backlog of park repair and 
maintenance needs; fix Bureau of Indian Affairs schools; and re-
establish healthy forests and rangelands.
    Our 2005 budget also advances other key goals. It accelerates the 
cleanup of abandoned coal mine lands; expands opportunities for 
cooperative conservation; advances trust reform; seeks to mitigate 
water problems throughout the West through Water 2025; and supports the 
goals of the National Energy Plan.

                  ADDRESSING LONG-STANDING CHALLENGES

    Park Operations.--The National Park Conservation Association 
recently released Endangered Rangers, A Study of the Severe Staffing 
Shortages Crippling America's National Parks. The Study recognizes 
recent progress made in reducing the deferred maintenance backlog, but 
alleges a critical shortage of staff in America's national parks. This 
portrayal of what the study refers to as a ``human resources backlog'' 
is perplexing, given both recent and long-term funding commitments in 
support of our national parks, and the funding support of this 
Committee.
    In the near term, the Park Service's operating account will grow by 
nearly 20 percent in actual dollars and by 13 percent in constant 
dollars from 2001-2005. The 2005 President's budget proposes to 
increase operational spending by $79.8 million, including $22.0 million 
in specific park base increases.
    Our review of the operating level of the National Park Service 
indicates that the system currently has more funds per full-time 
employee, per acre, and per visitor than at any time in its history. In 
addition, the Park Service has better tools for decision-making, 
including our state-of-the-art facility management system.
    The Association's Study reports that funding for parks has declined 
by 20 percent since 1980. Based on our records, funding for operation 
of the National Park System and the U.S. Park Police has increased by 
121 percent in constant dollars, or $473 million, since 1980. To put 
this number in context, the discretionary spending for the Department 
of the Interior in total has increased by 12 percent in constant 
dollars, or $506 million during this same time period.
    Park Maintenance Backlog.--President Bush pledged to improve the 
condition of National Park Service facilities and resources and 
committed $4.9 billion over 5 years for park facility maintenance and 
construction. The 2005 budget continues to fulfill the President's 
pledge, investing $1.1 billion for maintenance, rehabilitation, and 
road repair. The National Park Service's budget includes $724.7 million 
for park facility maintenance and construction, a $25.0 million 
increase over 2004. An additional $310.0 million for park roads is 
included in the Administration's legislative proposal to reauthorize 
the Highway Bill.
    In addition to providing additional resources for park stewardship, 
the 2005 request continues to provide critical tools to improve 
accountability. Utilizing data from annual condition assessments, which 
have been completed for almost all of its regular assets, the Park 
Service has developed an estimated facility condition index, an 
industry standard for quantifying the condition of facilities. This 
baseline provides a launching point for monitoring and addressing the 
maintenance backlog. In 2005, $8.2 million of a $13.2 million increase 
in the repair and rehabilitation budget targets improving the condition 
of priority buildings to good condition. By focusing on one asset 
category, the Park Service will be able to monitor improvements to the 
facility condition index and evaluate the performance and efficacy of 
maintenance programs. The Park Service is committed to bringing all 
assets up to acceptable condition on average with funds provided 
through 2009.
    Abandoned Mine Lands,--Since enactment of the Surface Mining 
Control and Reclamation Act in 1977, the Department has partnered with 
States, Tribes, local governments, and others to reclaim over 225,000 
acres of damaged and dangerous lands. Despite these accomplishments 
over the past two and a half decades, dangerous abandoned coal mines 
remain within one mile of the homes of more than 3.5 million Americans. 
Since 1999 a total of 100 people have died in incidents related to 
abandoned coal mines.
    The primary impediment to completing reclamation of abandoned mines 
is the fundamental imbalance between the goals of the 1977 Act and the 
requirements for allocating funds under the Act. The statutory 
allocation formula limits the ability of the Office of Surface Mining 
to meet its primary objective of abating the highest-priority abandoned 
coal mines. The majority of funding in the program is distributed to 
States on the basis of current production. Yet there is no relationship 
between current production and the number of priority sites in each 
State, which is a function of pre-1977 production.
    Over the past 25 years, the allocation formula has enabled some 
States and Tribes to complete reclamation of all abandoned coal mines. 
Others are decades away from completing work on the most critical, 
high-priority sites. We estimate it will take 60 years to reclaim 
dangerous abandoned mine sites in Pennsylvania and 50 years in West 
Virginia.
    Our 2005 budget proposal seeks to correct this problem. We propose 
to direct reclamation grants to sites where the danger is greatest. The 
reauthorization proposal will allow all States to eliminate significant 
health and safety problems within 25 years and would remove 142,000 
people from risk annually. At the same time, by shifting funds to speed 
resolution of serious health and safety problems, the proposal will 
reduce fee collections and spending by $3 billion over the life of the 
program.
    Under our proposal, States and Tribes that have certified 
completion of high-priority projects will be paid their accumulated 
State share balances in the abandoned mine lands fund as of September 
30, 2004. These payments will be made over a 10-year period. Going 
forward, the grants would be distributed for high priority mine 
reclamation projects.
    The 2005 budget proposes an appropriation of $243.8 million for the 
abandoned mine lands program, including $53.0 million for the initial 
State share balance distribution to certified States and Tribes.
    Indian Trust Programs.--Fulfilling the Department's trust 
responsibilities continues as one of our highest priorities and 
greatest challenges. We appreciate the funding we have received from 
this Subcommittee in addressing this challenge. The assets of the trust 
today include over 56 million acres of land. On these lands, the 
Department manages over 100,000 leases for individual Indians and 
Tribes. We collect approximately $194 million per year from leasing, 
use permits, sale revenues, and interest for 260,000 open individual 
Indian money accounts. About $378 million per year is collected in 
1,400 tribal accounts for 300 Tribes. In addition, the trust manages 
approximately $2.9 billion in tribal funds and $400 million in 
individual Indian funds.
    For 2005, we are seeking $614 million for our Unified Trust budget, 
a net increase of $161 million.
    In 2003, we began to reorganize trust functions in the Bureau of 
Indian Affairs and the Office of the Special Trustee for American 
Indians. The new organization is based on a detailed analysis and a 
year-long consultation process with tribal leaders. Our reorganization 
reflects a synthesis of the views heard during the consultation 
process. When fully implemented, the new organization will better meet 
fiduciary trust responsibilities, be more accountable at every level, 
and operate with people trained in the principles of fiduciary trust 
management.
    To support continued implementation of the new organization, the 
2005 budget proposes a net increase of $7.2 million, including funding 
for 85 new trust-related positions at the local level. We request an 
additional $4.0 million to quicken the pace at which probate cases are 
resolved.
    Improving our trust organization will not by itself resolve the 
issues that we face in managing the trust. A still greater challenge 
remains. That challenge is the fractionation, or continuing 
subdivision, of individual Indian interests in the land that the 
Federal government holds in trust. Indian trust lands are primarily 
transferred through inheritance. With each passing generation, 
individual interests in the land become further subdivided among heirs, 
each of whom holds a smaller and smaller interest in the land. Many 
acres of trust land are already owned in such small ownership interests 
that no individual owner will derive any meaningful value from that 
ownership. Without corrective action, this problem will grow 
exponentially.
    As the number of interests grows, we expect the cost to the Federal 
government for managing, accounting for, and probating these interests 
to increase substantially, possibly to as much as $1 billion at the end 
of the next 20 years.
    The Indian Land Consolidation program, which acquires small 
ownership shares in allotted land from willing sellers, is a critical 
component of trust reform. We have conducted this program as a pilot 
for several years. The pilot has taught valuable lessons about the need 
to target purchases to maximize return of land to productive use and 
allow closure of accounts associated with fractional interests.
    The 2005 budget proposes an unprecedented amount of $75.0 million 
for Indian land consolidation, an increase of $53.3 million. This 
funding will support an expansion beyond the seven pilot reservations 
to include additional reservations with the most highly fractionated 
lands. On a nationwide basis, we are targeting opportunities to 
purchase the most fractionated interests. Interior plans to use 
contractual arrangements with Tribes or private entities to acquire 
individual interests.
    This commitment to end fractionation will also require legislative 
action to provide for workable probate reform, disposal of unclaimed 
property, and partition of land. We want to continue to work with the 
Congress to find meaningful and constructive solutions to these issues.
    The 2005 budget also proposes funding to address the issue of 
accounting for past transactions in the trust. As the Subcommittee is 
aware, the American Indian Trust Management Reform Act of 1994 requires 
the Secretary of the Interior to ``account'' for ``the daily and annual 
balance of all funds held in trust by the United States for the benefit 
of an Indian Tribe or an individual Indian which are deposited or 
invested pursuant to the Act of June 24, 1938.''
    The Department is currently involved in a major class action, 
Cobell v. Norton, and 25 tribal suits over the Department's management 
of Indian trust funds. On January 6, 2003, as ordered by the District 
Court in the Cobell litigation, the Department filed The Historical 
Accounting Plan for Individual Indian Money Accounts. This plan 
provides for an historical accounting for about 260,000 individual 
Indian accounts over a 5-year period at a cost of approximately $335 
million. The accuracy of the transactions would be verified by 
reviewing support documentation on a transaction-by-transaction basis 
for all transactions over $5,000 and by statistically sampling 
transactions under $5,000. The sampling methodology would be designed 
to provide a 99 percent confidence level at any error rate.
    On September 25, 2003, the Cobell court issued a structural 
injunction directing a far more expansive accounting and requiring that 
it be completed under more constrained time lines. We estimate that the 
cost of compliance with the structural injunction would be between $6 
to $12 billion. An appeal from the September decision is pending. The 
Court of Appeals for the D.C. Circuit has stayed the structural 
injunction. In addition, the 2004 Interior Appropriations Act provides 
that the Department is not required to commence or continue an 
accounting for IIM accounts until 2004 or the Congress amends the Trust 
Management Reform Act to delineate the Department's historical 
accounting obligations or until December 31, 2004, whichever occurs 
first.
    The 2005 budget includes $109.4 million for historical accounting. 
This increase of $65.0 million over the enacted 2004 appropriation is 
targeted to provide $80.0 million for IIM accounting and $29.4 million 
for tribal accounting. The budget for IIM accounting is based on the 
estimate of the Department's costs to continue implementation of its 
historical accounting process. This amount may be revised depending on 
how the Court of Appeals rules with regard to the structural injunction 
in the Cobell case and on whether Congress acts to delineate the 
specific historical accounting obligations of the Department as 
suggested in the 2004 Appropriations Act. The Department will continue 
to work with the Congress and trust beneficiaries to consider 
settlement of the historical accounting and related issues.

                       INVESTING IN CONSERVATION

    Healthy Forests and Rangelands.--A significant, ongoing challenge 
we face is that of wild land fire and the risks that catastrophic fires 
pose to communities. The fires in California last fall were a poignant 
and tragic reminder that we must care for our forests and rangelands. 
Our Nation's communities must not continue to experience the unnatural, 
catastrophic fires that have devastated homes and habitat in recent 
years.
    This past December, President Bush signed the Healthy Forests 
Restoration Act. This landmark bipartisan legislation will help to 
restore forest and rangeland health and reduce threats from destructive 
wild fires. It will also encourage public participation in selecting 
and implementing projects to reduce unnaturally high levels of brush 
build up and overly dense tree stands.
    As part of our $743.1 million wild land fire proposal for 2005, the 
budget includes $209.3 million, a $25.0 million increase over 2004, to 
conduct fuels reduction projects and to monitor the results. In 
combination with forest and range improvement activities funded in 
other Interior programs, the 2005 budget includes over $300 million to 
advance the goals of the Healthy Forests Restoration Act. Including 
funding for the Forest Service, the 2005 budget includes $760 million 
to meet the goals of the Act.
    The 2005 request for the wild land fire program also includes 
$221.5 million, an increase of $28.6 million, to fund suppression 
activities, based on the 10-year average, and an increase of $6.5 
million for preparedness to address increasing costs in aviation 
contracts and for the fire program analysis system.
    Cooperative Conservation.--Among Interior's most inspiring roles is 
its mission to conserve lands and waters across America. As we are all 
aware, nature knows no jurisdictional boundaries. Conservation in the 
21st century depends increasingly upon partnerships across a mosaic of 
land ownerships. At Interior, we recognize that we cannot manage 
federal lands successfully unless we are able to work with adjacent 
landowners, States, Tribes, and communities. We also recognize that the 
nation cannot achieve its conservation goals solely by relying upon--
and adding to--the federal dominion of lands.
    These two perspectives underscore the importance of cooperative 
conservation. Through a variety of conservation partnerships, 
Interior's land managers are joining with citizen stewards to remove 
invasive species, reduce stream bank erosion, and enhance habitat for 
threatened and endangered species. Through these partnerships, the 
Department is building the new environmentalism of citizen stewards 
called for by President Bush. These partnerships leverage federal 
dollars by a factor of two or more. They engage Americans in 
conservation. They help us work with citizens to find common ground and 
simultaneously achieve healthy lands, thriving communities, and dynamic 
economies. We look forward to working with members of Congress and 
their constituents in these conservation successes.
    The 2005 budget proposal expands opportunities for conservation 
partnerships with citizens, organizations, and communities throughout 
the Nation. The budget proposes to spend $507.3 million, a 20 percent 
increase, to expand opportunities for conservation partnerships with 
citizens, organizations and communities.
    A cornerstone of our conservation partnership budget is the 
Cooperative Conservation Initiative. The Department has a long history 
of working cooperatively with others to achieve its conservation 
mission. Yet the resources available to land managers to foster 
innovative and collaborative conservation have fallen short of the 
demand. Across the nation, citizens are working to overcome conflict 
and, instead, work together to maintain healthy lands and waters. Our 
Cooperative Conservation Initiative seeks to address this growing 
demand, giving managers the support necessary to leverage funds with 
private citizens, States, Tribes, communities, and businesses to 
protect and restore habitats, wildlife and plants.
    Our Cooperative Conservation Initiative builds on existing 
conservation partnership programs that have established productive 
relationships with local communities and citizens. In total, we propose 
that this initiative will provide $129.5 million, an increase of $25.5 
million, for a suite of seven programs: the challenge cost share 
programs in the Bureau of Land Management, the Fish and Wildlife 
Service, and the National Park Service; the FWS Coastal program; FWS 
Migratory Bird Joint Ventures; FWS Partners for Fish and Wildlife; and 
Take Pride in America.
    The budget proposes $29.6 million for challenge cost-share 
activities, an increase of $8.4 million over 2004. This request will 
enable land managers to undertake additional natural resource 
restoration and species protection projects on or impacting Federal 
lands. Dynamic partnerships with individuals, Tribes, State and local 
governments, non-profit organizations, and others will support an array 
of projects to restore damaged habitats and lands and achieve the 
conservation goals of the Department's land management agencies. 
Projects require a one-to-one match or better, thereby at least 
doubling the benefits of Federal dollars. The request for the bureau 
traditional challenge cost-share programs is $24.4 million.
    In 2003, challenge cost-share programs funded 256 resource 
restoration projects with more than 700 partners in 40 States and 
Puerto Rico. The ratio of matching non-Federal funds to Federal funds 
was nearly two-to-one, with the Federal portion at $12.9 million and 
total funding at $36.0 million.
    The 2005 budget includes $50.0 million for the Partners for Fish 
and Wildlife program. Through the Partners program, the Fish and 
Wildlife Service has established productive relationships with 
communities and over 30,000 landowners, providing financial and 
technical assistance and restoration expertise to private landowners, 
Tribes, and other conservation partners. Since its inception in 1987, 
the Partners program has restored 677,000 acres of wetlands; nearly 1.3 
million acres of prairie, native grassland, and other uplands; and 
5,560 miles of stream and streamside habitat.
    In 2005, the Partners program will leverage $5.0 million in the 
High Plains region through a public/private initiative that will 
restore grassland habitats and declining species over an 11-State 
region. In cooperation with landowners and other partners, the Fish and 
Wildlife Service will focus conservation efforts on restoring, 
enhancing, and protecting 2 million acres over the next 10 years. The 
2005 Partners budget also includes $6.2 million for partnership efforts 
in the Upper Klamath basin.
    Augmenting our partnership achievements is the work of over 200,000 
volunteers who provide over 8 million hours to Interior's programs and 
projects throughout the Nation. These volunteers help repair and 
maintain trails, restore habitat, participate in monitoring and 
research programs, and assist our land managers in many other ways. To 
promote this spirit of volunteerism, the Department has reactivated the 
Take Pride in America program. In California, volunteers enlisted 
through Take Pride pledged 400,000 hours of service to help restore 
areas devastated by wild land fires. The 2005 budget includes $1.0 
million for the Take Pride program as part of the Cooperative 
Conservation Initiative.
    Also funded within the Cooperative Conservation Initiative is the 
Fish and Wildlife Service's Coastal program, for which we propose a 
funding increase of $2.9 million, bringing total funding to $13.1 
million. The Coastal program leads FWS conservation efforts in bays, 
estuaries, and watersheds around the U.S. coastline and leverages 
Federal funding at a rate of 4:1. We also propose to increase funding 
for the Migratory Bird Joint Ventures program by $1.2 million for a 
total of $11.4 million. The funding increase will allow FWS to enhance 
15 existing Joint Ventures and fund the Northern Great Plains and 
Central Hardwoods Joint Ventures.
    Endangered Species Grant Programs.--The Department's cooperative 
conservation efforts also include a number of grant programs that 
provide expanded opportunities for State, tribal, local and private 
partners to participate in conservation and protection of endangered, 
threatened, and at-risk species. These programs will help this nation 
invest habitat protection and recovery of species--the ultimate goal of 
the Endangered Species Act. Through these investments, we can achieve 
on-the-ground conservation results and help avoid the conflicts, land 
management stresses, and procedural workloads that ensue when species 
become endangered.
    The Landowner Incentive Program provides competitive matching 
grants to States, Territories, and Tribes to create, supplement, or 
expand programs to protect and manage habitats on private lands that 
benefit listed species or species at risk. The 2005 budget includes 
$50.0 million to assist private landowners in conserving and restoring 
habitat for endangered species and other at-risk plants and animals. 
This is an increase of $20.4 million over 2004.
    The Private Stewardship Grants program provides grants and other 
assistance to individuals and groups engaged in local, private, and 
voluntary conservation efforts that benefit federally listed, proposed, 
candidate or other at-risk species. A panel of representatives from 
State and Federal government, agricultural and private development 
interests, and the scientific and conservation communities assess and 
make recommendations regarding these grants. The 2005 budget proposes 
$10.0 million for the program, a $2.6 million increase over 2004.
    The Cooperative Endangered Species Conservation Fund provides 
grants to States and Territories to participate in projects to conserve 
candidate, proposed, and threatened and endangered species. Grants to 
States and Territories allow them to participate in an array of 
voluntary conservation projects for candidate, proposed, and listed 
species. These funds may in turn be awarded to private landowners and 
groups for conservation projects. The CESCF grants include funding for 
States and Territories to implement conservation projects to support 
the development of Habitat Conservation Plans and to acquire habitat 
for threatened or endangered species. The 2005 budget proposes $90 
million, an increase of $8.4 million, for the appropriated portion of 
this program.
    Our grant programs also aid a wide variety of other wildlife. The 
2005 budget proposes $80.0 million for the State and Tribal Wildlife 
Grants program. These grants help develop and implement State and 
tribal programs for the benefit of wildlife and its habitat, not 
limited to species that are hunted or fished. The program exemplifies 
our cooperative conservation vision, allowing States and Tribes to 
tailor their conservation efforts in a manner that best fits local 
conditions. A $10.9 million increase for the program in 2005 will 
significantly advance efforts of State and tribal fish and game 
agencies to address on-the-ground wildlife needs. Based on the high 
level of interest in this program, we expect this program will have 
lasting benefits for fish and wildlife, while fostering stronger 
working relationships between Federal, State and tribal governments.
    Full Funding for the Land and Water Conservation Fund.--Our 
cooperative conservation programs are an important component of the 
2005 Land and Water Conservation Fund budget request. Overall, the 
Department's budget seeks $660.6 million from the Land and Water 
Conservation Fund for 2005, including $153.3 million for land 
acquisition and $93.8 million for the State grant program. The 
Department's request, combined with the request for the U.S. Forest 
Service, brings total government-wide LWCF funding to $900.2 million.
    The 2005 LWCF budget includes the same mix of programs proposed in 
2004. This mix strikes an effective balance between Federal land 
acquisition and cooperative efforts to fulfill LWCF goals.
    We believe effective conservation of lands and natural resources 
cannot rely primarily on expanding the Federal estate through land 
acquisition. Such acquisitions remove lands from the local tax base. 
Equally significant, each time we acquire more Federal lands, future 
operations and maintenance costs ensue in perpetuity. Supporting local 
recreation and conservation through partnership programs enables us to 
leverage Federal funding. In many cases, these programs match Federal 
funds at a ratio of more than two to one. They give us an opportunity 
to work hand-in-hand with States, communities, and local landowners to 
build support for long-term conservation.

                          PRESERVING HERITAGE

    Historic Preservation.--March 4, 2003 President Bush and the First 
Lady announced the Preserve America initiative to enhance the Federal 
government's assistance in protecting and supporting the contemporary 
use of historic properties. Developed in cooperation with the Advisory 
Council on Historic Preservation and the Department of Commerce, this 
initiative promotes heritage tourism and wide-ranging partnerships for 
the use and preservation of historic properties. Currently, 26 States 
have some form of heritage tourism program, an economic development 
tool that enhances education, creates jobs, and increases property 
values and tax revenues.
    The 2005 budget includes $10.0 million for Preserve America grants 
to support community efforts to demonstrate sustainable uses of 
historic and cultural sites and provide economic and educational 
opportunities related to heritage tourism. Grants will be awarded 
competitively to preservation entities, such as State and tribal 
historic preservation offices and designated Preserve America 
communities. The Save America's Treasures program, which helps preserve 
nationally significant buildings and cultural artifacts, with proposed 
funding of $30.0 million, complements Preserve America.
    Included within our LWCF Federal land acquisition request is $5 
million for partnerships with States and local governments to preserve 
Civil War battlefields, many of which lie amid areas of rapid 
development in the eastern States.

                       LAND MANAGEMENT CHALLENGES

    Invasive Species.--Invasive species threaten the ecological and 
economic health of the Nation. The total national costs associated with 
invasive species may exceed $100 billion annually. An estimated 5,000 
to 6,000 invasive species have already become established in the United 
States. The most effective strategy to protect native species and their 
habitats is early detection to prevent the establishment of additional 
invasive species.
    The 2005 budget includes $58.3 million for a multi-agency effort to 
address invasive species challenges. Funding will be used to control 
invasive species such as salt cedar in the southwest and control of the 
brown tree snake population on Guam to prevent its establishment on 
other Pacific islands and the U.S. mainland. In addition, Interior 
agencies will focus on early detection and rapid response and conduct 
research to develop test methods and control strategies. The priorities 
for the use of invasive species funding are established by the National 
Invasive Species Council.
    Wild Horses and Burros.--Approximately 39,000 wild horses and 
burros occupy public rangelands. Projected levels of removal and 
adoption are not keeping pace with the growth in the populations of 
these animals. The Bureau of Land Management predicts an unsustainable 
and unmanageable rise in the population based on current management 
regimes, creating the likelihood of ecological imbalance and 
degradation of rangelands, forage resources, and wildlife habitat. The 
2005 budget proposes increased funding for a long-term strategy to 
bring the number of horses to an appropriate management level. The 
budget includes an increase in appropriated funding of $10.5 million 
for the wild horse and burro program to undertake a collaborative 
program of population and habitat management. This increase is offset 
with decreases to programs that benefit from achieving appropriate 
management levels and with reductions to lower priority activities.
    Endangered Species.--Section 4 of the Endangered Species Act has 
strict, non-discretionary deadlines for the processing of listing and 
critical habitat actions. When the Service cannot comply with a section 
4 deadline, parties frequently file lawsuits under the citizen suit 
provision of the ESA. These missed deadline suits result in court 
orders or settlement agreements requiring the Service to act, as courts 
have concluded that they have little or no discretion to give the 
Service relief from the mandatory deadlines of section 4 of the ESA. 
Since fiscal year 2000, the Service's listing program has faced a 
continuing situation where the amount needed to complete court ordered 
listing actions (primarily critical habitat designations) pursuant to 
section 4 litigation has been estimated at or exceeding the funding 
available. In fiscal year 2003, for example, the Service exhausted 
essentially all of its fiscal year 2003 budget for critical habitat 
designations by the end of July and was compelled to suspend work on a 
number of designations that were required by court orders or settlement 
agreements until additional funding became available. The program 
expects continued litigation in fiscal year 2004 and 2005. The total 
funding request for the endangered species listing program is $17.2 
million, an increase of $5.1 million. Of this amount, $13.7 million, an 
increase of $4.8 million, is for critical habitat designations for 
already listed species. This increased funding will allow the Fish and 
Wildlife Service to meet its current and anticipated court orders for 
critical habitat designations. The request also includes $3.5 million 
for other listing activities, an increase of $240,000.

                           MANAGING RESOURCES

    Klamath Basin.--The Department's partnership efforts are bringing 
about change in the Klamath Basin. Interior bureaus, partnering with 
other Federal agencies, are restoring habitat, removing fish migration 
barriers, acquiring land, using water banking, and researching the 
ecology of the federally-listed fish species. Through these partnership 
efforts, the Department is seeking long-term resolution of conflicts 
over water and land management.
    The 2005 budget includes $67.2 million for this effort, including 
$32.4 million for the Bureau of Reclamation and $34.8 million for work 
to be conducted by other Interior bureaus. Other government agencies 
will provide an additional $38 million, bringing a total of $105 
million to this effort. In addition to the $6.2 million increase in the 
FWS Partners program mentioned earlier, the budget includes funds to 
remove the Chiloquin Dam, which impedes passage of endangered suckers 
to 70 miles of spawning habitat on the Sprague River, and to acquire 
lands adjacent to Agency Lake Ranch to increase water storage and 
fisheries habitat restoration. Additional funding will also support 
water banking, water supply enhancement, and water quality improvement.
    Energy.--Lands and waters managed by Interior produce about 30 
percent of the Nation's energy supply. Approximately one-third of the 
natural gas, coal, and oil, one-half of geothermal energy, 17 percent 
of hydropower, and 20 percent of wind power are produced in areas 
managed by Interior. We are committed to implementing the President's 
National Energy Plan, a part of which focuses on a long-term strategy 
for producing traditional and renewable sources of energy on Federal 
lands while maintaining environmental protections and involving all 
interested persons in open decision-making processes.
    The 2005 budget request will help meet the Nation's energy needs by 
focusing on timely access to oil and natural gas resources on public 
lands, consistent with publicly developed land-use plans. We propose to 
maintain Bureau of Land Management oil, gas, and coal programs at the 
2004 funding level of $104.4 million through a combination of 
appropriated funds and $4.0 million in additional user fees generated 
through a proposed rulemaking to bring fees closer to costs for certain 
services. This funding level preserves significant increases that were 
appropriated over the last few years to continue making significant 
progress in reducing permitting backlogs and expediting access to 
energy resources. The budget also includes an $800,000 increase to 
enhance permitting of renewable energy development and processing of 
rights-of-ways for both renewable and non-renewable energy resources.
    As electric power plants shift from coal to clean-burning natural 
gas, the demand for natural gas is expected to increase significantly 
in the next 10 to 15 years. Gas hydrates present promise as an 
additional domestic source of natural gas to meet this skyrocketing 
demand. The 2005 budget for the Minerals Management Service proposes an 
increase of $200,000 to begin a tract-specific hydrate assessment to 
determine fair market value once production is practical. The Minerals 
Management Service proposes $400,000 to complete phase one of a 2-year 
study to examine the potential environmental impacts of the recovery of 
this energy source.
    The 2005 MMS budget includes an increase of $4.3 million for the 
Outer Continental Shelf Connect e-government initiative. The request 
represents the third year of a 6-year project to dramatically reform 
and streamline offshore business operations by improving connectivity 
between the government and the public. The initiative will create a 
citizen-centered web presence and build an e-government infrastructure 
across agencies. Total funding for the initiative in 2005 will be $16.0 
million.
    To ensure that the government receives optimal value on lease 
permits, technology used by MMS must keep pace with the private sector, 
which has embraced and developed new technologies to meet the 
increasing challenge of competition in exploring for petroleum 
resources. The 2005 budget includes $1.9 million for a 3-D 
visualization room, additional geological interpretive tools training, 
workstation-ready well logs, and seismic data management. All of these 
technologies have been routinely used by the private sector since 1995 
for making fair market determinations on lease sales.

              MONITORING AND SCIENCE--KEYS TO PERFORMANCE

    Monitoring for Results.--Central to Interior's resource protection 
and resource management efforts is an emphasis on results. The 2005 
budget proposes to increase monitoring programs to strengthen the 
Department's capacity to assess program results and use that 
information to improve management. The budget requests $77.6 million 
for the NPS Natural Resource Challenge, an increase of $4.4 million 
over the 2004 level, to enhance the Park Service's capability to track 
ecosystem health and water conditions. The increase will fund six 
additional vital signs monitoring networks, bringing the total networks 
to 28. The increase will also fund the remaining seven of 32 water 
quality monitoring networks.
    The 2005 budget request for the Bureau of Land Management includes 
an increase of $4.0 million to strengthen and enhance resource health 
monitoring. Information on the health of resources and trend data help 
land managers develop and revise long-term resource management plans 
and guide day-to-day operational and permitting decisions. Monitoring 
programs provide information needed to ensure that land use plans and 
management decisions are having their intended effect. Monitoring also 
identifies changes in the status of resources on public lands. The 2005 
increase, which builds on the $1.9 million provided in 2004, will allow 
BLM to increase monitoring of oil and gas activity, rangeland 
management, and overall implementation of land use plans.
    We also propose additional increases for monitoring in the Fish and 
Wildlife Service to strengthen migratory bird programs and in the wild 
land fire program as a component of the Healthy Forests Initiative.
    Science.--Scientific research provides information needed to 
understand and resolve many of the complex issues faced by the 
Department. The U.S. Geological Survey is the Department's primary 
source of scientific research, earth sciences data, and other geologic 
information and conducts research on earth and biological processes, 
including natural resources and natural hazards. The 2005 budget 
request includes $919.8 million to continue the Department's science 
programs in the U.S. Geological Survey.
    The Department is increasing the role of science in improving the 
effectiveness of Federal resource management decision-making. We are 
also avoiding duplication in our science efforts. The 2005 budget 
requests an increase of $1.2 million for ``Science on the DOI 
Landscape'' to address priority bureau science needs. The USGS budget 
also includes $1.0 million for Water 2025. This joint initiative with 
the Bureau of Reclamation will minimize future western water crises by 
fostering conservation and interagency coordination, enhancing water 
supplies through improved technologies, and managing water resources in 
cooperation with others. Funding requested for USGS will be used to 
conduct groundwater availability assessments, develop tools and 
techniques for protecting biological resources while meeting water 
supply needs, and to improve methods to characterize aquifers.
    Earthquakes, volcanic eruptions, landslides, coastal storms, 
erosion, and flooding pose threats to lives and property and undermine 
local and national economic health. The Department is enhancing the 
quality and timeliness of information provided to communities so they 
can improve their warning systems, planning processes, response 
efforts, community education, and building modifications. The 2005 
budget maintains the 2004 funding of $4.4 million for the Advanced 
National Seismic System. During 2005, USGS will continue to upgrade and 
install new seismic monitoring stations. Information from these 
stations will support real time earthquake shake maps for emergency 
response in five metropolitan areas. The 2005 budget requests an 
increase of $800,000 to expand pilot high-technology radar 
investigations to develop a national monitoring capability. This 
capability will provide increased tracking of the behavior of 
volcanoes, including Yellowstone Caldera in Yellowstone National Park, 
Three Sisters volcano in Oregon, and four to six Alaskan volcanoes.

                 IMPROVING LAW ENFORCEMENT AND SECURITY

    The Department is second only to the Department of Defense in the 
number of facilities it manages and operates. Stewardship of the 
Nation's parks, refuges, public lands and facilities requires law 
enforcement and security expertise to ensure safety and security for 
employees, visitors, and facilities. Our 2005 budget request includes 
an increase of $24,7 million over the 2004 level for law enforcement 
and security for agencies funded in the Interior bill.
    To enhance security at major National Park icons, the budget 
includes operational increases of $2.1 million for the National Park 
Service and $2.0 million for the U.S. Park Police. We request an 
additional $2.0 million in construction funding to complete security 
improvements at Independence Hall in Philadelphia.
    The 2005 budget contains increases totaling $5.3 million in the 
National Park Service, Fish and Wildlife Service, Bureau of Indian 
Affairs, Bureau of Land Management, and the Departmental Office of Law 
Enforcement and Security to improve law enforcement efforts in border 
areas. The Department's land management agencies manage and protect 
public lands along the Nation's borders that comprise 39 percent of the 
southwest border, 31 percent of the southeast border (Texas to the 
Florida coastline), and 14 percent of the Canadian border. While 
primary responsibility for border security rests with the Department of 
Homeland Security, Interior agencies have an obligation to protect 
employees, visitors, natural resources, and agency facilities.
    The 2005 budget also continues to implement a Secretarial order for 
25 law enforcement reforms recommended by the Office of the Inspector 
General to improve accountability and efficiency. Key reforms include 
implementation of an off-the-shelf reporting system for law enforcement 
incidents to be used by all agencies within the Department. We request 
$5.2 million for this new system. Increases totaling $2.8 million in 
the National Park Service and Fish and Wildlife Service will support 
law enforcement management reforms in those agencies.
    The 2005 budget includes an increase of $7.8 million for the Bureau 
of Indian Affairs to operate eight new detention facilities serving 
Indian populations. These facilities, constructed through a joint 
initiative with the Department of Justice, will be completed by 2005. 
These new facilities meet current detention standards and alleviate 
conditions such as overcrowding and mixing of juvenile and adult 
detainees.

                       PAYMENTS IN LIEU OF TAXES

    Congress passed the PILT Act in 1976 to provide payments to local 
governments in counties where certain Federal lands are located within 
their boundaries. Local governments incur costs associated with Federal 
lands within their boundaries, but are unable to collect taxes on the 
lands. PILT payments are made to local governments in lieu of tax 
revenues and to supplement other Federal land receipts shared with 
local governments. Local governments use PILT payments to improve local 
school, water, and road systems, as well as for other necessary 
infrastructure. The 2005 budget proposes $226.0 million for PILT, a 
$1.3 million increase over the 2004 enacted level, and the highest 
level ever for the program.

                         MANAGEMENT EXCELLENCE

    Behind all of Interior's programs, out of the limelight, rests a 
management foundation that is vital to the accomplishment of our 
mission. The environment in which the department delivers services and 
carries out its mission is changing, driven by the same forces that are 
reshaping the Nation. The American people are demanding more from their 
public servants and calling for better business management practices, 
improved efficiency, financial transparency, and mission 
accountability. Management challenges facing the Department are 
increasingly complex, requiring more sophisticated approaches in human 
resource planning, organizational governance, facilities management, 
and technology security. Legislated requirements and government-wide 
innovations call for increased management rigor. In the past decade 
Congress has enacted extensive legislation including the Government 
Performance and Results Act, Government Management Reform Act, Chief 
Financial Officers Act, Federal Financial Improvement Act, Debt 
Collection Improvement Act, and Information Technology Management 
Reform Act.
    With a solid foundation of employees, volunteers, and partners 
working toward a common set of goals, we have made significant advances 
in our quest for management excellence.
  --Our bureaus are completing condition assessments of all facilities 
        so that we can maintain and manage them better. The Bureau of 
        Indian Affairs and the Bureau of Reclamation have already 
        completed their assessments and the other agencies are well 
        underway.
  --Our agencies are implementing 25 Secretarial directives to 
        strengthen our law enforcement programs and improve our ability 
        to ensure the safety of the visiting public and our employees 
        and volunteers.
  --We consolidated the purchase of information technology systems to 
        achieve significant savings and to provide consistency and 
        interoperability within the Department.
  --We achieved an unqualified audit opinion for the Department and 
        each of our eight bureaus. We completed this process within 60 
        days of the close of the fiscal year, one of only eight 
        agencies to do so.
    In 2005, the Department will continue to support the President's 
Management Agenda and build on this foundation for management 
excellence. The 2005 budget includes increased funding for management 
priorities including two that are highlighted here, the Financial and 
Business Management System and the Enterprise Services Network.
    Our budget proposes $18.6 million for the Financial and Business 
Management System, a $7.0 million increase over 2004. This system will 
replace a combination of systems for processing financial and related 
transactions and meet the Department's needs for business management 
information. It will revamp administrative processes throughout the 
Department by modernizing and integrating financial management, 
acquisition, property management, grants administration, and other 
subsidiary systems.
    The Enterprise Services Network will integrate and consolidate the 
Department's networks, systems, and computing environmental to provide 
secure and robust telecommunications within the Department and to 
customers. The 2005 budget includes $8.0 million for this initiative.
    The 2005 budget also requests funding for bureau-specific 
improvements, including $2.7 million to address material weaknesses in 
the U.S. Geological Survey's financial management practices. The USGS 
budget also includes $1.8 million to modernize and centrally support 
key information technology management practices to enhance service and 
eliminate critical deficiencies in the bureau's information technology 
security infrastructure.

                               CONCLUSION

    The budget plays a key role in advancing our vision of healthy 
lands, thriving communities, and dynamic economies. Behind these 
numbers lie people, places, and partnerships. Our goals become reality 
through the energy and creativity efforts of our employees, volunteers, 
and partners. They provide the foundation for achieving the goals 
highlighted in our 2005 budget.
    This concludes my overview of the 2005 budget proposal for the 
Department of the Interior and my written statement. I will be happy to 
answer any questions that you may have.

    Senator Burns. Thank you, Madam Secretary. I'm going to 
start my questions. I've got quite a backlog of questions, and 
we got started 45 minutes late this morning. I'm going to start 
with the committee members, Senator Dorgan, we'll start off 
with you.

                    UNITED TRIBES TECHNICAL COLLEGE

    Senator Dorgan. Thank you, Mr. Chairman. Thank you for your 
statement. Your statement reflects again how large the agency 
is and how many varied and different functions that you 
perform. Let me go right to the question of the United Tribes 
Technical College [UTTC], because you have visited there and 
you know that not only am I concerned but I'm sure my colleague 
from New Mexico, Senator Domenici, is concerned with respect to 
Crown Point.
    Tell me if you will why there is a zeroing out of the $3 
million that we have appropriated for in the past for UTTC.
    Secretary Norton. The budget for the overall administration 
provides strong funding for tribal colleges, including the 
United Tribes Technical College. There is a program in the 
Department of Education that provides substantial funding for 
the United Tribes Technical College that is above and beyond 
anything that other tribal colleges receive through the 
Department of the Interior budget.
    We have a chart that reflects the funding that goes to the 
United Tribes Technical College compared to the other tribal 
community colleges that are funded within the Department of the 
Interior budget. And as you can see from this chart, the 
average of all of the other tribal colleges is about $9,500, 
and that is per-student funding.
    When you look at the money received by the United Tribes 
Technical College that comes from the Department of Education, 
they receive about $16,500 per student, and so as we looked at 
the overall funding, we felt that it was most equitable to have 
the funding for all of the tribal colleges be somewhat on a 
par.
    There are funds that are also available through the 
Department of Labor under a new initiative from the President 
for jobs training through community colleges. We are working 
with the Department of Labor as they put together their grants 
requirements for that program to ensure that tribal colleges 
will also be eligible for that funding.
    So if you look across the board at Federal funding, you can 
see that there is funding very strongly available for the 
United Tribes Technical College.
    Senator Dorgan. Well, Madam Secretary, first of all, the 
request for tribally-controlled community college funding is 
$5.2 million from the current enacted level, so below, so it 
has been cut $5.2 million below current enacted levels, so I 
don't think there's robust funding for tribal colleges, in fact 
it has been cut. And even at that level, even at last year's 
level, we are funding on a per-student basis dramatically below 
what other colleges would receive for per-student funding.
    Let me say with respect to this chart, that chart gives, in 
my judgement, an inaccurate representation of per-student 
funding, because you're comparing two different kinds of 
colleges, one which requires 18 credit hours per student on the 
right side and the other 12 credit hours per student, so you'd 
have to make an adjustment and create a new chart if you're 
going to compare these colleges. The better comparison would be 
the two tribal colleges, the two colleges, Indian colleges that 
you actually run in the Department, which is Haskell and SIPI. 
If you compare that on a per-student basis, that would be an 
accurate comparison, but this just is not accurate in my 
judgement.
    We, I believe, will restore the funding for United Tribes 
Technical College. I think it is an important educational 
institution. I regret that $3 million has been eliminated and I 
would hope once again as we go into another budget cycle at 
some point in the future that it will be considered on its 
merits and be funded in the administration's budget.

                 TRIBALLY-CONTROLLED COMMUNITY COLLEGES

    Let me go to tribally-controlled community colleges. You 
know, I understand this is a big old budget and there are many 
areas of priorities. There are proposed increases in funds for 
a range of areas, the Wild Horse and Burro Program, which I 
want to ask you about in just a moment, landowner incentive 
grants, New Start Preserve America program and so on. And yet, 
as I indicated, the tribal college funding would be $5.2 
million lower than last year, and I just, just speaking for 
myself, I think that is a missed priority and one that we need 
to correct if we can.
    Can you give me your impression of the value of tribal 
colleges in your judgement?
    Secretary Norton. Tribal colleges are very important and 
community colleges overall are very important. The President 
has put an emphasis on that through his proposal going through 
the Department of Labor. In looking across the board, we see 
that the funding that we propose for 2005 is nearly 40 percent 
higher than 1999 funding.
    You talked about the comparison with Haskell and with SIPI. 
Haskell is about $9,000 per student. SIPI is $5,000. Overall, 
we do want to see more support for community colleges, but our 
tribal community colleges are funded at about $2,000 more per 
student than community colleges across the country, more than 
non-tribal community colleges. So these are important programs. 
We support strengthening all of our educational activities. We 
believe that we are achieving through this budget an equitable 
allocation of the funding across community colleges.

                   LANDOWNER INCENTIVES GRANT PROGRAM

    Senator Dorgan. Madam Secretary, on the Landowner Incentive 
Grant program you're proposing an increase of $20 million. The 
Fish and Wildlife Service says that because of the newness of 
this program, there's no cost data available so they can't 
measure the success of it. So on what basis are we proposing a 
pretty substantial increase in that program at a time when 
we're proposing cuts in tribal colleges and cuts in UTTC and so 
on? What's the basis for proposing an increase without having 
the ability to measure what we've done there.
    Secretary Norton. If you look at the issues that are facing 
land users across this country, whether it's public or private, 
we see potentially tremendous impacts from endangered species. 
The landowner incentive program provides us with another 
approach that lets us work cooperatively with landowners in 
order to enhance habitat for species.
    If we look across a variety of different kinds of 
endangered species, sage grouse, for example----
    Senator Dorgan. I understand that----
    Secretary Norton [continuing]. Is one that is going to have 
a tremendous impact. This lets us get ahead of the curve, and 
instead of having tremendous economic disruption from the 
listing of an endangered species, we can recover that species 
before it gets to the point of having tremendous harm for 
farmers and ranchers and other land users.
    Senator Dorgan. I don't have a disagreement with that. My 
question was, the recommended $20 million increase before Fish 
and Wildlife and others say we've been able to measure whether 
or not this is effective and whether we're accomplishing----
    Secretary Norton. We've seen tremendous results from our 
first years of that program, and it is something that we 
believe in looking at our overall endangered species program is 
the best way to tackle the problems of endangered species.
    Senator Dorgan. Can you share with us then--as I said, the 
Fish and Wildlife says because of the relative newness of this 
program, no significant cost and performance data are currently 
available. Would you share with us whatever information exists 
that persuades you to recommend or the administration to 
recommend this $20 million increase?
    Secretary Norton. I'd be happy to provide you with 
additional information.
    [The information follows:]

  Information on Landowner Incentives Program to Support $20 Million 
                                Increase

    The Landowner Incentives Program provides matching, competitive 
grants to States, the District of Columbia, Territories, and federally 
recognized Tribes. These grants are used to establish or supplement 
existing programs that provide technical and financial assistance to 
private landowners to help them protect and manage imperiled species 
and their habitat. The program provides an opportunity for all States 
to develop the capacity to implement programs modeled after several 
innovative State programs.
    This program's short history does not allow us to provide 
quantitative performance data. However, the Service is currently 
developing performance measures for full implementation during fiscal 
year 2005, which will become the baseline year for future refinement 
and application, and plans to solicit additional input from program 
cooperators that may ultimately add to or refine these measures. 
Specifically, these performance measures will monitor the use of funds 
and document the number of land acres and stream/shoreline miles that 
are protected, restored or maintained on lands through this program.
    The Department believes that the outreach and program support 
provided by the Service, the significant level of interest from States 
and other interested parties, and the demonstrated need for a program 
like this provide a strong justification for the fiscal year 2005 
budget request. The Service has worked to ensure that States and Tribes 
are aware of this program, and that their questions and concerns were 
considered as the Service created and implemented this new program. In 
fiscal year 2003, the Service sought input on its implementation 
guidelines from States and FWS regional offices, and modified the 
program guidelines accordingly.
    The response from States clearly underscored their interest in this 
program. In fiscal year 2003 the Service had $34.7 million available to 
fund grants to States, yet received requests totaling over $60 million 
from 47 States. The $34.7 million was provided to 42 States and 
territories. For fiscal year 2003, 23 Tribal grants totaling $3.9 
million have also been approved.
    In fiscal year 2004, $25.9 million is available for the Landowner 
Incentives program for States, yet the Service has received requests 
totaling $41.8 million from 43 States and the U.S. Virgin Islands. 
Grants to 41 States and territories have already been approved by 
Director Williams.
    Examples of the types of activities supported by Landowner 
Incentive Program grants include the following:
  --In California, a $1.3 million grant to help landowners in the 
        Sacramento Valley, Delta/Suisun Marsh and San Joaquin Basin 
        manage 1,130 acres of riparian habitat for a 3-year period and 
        1,000 acres of native grasslands for a 4-year period until 
        these habitats are self-sustaining. Landowners also will manage 
        950 acres of critical, permanent wetlands to meet the needs of 
        at-risk wetland species and provide an additional 2,500 acres 
        of post-harvest flooded cropland directly beneficial to fall 
        migrant shorebirds and breeding waterbirds.
  --In Maine, a $1.3 million grant will support implementation of the 
        State's ongoing, broad-scale habitat conservation planning 
        effort, Beginning with Habitat. The funds will help landowners 
        conserve habitats to benefit species at risk. It will also 
        allow the State to provide technical and financial assistance 
        to landowners for habitat protection and restoration.
  --In Nevada, a $364,500 grant will help the State establish a program 
        to assist landowners in conserving imperiled species through 
        sagebrush and riparian habitat management, conservation and 
        restoration.

                          WILD HORSE AND BURRO

    Senator Dorgan. I appreciate that. And let's go to the Wild 
Horse and Burro Program just for a moment. Again, this is a $13 
million proposed increase. I think I understand the challenges 
that you face with respect to wild horses and burros, and yet, 
again, because I'm very concerned about tribal colleges, United 
Tribes Technical College and other areas, I see a $13 million 
increase in the Wild Horse and Burro Program, and it appears to 
me that there are roughly 39,000 wild horses and burros on the 
open range. That looks to me like it's over $1,000 per animal 
that's proposed to be spent on that program. Having raised 
horses and cattle myself, I recognize it's very hard to spend 
$1,000 per animal. I don't know what one would have to do to 
create housing for an animal in my hometown for $1,000 a year.
    But nonetheless, describe for me what we're doing on wild 
horses and burros that persuades us to increase the request by 
$13 million.
    Secretary Norton. We are at a very critical time in the 
Wild Horse and Burro Program. We've been bringing down the 
numbers of wild horses that are on the range. We are about to 
get to sustainable levels so that we can keep those horses at a 
level that is sustainable on the areas that are open to them.
    Unfortunately, it is a very expensive program to run. In 
order to bring those numbers down, because we can't use the 
same kind of management techniques we use for other wildlife, 
we have to round the horses up, transport them to adoption 
facilities which are on the East Coast or in other population 
centers, to try to get people to adopt those horses. We have to 
do medical treatments and so forth for them on the way. If we 
are not successful in adopting them, the only thing that the 
law leaves open to us is long-term pasturing of those horses. 
And so we have tremendous maintenance costs that are because of 
the long-term need to do that.
    In order for us to prevent that program from having higher 
and higher and higher costs in the long-term future, we need to 
get those population numbers under control now. That's why 
we're trying to put in a big push today so that we prevent 
higher costs in the future.

                           PARK POLICE CHIEF

    Senator Dorgan. Madam Secretary, let me ask you one 
additional--well, I won't ask a question, I'll ask you if 
you'll provide some information to us. I've not said anything 
publicly about this and will not at this point, but I do want 
to ask you a question about the issue of Theresa Chambers and 
the Park Police. You know that we've read a lot in the 
Washington Post and other journals about this person who 
apparently spoke publicly and said that they are underfunded, 
understaffed, and she subsequently lost her job.
    I know it's the subject of litigation so you likely will 
tell me you can't say much about it, but it is of interest to 
me and concern to me. As I said, I've not spoken publicly about 
it and don't know very much about it. I know last week that, 
yesterday in fact, there was a hearing over in the House about 
a fellow who in the Medicare area withheld information on 
request from the Congress about costs, and this Theresa 
Chambers apparently spoke publicly on television about the Park 
Police and the funding and she was suspended and I suspect 
probably fired.
    Would you submit for at least my information whatever 
information you can submit so I understand what's going on 
here?
    Secretary Norton. We would be happy to do that. As you well 
recognize, that is a matter of employee privacy and we are 
restricted from what we can say publicly on that.
    [The information follows:]

                    Information on Park Police Chief

    Ms. Chambers has not been dismissed from the National Park Service. 
She is on administrative leave while a proposal to remove her from the 
Service and her response to the proposal are reviewed by the Deputy 
Assistant Secretary for Fish and Wildlife and Parks. Except as may be 
governed by statute or regulation, Department of the Interior officials 
are not prohibited from expressing themselves to, or holding 
conversations with, members of Congress.

    Senator Dorgan. I respect that and again hope you respect 
I've not gone off and made any comments about this, but I am 
concerned about whether those who perhaps should be able to 
answer questions of whether funding is adequate in certain 
areas or what the cost might be, whether there are 
repercussions if they speak their mind. And I, again, the 
reason--I wasn't intending to ask you this, but the reason I do 
is because of the hearing yesterday in the Ways and Means 
Committee with Mr. Foster, who is in some amount of trouble 
because information was withheld from Congress that he had in 
his possession.
    Secretary Norton. I will note that the budget for the Park 
Police has increased by 30 percent since 2001.
    Senator Dorgan. All right. If you will just submit whatever 
information you can so that I and my colleagues can try to 
understand it a bit, and again, I don't have conclusions about 
it, I just have an interest in trying to understand what's 
behind the headlines here.
    Madam Secretary, let me finally say, this is always, always 
about choices and the process of economizing in meeting 
unlimited needs with limited resources, and that's what budgets 
are is to make the choices, and I find much in your choices 
with which I agree and some with which I disagree. Tribal 
colleges, we, in my judgment, and I hope with the cooperation 
of other members of the subcommittee, I would say the Senator 
from Montana was very, very important last year in making sure 
that tribal colleges get adequate funding. I hope we can build 
back some of that funding base for tribal colleges and 
organizations like United Tribes Technical College and Crown 
Point in New Mexico, which I think are very important to 
American Indians. Having said that, thank you for appearing 
today.
    Secretary Norton. Thank you.
    Senator Burns. Senator Bennett.

                          BLM LITIGATION COSTS

    Senator Bennett. Thank you very much, Mr. Chairman. Let me 
go back to the issues I raised in my opening comment. I asked 
you at a previous hearing if you had a percentage of budget for 
BLM, in particular asked the same question about Forest 
Service, which I realize is not under your jurisdiction but 
which is under this committee. What percentage of the budget 
has gone for litigation? I've heard that it's as high as 50 
percent. I've asked the BLM people in Utah and they indicate 
maybe not direct litigation costs, but defensive actions to 
deal with litigation costs, the whole thing comes up to 
something like 50 percent of the budget.
    Do you have any better handle on that than that, or is that 
just a ballpark number? Is it too difficult to quantify? It's 
easy to ask the question. Many times it's difficult to come up 
with a quantification. Do you have anything on that?
    Secretary Norton. We will provide you with what we can put 
together. The number is certainly a very high number. We have 
introduced a new financial accounting system that will let us 
have a better understanding of how our funds are spent in order 
to better track things like litigation costs. Certainly in your 
State of Utah, the litigation costs are extremely high. 
Virtually everything that is done in that State by the Bureau 
of Land Management is subject to litigation, and so we do know 
that a tremendous amount of resource does go for that. We'll be 
happy to provide you as much of a quantification as we can of 
that.
    There certainly are a lot of things that are hard to 
quantify because it is doing more paperwork for an 
environmental impact statement because of fear of litigation 
than might otherwise be done, and that's a hard amount to 
quantify.
    Senator Bennett. Yeah, it is difficult, but it is having 
two effects. One, of course, is the budgetary effect, and it's 
outrageous that we're spending public money at that level for 
lawsuits that have no merit whatsoever. They're filed solely 
for their nuisance purposes because the groups that file them 
don't want the agency to go ahead with its mission, and so they 
file a lawsuit, the agency has to respond. I'm told that those 
that actually go to court, the agency wins well over 90, 95 
percent of the time, but the legal fees that go into it, and 
then, as I say, the defensive activity in the anticipation that 
there will be a charge, a challenge, that causes unnecessary 
work to be done so that the record is there so that you can win 
the litigation is a budgetary burden that we ignore, but it's 
huge, and the people who bring that burden, who posture 
themselves as supporters of public lands and supporters of the 
public at large never are called to account for the impact they 
have on the taxpayers.
    The other side of it, which I get talking to BLM people in 
my State is not just the cost, but the delay. Every time they 
want to proceed on some intelligent action of land management, 
they have to figure into the equation the amount of delay that 
will be built into it by virtue of the litigation. As I say, 
they almost always win. It's not a matter of we have to examine 
this because there's a real challenge. No, there's no real 
challenge. It's just an attempt to delay things, and in 
delaying, many times it means the cost goes up eventually or 
the opportunity to solve the problem passes and the problem 
becomes far worse than it was at the time the agency decided 
we'll have to tackle the problem because it goes neglected for 
6 months, 9 months, a year or more, and then finally somebody 
rules the challenge was frivolous, pay all the legal fees, and 
you go back and the problem is 6 months, 9 months, 12 months 
worse.
    So I'm going to keep on this, because I think it is one of 
the underreported and underappreciated problems that we have in 
the political wars that go on over land use, and one side in 
the political wars has discovered that by abusing the courts, 
and I think abuse is the right word, rather than using the 
courts, abusing the courts and abusing the appeals system, they 
can achieve their goal of frustrating you in your 
responsibility to manage these lands in a proper way. And we 
need to quantify it, we need to put a spotlight on it, and we 
need to let the taxpayers know, money that could go for tribal 
colleges, money that could go for park maintenance, money that 
could go for a whole series of things that everybody wants, is 
in fact going into frivolous lawsuits and complaints and 
challenges that simply gum up the works.
    So if you could help us quantify that, I'll assure you I'll 
do what I can to put the spotlight on it if we could get some 
hard data rather than the gut feeling of the people who are 
dealing with it. I'm not challenging their gut feeling. I think 
they're exactly right, but whatever hard data we can get we 
would appreciate it.
    [The information follows:]

                Information on Litigation Costs for BLM

    The BLM only captures costs specifically attributed to litigation. 
These include the costs of gathering of information, preparing 
documents and records, preparing and giving testimony, and working with 
solicitors and attorneys on specific legal cases. For fiscal year 2004, 
the BLM has spent approximately $14.3 million on these activities. This 
does not include any costs for activities related to the prevention of 
litigation conducted as part of the day-to-day operation of the BLM, 
such as complying with the statutes and regulations governing the 
Bureau.

                          NATURAL GAS RESERVES

    Senator Bennett. Now let's go to the issue of natural gas. 
As I said, Chairman Greenspan pointed out to us that long term 
one of our big economic problems is going to be shortage of 
natural gas. As we face the challenge of increased energy in 
this country, people say, well, we don't want nuclear plants 
and we don't want more coal plants. Out in our country they 
don't want hydro. As a matter of fact, many of these groups 
want to dismantle the dams that we've got right now that are 
producing hydro power.
    We all want natural gas, and the law of supply and demand 
is inexorable. I've said it before, I'll say it again. If I 
could control what we carve on the walls around here in marble, 
I would have us carve where we see it every day, you cannot 
repeal the law of supply and demand. We keep trying, but we 
can't. And the law of supply and demand says, the price of 
natural gas is going to go up under this increased demand if we 
don't do something about the supply, and we have a tremendous 
supply of natural gas on public lands in this country, and we 
don't seem to be able to get at it in a logical kind of way.
    I've had conversations. I will not violate the 
confidentiality of the conversations because they were one-on-
one, but I've had conversations with some of the leading 
environmentalists in this country who have said to me 
privately, a natural gas pipeline across public lands is the 
least intrusive activity we could engage in with respect to 
those lands and has no environmental impact at all other than 
the emotional idea that somehow you're violating the land to 
put a pipeline in it. I don't think the land cares, but there 
are some people who feel emotional about that.
    Can you, probably not here, but again for the record, here 
if you could but if the record if you can, can you give us some 
idea of the reserves of natural gas that are on public lands in 
the United States?
    Secretary Norton. We certainly can do that. We have looked 
at that. We have basically a few places to look, the Gulf of 
Mexico offshore, the Rocky Mountain States, and Alaska. The 
natural gas pipeline is obviously a very significant issue and 
something that would have a tremendous benefit in the long run.
    In the short run, there are essentially two things that we 
have done to try to enhance natural gas supply. One is moving 
forward with coal bed natural gas in the Rocky Mountain area, 
and the other is in the offshore area, looking at the existing 
platforms, existing production areas, but providing some 
royalty relief for them to drill down deeper.
    We recently found that there was about a three times larger 
supply of natural gas at the deeper geologic layers under the 
shallow water areas of the Gulf of Mexico than we had 
previously believed. Through our royalty reduction there, we 
estimate that we will save consumers about $500 million over 
coming years because of that enhanced production. So there are 
things that we can do. We also recently unjammed a backlog of 
1,400 permits for coal bed natural gas in the Powder River 
Basin.
    So we're moving forward but it is a tremendous problem. 
You're quite right to highlight that. And that is something 
that the country is really going to have to focus on for the 
long term. We have enough coal bed gas at that plateau to take 
care of California's energy needs for 100 years and we can't 
get at it.
    [The information follows:]

          Information on Natural Gas Reserves on Public Lands

    In 2003, the Department published a study under the Energy Policy 
and Conservation Act (EPCA) which described the technically recoverable 
energy resources in five western basins. These five basins contain the 
bulk of the natural gas resources, and much of the oil resources, under 
public ownership in the onshore United States:
  --the Paradox-San Juan Basin (Colorado, New Mexico, and Utah)
  --the Uinta-Piceance Basin (Colorado and Utah)
  --the Greater Green River Basin (Colorado, Utah, and Wyoming)
  --the Powder River Basin (Montana and Wyoming), and
  --the Montana Thrust Belt (Montana).
    The EPCA inventory provides estimates of undiscovered, technically 
recoverable resources and known reserves of oil and gas beneath the 
five basins and an inventory of the extent and nature of limitations to 
their development. The inventory shows:
  --total area of Federal lands in the five basins, including split 
        estate: 59.4 million acres;
  --total estimated reserves and undiscovered technically recoverable 
        oil: 3.9 billion barrels; and
  --total estimated undiscovered technically recoverable natural gas: 
        138.5 trillion cubic feet.

    Senator Bennett. Just one last comment before I have to 
leave, again for the record and for any journalists that are 
here. It's not just a question of the price of natural gas in 
terms of heating our homes or creating electricity. Natural gas 
becomes a feed stock for the chemical industry, it becomes 
important therefore for fertilizers, all kinds of industries 
depend upon the basis that's available in the--chemical basis 
that's available in natural gas. It doesn't just all go into 
electricity in homes. It ripples throughout the entire economy, 
and again, as Chairman Greenspan has pointed out, it is the one 
form of fossil fuel energy that we at the moment cannot import. 
The only way we can get natural gas from outside the country is 
by pipeline from either Canada or Mexico. We can't get it over 
the ocean by pipeline.
    So we are going to an enormous expense of changing ports 
around the country to accept liquified natural gas when we have 
tremendous amounts of natural gas right here in this country 
that could delay for a generation the necessity of bringing it 
in in liquified form, which is more expensive and from a 
terrorist point of view, far more vulnerable, because you build 
an LNG port and then you bring in a bunch of LNG and a 
terrorist would very much love to blow that thing up. And so we 
have to spend the money to build the facility and then we have 
to spend the money to protect it, and for a fraction of that, 
we could lower prices, increase security, simply by using the 
natural gas and coal-based methane gas that we have here in 
this country, and any statistical ammunition you can provide me 
in that fight, I'd be very grateful.
    Thank you, Mr. Chairman.

                            LITIGATION COSTS

    Senator Burns. Senator Bennett, on these lawsuits and 
frivolous lawsuits, when we lose it is my understanding that we 
pay their legal fees?
    Secretary Norton. That is very often the case.
    Senator Burns. And whenever we win, do they pay ours?
    Secretary Norton. Never.
    Senator Burns. We could probably cut out a lot of those 
lawsuits if they had to pay our legal fees.
    Senator Bennett. That's the British system, and for once, I 
think the British are right.

                                LANDSAT

    Senator Burns. It's something to look at, because the 
Forest Service has the same problem. For the record, Madam 
Secretary, we got questions from Senator Feinstein, who could 
not be here this morning, and also some questions from Senator 
Stevens with regard to his Alaska situation up there, and from 
Senator Daschle on Landsat. Could you bring us up to date on 
that? Are we still working with that mapping and work that 
we're doing with the satellites?
    Secretary Norton. Yes.
    Senator Burns. Give us an update on where it is, and if 
it's working. Also I want to thank Ms. Scarlett and John 
Tresize for coming. You've got a very able staff, they answer a 
lot of our questions and take a lot of the load off both of us, 
welcome this morning along with the Secretary. I forgot to 
recognize you this morning. Could you bring us up to date on 
what's happened with Landsat?
    Secretary Norton. Yes. We are still having problems with 
the degradation of the data coming from the satellite, and so 
we're looking at ways to see if we can sell that data to 
somebody that doesn't need quite the level of sophistication on 
it. We are looking at some reprogramming to determine how we 
might be able to fill in behind that shortfall, and so we are 
looking at a variety of options in order to address that 
shortfall right now.
    Senator Burns. Have you looked at how we might outsource? 
We have imaging, a couple of organizations in Montana, that do 
that. Could we outsource to save a little money, and move some 
of that into the private sector? Because they could tailor 
programs as you want them and give you the desired information.
    Secretary Norton. There are some reasons why the data that 
comes from the Landsat satellite is at a resolution that fits a 
certain niche of needs and it's not generally available in 
other ways. We are looking at the long-term implications--at a 
future satellite--and how that might be structured and what the 
needs would be for that. That's a big, multi-agency public/
private examination of what all of the available options are.

                             WOLF RECOVERY

    Senator Burns. Let's talk about wolves a little bit. That's 
a pretty good shift. As you know, you revised some of your 
management practices in three States, Wyoming, Montana, and 
Idaho and we want to express our appreciation for using 10(j), 
that section of the Endangered Species Act, that would give 
more authority to States and especially handling predators. I'd 
like to see the States assume much more responsibility in 
managing that animal. Can you tell me the cost of the Wolf 
Recovery Program to the Federal taxpayer thus far? If you don't 
have those figures, I would like to have them. And can you give 
me an overall assessment of the program as it is progressing?
    Secretary Norton. We'll provide that figure for the record. 
The wolves are thriving. We have substantially more wolves.
    [The information follows:]

          Information on the Cost of the Wolf Recovery Program

    Wolves in the Northern Rocky Mountain states (Idaho, Montana and 
Wyoming) continue to increase in distribution and numbers, and recovery 
criteria have been met for removing Northern Rocky Mountain wolves from 
the Endangered Species list. Estimates of wolf numbers at the end of 
2003 were 369 wolves in the Central Idaho Recovery Area, 301 in the 
Greater Yellowstone Recovery Area, and 92 in the Northwest Montana 
Recovery Area for a total of 761 wolves. Within state boundaries, there 
were an estimated 345 wolves in Idaho, 234 in Wyoming and 182 in 
Montana.
    The Department estimates that the total funding from 1973 through 
2003 for the Rocky Mountain Wolf Recovery program is approximately 
$16,785,000. This includes FWS, NPS and USDA-Wildlife Services funding; 
as well as funding provided to the States by the FWS. This level of 
support provides for monitoring, collaborative research, public 
outreach, livestock depredation mitigation, and other recovery 
activities.
    In fiscal year 2003, FWS funding totaled $1.567 million, and the 
NPS provided an estimated $210,000 for wolf monitoring and research at 
Yellowstone National Park. In 2004, the Department estimates that the 
FWS will fund $2.251 million for wolf recovery. The NPS will maintain a 
similar level of funding to the 2003 level for Yellowstone National 
Park.
    The USDA-Forest Service may expend some additional funds related to 
wolves, however the Department is not aware of any significant wolf 
recovery activities undertaken by the Forest Service.

    Senator Burns. Are they ever.
    Secretary Norton. Not viewed as good news by some people in 
your State, but there are substantially more wolves than were 
predicted at the time that reintroduction was proposed. So now 
we are at the position where biologically they could be taken 
off of the endangered species list, at least in that area.
    We have two things that we need in order to be able to 
delist them. One is to have the numbers in place so the 
population is healthy. We have that. The second thing is State 
programs that can allow them to assume management of the 
wolves. Both Montana and Idaho have put together programs that 
we think are able to accept responsibility for the wolves. Our 
problem has been the State of Wyoming. We do want to continue 
working with Wyoming to come up with a program that would be 
sufficient for wolf management. Unfortunately, we have not been 
successful so far in that.
    Senator Burns. Well, I know it's expensive and I will tell 
you this and go on record, we rode two drainages down in the 
Montana/Idaho area where we share a common boundary, two 
drainages where we've always had habitat for moose. There was 
not one calf last year in those two drainages, and a lot of 
evidence where the wolves have taken those calves. Now rather 
than fiddle around with some old cranky moose, well, they're 
hitting the ranchers now. We lost around 1,800 or 1,900 head 
the other day, down in Ennis, down in Madison County, and now 
we're going to start lambing one of these days and they go 
through sheep just like they're killers, and they do it because 
they like to kill, not because they're hungry. That's the 
difference.
    We've got more mountain lions than we've ever had in the 
West since I've been out there. Cats kill because they're 
hungry, they just don't kill just for the sake of killing. And 
so, there is a tolerance level on wolves. If we can keep the 
numbers in due bounds, we can have wolves and we can enjoy the 
rest of the resources that we enjoy around our farms and 
ranches. But if you get too many of them, well then you have 
four predators out there called the grizzly bear, the wolf, the 
coyote, and the cat. It gets pretty expensive as far as trying 
to run a ranching operation, or do anything else on those 
lands.
    The Wild Horse and Burro program, this is something that 
Senator Reid of Nevada and I, have been working on for the last 
couple of years, to get the numbers down. Nevada presents a big 
problem, and everyone has to understand that if you want this 
wild horse program, that some of those horses are kept under 
feed lot conditions and not range conditions. This is costly, 
from a person that understands feed lots and maintenance of 
animals.
    Horses, by the way, eat 20 hours out of the 24, we've been 
pretty successful with our small herd in the Pryors, in keeping 
the numbers down where we can manage them. But if we look at 
Nevada, they are cutting into permits of people who have paid 
for permits, and when those horses go through there, and all 
the grass is gone, that should not be allowed to happen, so we 
have to figure out some way to keep those numbers in due bound.
    We can handle anything if the numbers are right. 
Yellowstone Park has over 4,000 buffalo right now. Biologically 
that park cannot carry that many buffalo, and if BLM were asked 
to supervise the ranges in Yellowstone Park, they would have 
thrown everybody off the land and they're doing damage that is 
irreparable for Yellowstone Park.

                            RANGE MONITORING

    Range monitoring has been cut back $1.2 million this year, 
and this funding is being redirected to the Wild Horse and 
Burro Program. How are we replacing that money for range 
monitoring?
    Secretary Norton. If I can defer to Lynn Scarlett on that. 
I do know we've been trying to put more funding into that, but 
the Wild Horse and Burro Program has been impacting our ability 
to do the level of monitoring we'd like to.
    Ms. Scarlett. I believe you must be referring to this year, 
2004.
    Senator Burns. I am.
    Ms. Scarlett. Yes, I understand. We recognize the strong 
need for monitoring of Bureau of Land Management lands and have 
proposed an increase in 2005. The proposed change this year was 
to meet an emergency situation relating to the wild horses and 
burros, but we have planned an increase in monitoring for this 
budget that we're now considering.

                           INTERNET SHUTDOWN

    Senator Burns. And of course right now we're talking about, 
the shut down of the Internet, in the minerals management 
service. What is the chance of getting that back up?
    Secretary Norton. Well, we certainly hope that the court of 
appeals is going to have our systems permanently back online. 
We are working to deal with the overall litigation and that is 
currently in a mediation process with the plaintiffs, but that 
has been very slow going.
    Senator Burns. Well, we've given you more money to upgrade 
that.
    Secretary Norton. You certainly have, and we have spent it. 
I don't have the numbers handy, but it is tens of millions of 
dollars to enhance our computer security system. We have 
focused very intensively on protecting the Indian trust data. 
We've had outside consultants who have come in to look at that 
and have taken a number of steps to ensure that that is better 
protected.
    But overall in the computer world, we going toward more and 
more integration of data, more and more shared databases so you 
can draw on the same information for many uses. As we do more 
of that, it becomes more difficult to separate out one piece if 
a court is going to shut it down.

                     HEALTHY FORESTS CONSULTATIONS

    Senator Burns. As you know, last year we got Healthy 
Forests through. We've been doing a lot of Healthy Forests 
activities especially in clean-up and after fire salvage, and 
everything that the Department of the Interior and the Forest 
Service do they must have some consultation from the U.S. Fish 
and Wildlife Service. Mr. Williams was in yesterday and we had 
a very good discussion about the time line of these 
consultations. It looks like from the time that the request is 
made with the Fish and Wildlife Service, and them getting their 
work done and getting back to the Forest Service in order for 
them to proceed with the sale, or with the salvage clean-up, 
certainly takes a long time.
    In the area of salvage, if you wait too long then the 
salvage loses its value all at once. Can you give us an idea on 
what you propose to cut down that time? Is it staffing? Give us 
some kind of an idea of your assessment about why we can't move 
those requests along in a timely manner.
    Secretary Norton. We're looking at some things that would 
make our system more efficient. We are trying to have early 
coordination with the agencies that are planning actions so 
that we can decide how to handle that consultation most 
efficiently. Often times grouping things together so that you 
consider several similar proposals at the same time helps make 
that much more efficient.
    We are putting together databases so that we've got more 
information that we can draw on more quickly about the various 
species. So there are a number of things like that that will 
help us in streamlining our consultation process.

                      ENDANGERED SPECIES LISTINGS

    Senator Burns. We had quite a conversation on the 
Endangered Species Act yesterday. In Montana, we do not have a 
shortage of prairie dogs, we do not have a shortage of sage 
grouse, and if some of these species are considered for listing 
as threatened or on the endangered list--that goes nationwide 
and it hurts all of us. So I hope there's a way to work around 
an area that does not have a shortage, and that does a good job 
in managing their wildlife and habitat, and can be rewarded by 
being left out of the Endangered Species Act when we start 
talking about recovery.

                        TRIBAL DETENTION CENTER

    I've got several other questions that have to do with what 
Senator Dorgan was talking about and the tribally-owned 
colleges. And because that happens to be one of my areas that I 
have a great deal of interest in, the detention center funding 
as well. We have a situation in Montana where we have a 
privately owned detention center that's located near a couple 
of reservations, which could be used to move some people closer 
to home. We'll talk to you about that at another time.

                       TRIBAL SCHOOL CONSTRUCTION

    School construction. I've still got schools on reservations 
that need to be torn down and rebuilt. I can think of three off 
the top of my head, and you've cut some funding in there. We 
want to work with you on that because we do have about a $66 
million backlog right now on construction across this country 
and we would like to talk to you about that line item as well.
    With that, it looks like I'm the only dog left at the 
hanging. So if you would be amenable to those questions and as 
we work our way through these line items we'll be in 
consultation with you and John and Lynn. We appreciate you 
coming this morning and thank you very much. We'll leave the 
record open, and you might want to respond to those questions 
from others Senators and to the committee. Thank you.

                      PREPARED STATEMENT RECEIVED

    We have received the statement of Senator Thad Cochran. The 
statement will be made part of the hearing record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to welcome Secretary Norton to this 
hearing on the Department of the Interior's budget request for fiscal 
year 2005.
    I am glad to see that funding is requested in the budget for 
research which is conducted by Mississippi State University on invasive 
species. Your statement about the importance of this research is very 
encouraging.
    Another project that is very important to me is the Shiloh National 
Military Park. The National Park Service is doing an excellent job, in 
my opinion, to expand the Park to include the Corinth Battlefields in 
Mississippi as a unit of the Shiloh Park. The construction of an 
interpretive center will be completed this summer, and I am sure it 
will add to the understanding of this important part of American 
history.
    In the town of Corinth much of the original archeology of the Civil 
War era is in pristine condition because so much of the area has been 
protected and maintained by volunteers. Corinth serves as a unique 
treasure of civil war history that is enhanced by several parcels of 
land outside the current boundary of the park. These are significant 
educational resources for visitors. I urge you to consider visiting 
Corinth and working with us to incorporate the battlegrounds in this 
area into the Corinth unit of the Shiloh National Military Park.
    I am also interested in your assessment of the study which the 
National Park Service has undertaken on the organization of the Natchez 
Trace Parkway. I am submitting questions to you for the record of this 
hearing on that subject and on the Corinth Battlefields' situation.
    Thank you for your outstanding service as Secretary of the 
Interior.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                                 WOLVES

    Question. As you know, the reintroduction of wolves to Montana, 
Idaho, and Wyoming has been an expensive venture for Montana's 
ranchers, hunters, and sportsmen. With that in mind, I would like to 
express my appreciation for the revised 10(j) rules giving ranchers and 
the states more authority and would like to see the Department continue 
this direction. I'd like to see states assume even more management 
responsibility, but am concerned that the in the current fiscal 
situation Montana would be unable to bear this burden.
    Can you tell me the cost of the wolf recovery program to the 
federal taxpayer? Can you provide detailed figures for the record?
    Answer. Section 18 of the Endangered Species Act of 1973 requires 
the Secretary of the Interior (working through the Fish and Wildlife 
Service) to annually report certain expenditures for the conservation 
of threatened and endangered species. The first year for the 
expenditures report was for 1989; the most recent report to Congress 
included expenditures reports for fiscal year 1998, fiscal year 1999, 
and fiscal year 2000. The FWS has received 2001 and 2002 data from the 
reporting agencies, but the expenditures report has not yet been 
completed.
    The Service estimates the total expenditures from 1989-2002 for 
gray wolves to be $43,037,535. Of this, the non-FWS Federal agencies' 
expenditures for the gray wolf came to $25,287,278. The data reflect 
non-FWS Federal agency expenditures in the lower 48 states (all gray 
wolf recovery efforts, including the Mexican and the Minnesota/
Wisconsin gray wolf). FWS' expenditures over 1989-2002 for gray wolves 
came to $17,750,257 (see Table 1 entitled Federal Agency Expenditures 
for Grey Wolves, fiscal year 1989-2002).
    The expenditures report includes those expenditures ``reasonably 
identifiable'' to a specific listed species. These reports capture not 
only recovery costs, but also include costs associated with salaries, 
listing, consultation, law enforcement, monitoring and surveys 
attributable to a listed species. The total also includes land 
acquisition costs ``reasonably identifiable'' to the gray wolf.
    Information was reported to the Fish and Wildlife Service by all 
Federal agencies with endangered and threatened species expenditures; 
however, the Service cannot independently verify the information.
    Total expenditures by State from fiscal year 1996 through fiscal 
year 2002 have ranged from $213,000 in fiscal year 1996 to a 
preliminary total of $604,700 for fiscal year 2002. For States that 
would assume management of wolves in the Eastern and Western Gray Wolf 
DPSs upon delisting, State expenditure by State range from a 
preliminary estimate of $1,600 by Idaho in fiscal year 2002 to $100,000 
by Michigan in fiscal year 2000, 2001 and 2002 (see tables below).
    In fiscal year 2003, total FWS funding for wolf recovery in the 
Western Gray Wolf DPS increased dramatically to $1,567,000 due a 
significant increase in pass-through funding appropriated to the 
Service that was used to fund assistance to the States of Idaho, 
Montana and Wyoming for wolf planning; monitoring, management, control, 
and information programs; and $100,000 to USDA Wildlife Services for 
their control programs. We understand that in recent requests to 
Congress for financial assistance, States have requested $800,000-
$900,000 per State to manage the Western Gray Wolf DPS after it is 
delisted.
    FWS funding for wolf recovery in the Eastern Gray Wolf DPS in 
fiscal year 2003 was significantly less than the Western Gray Wolf DPS. 
Approximately $117,000 has been provided from base funding for wolf 
management with another $420,000 in grant funding provided to 
Minnesota, Wisconsin and Michigan for wolf recovery. In fiscal year 
2003, the FWS provided $805,000 in base funding for Mexican wolf 
recovery. The State of Wisconsin has asked that the Service continue to 
commit funding at least 50 percent of the costs for monitoring state 
wolf populations for the first five years after delisting. We are not 
aware of any requests from the States of Minnesota or Michigan for 
financial assistance to manage the Eastern Gray Wolf DPS after 
delisting.

                                                                                 FEDERAL AGENCY EXPENDITURES FOR GRAY WOLVES, FISCAL YEARS 1999-2002 \1\
                                                                             [Totals includes land acquisition expenditures, and reported in actual dollars]
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                              Agency                                   1989       1990       1991       1992       1993       1994       1995       1996       1997       1998       1999       2000     \1\ 2001   \1\ 2002    TOTALS
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Fish and Wildlife Service.........................................    654,900    802,000  1,513,300  1,133,400  1,120,000  1,661,200  1,723,100  1,276,600  1,501,470  2,232,500    959,750  2,052,500    560,637    558,900  17,750,257
                                                                   =====================================================================================================================================================================
Other Agencies:
    Animal and Plant Health Inspection Service....................    132,967     11,247    229,300    252,000    228,356    268,860    297,790    326,329    338,748    401,362    269,421    645,404    737,874    918,075   5,057,733
    Forest Service................................................    872,200    697,300    633,100    663,970  2,543,500    650,860    550,700    426,800    694,300    386,964    378,000    240,000    846,000    152,378   9,736,072
    Natural Resources Conservation Service........................  .........  .........  .........  .........  .........  .........  .........      2,800      3,300        700        300        700  .........  .........       7,800
    National Oceanic and Atmospheric Administration...............  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Air Force.....................................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Army..........................................................  .........  .........  .........  .........  .........  .........  .........  .........  .........     15,000     16,000     20,800     36,000      4,000      91,800
    Defense Logistics Agency......................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Marine Corps..................................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Navy..........................................................  .........  .........  .........  .........  .........  .........  .........  .........  .........      8,000  .........  .........  .........  .........       8,000
    Army Corps of Engineers.......................................  .........        500      1,700      2,600      2,700        600      3,200  .........        500  .........      2,500      2,500      7,250      8,950      33,000
    DOD...........................................................  .........      5,000  .........  .........      6,300      4,000  .........     12,800     21,000  .........  .........  .........  .........  .........      49,100
    Bonneville Power Administration...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Federal Energy Regulatory Commission..........................  .........  .........  .........      4,961      5,838      8,169     17,350      3,683      3,450      2,010  .........  .........      1,400      5,000      51,861
    Nuclear Regulatory Commission.................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Coast Guard...................................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Customs Service...............................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Bureau of Indian Affairs......................................  .........        280  .........        500     12,000     11,500     31,000     93,000     75,000     22,600     14,000      2,000      1,011      8,011     270,902
    Bureau of Land Management.....................................      9,500      7,900  .........     27,800     24,000     29,700     16,000     28,000     32,000     15,500     25,000     13,000     23,600     19,200     271,200
    Bureau of Reclamation.........................................      3,750  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........       3,750
    National Park Service.........................................    496,300    651,400  .........  .........    229,900    418,000    353,400    324,600    280,500    799,195    749,296    792,785    772,400    743,875   6,611,651
    Office of Surface Mining......................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    U.S. Geological Survey........................................  .........  .........  .........  .........  .........  .........  .........    206,000    190,800    219,000    292,500    328,400    371,000    374,500   1,982,200
    Federal Aviation Administration...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  ..........
    Federal Highway Administration................................  .........  .........  .........     41,009     83,400      4,000    109,400     60,000     21,000     14,900     23,000  .........     26,000     25,000     407,709
    Environmental Protection Agency...............................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........      1,500  .........  .........       1,500
    Smithsonian Institution.......................................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........     18,000     25,000      43,000
    Tennessee Valley Authority....................................  .........  .........     25,000  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........      25,000
    NBS...........................................................  .........  .........  .........  .........    390,000    245,000  .........  .........  .........  .........  .........  .........  .........  .........     635,000
                                                                   ---------------------------------------------------------------------------------------------------------------------------------------------------------------------
      Subtotal, Other Agencies....................................  1,514,717  1,373,627    889,100    992,840  3,525,994  1,640,689  1,378,840  1,484,012  1,660,598  1,885,231  1,770,017  2,047,089  2,840,535  2,283,989  25,287,278
                                                                   =====================================================================================================================================================================
      TOTAL, All Federal Agencies.................................  2,169,617  2,175,627  2,402,400  2,126,240  4,645,994  3,301,889  3,101,940  2,760,612  3,162,068  4,117,731  2,729,767  4,099,589  3,401,172  2,842,889  43,037,535
----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Preliminary data; report is currently under development.


   TOTAL STATE EXPENDITURES FOR GRAY WOLVES \1\ FISCAL YEAR 1996-2002
                            [Actual dollars]
------------------------------------------------------------------------
                                   General        Land          Total
          Fiscal year           expenditures  expenditures  expenditures
------------------------------------------------------------------------
1996..........................       179,500        34,000       213,500
1997..........................       437,781  ............       437,781
1998..........................       336,519  ............       336,519
1999..........................       364,680  ............       364,680
2000..........................       253,470       380,800       634,270
2001 \2\......................       299,500       394,400       693,900
2002 \2\......................       341,800       262,900       604,700
------------------------------------------------------------------------
\1\ As report through the International Association of Fish and Wildlife
  Agencies (IAFWA) for the annual report to Congress: Federal and State
  Endangered and Threatened Species Expenditures.
\2\ Preliminary data; report is currently under development.


                SELECTED STATE GENERAL EXPENDITURES FOR GRAY WOLVES \1\ FISCAL YEAR 1999-2002 \2\
                                                [Actual dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
                            State                            ---------------------------------------------------
                                                                  1999         2000         2001         2002
----------------------------------------------------------------------------------------------------------------
Wyoming.....................................................       22,259        8,340        5,600       27,500
Montana.....................................................        3,500        3,834       48,300       57,700
Idaho.......................................................        7,720        7,298        1,900        1,600
Minnesota...................................................       49,200       18,000       18,700        2,100
Wisconsin...................................................       40,500       43,000       43,000       54,500
Michigan....................................................       18,000      100,000      100,000      100,000
                                                             ---------------------------------------------------
      SUBTOTAL..............................................      141,179      180,472      217,500      243,400
----------------------------------------------------------------------------------------------------------------
\1\ As report through the International Association of Fish and Wildlife Agencies (IAFWA) for the annual report
  to Congress: Federal and State Endangered and Threatened Species Expenditures.
\2\ Data reported for the States prior to fiscal year 1999 was reported by species only, not by state and
  species. Fiscal year 2001 & fiscal year 2002 data is preliminary; report is currently under development.

    Question. If we were to transfer management responsibility to the 
states, will that cost remain steady? And how will States finance that 
management?
    Answer. If we were to transfer management responsibilities to the 
states while the wolf is still listed, the Service anticipates 
providing the States with funding as provided to the Service for wolf 
recovery. States may also consider applying for Service grant funding 
(i.e., State Wildlife Grants) to support their wolf management 
programs. Upon delisting, the States may continue to be eligible for 
funding through Service grant programs as well as possibly other 
appropriate Federal programs. We are currently working with the States 
to explore these options.

                   BLM--WILD HORSE AND BURRO PROGRAM

    Question. Madam Secretary, I am deeply disturbed with the Wild 
Horse and Burro Program. Congress has offered to help restructure the 
program to bring costs back in line, but there seems to be a lack of 
desire within the Department to institute any meaningful reform. As a 
result, we have refused to add additional resources over the $30 
million the program receives annually. But rather than offer any 
meaningful reform, the BLM budget proposes a massive $10.5 million 
increase for Wild Horses and Burros, and pays for it by cutting other 
functions like oil and gas, recreation and range.
    Why are the BLM's successful functions being taxed and scaled back 
due to the Department's failure to rein in the abysmal performance of 
the Wild Horse and Burro program?
    Answer. The additional costs for the Wild Horse and Burro Program 
were spread across many programs in the Management of Lands and 
Resources account as these programs will realize the benefits of 
improved rangeland health conditions by the achievement and maintenance 
of appropriate management levels of wild horses and burros.
    Question. What substantial changes have been made to the program to 
get it back on track? Can you offer us any other options?
    Answer. Two fundamentals have guided BLM's management since the 
passage of the Wild Free-Roaming Horses and Burros Act: (1) determining 
appropriate management levels of wild horses and burros on public lands 
and (2) removing excess animals to achieve that appropriate management 
level.
    The task of setting appropriate management levels has involved a 
high degree of controversy, including numerous protests, appeals and 
litigation. At this point BLM has established the appropriate 
management levels in 164 out of 206 herd management areas and has plans 
in place to complete the task in fiscal year 2005.
    As a result of funding received through congressional 
appropriations and reprogrammings from fiscal year 2000 to fiscal year 
2003, the BLM has made significant progress in achieving appropriate 
levels. The BLM has removed a total of 44,018 excess animals through 
adoption of 27,743 animals and placement of 16,270 animals in 
contracted holding facilities since fiscal year 2000. The number of 
animals in long-term holding facilities has risen from 1,700 in 2001 to 
14,000 in 2004.
    The results of this effort have left a population of 36,000 wild 
horses and burros currently on public lands. Populations have not been 
this low since the 1970's, however the current target appropriate 
management level is 26,433. The BLM is now in a position where the 
increased funding proposed in its 2004 WH&B reprogramming and 2005 
budget request would enable the bureau to achieve appropriate 
management levels on the public land by 2006.
    Question. Can you testify that program managers have overturned 
every stone and looked at all options to reduce costs?
    Answer. The large scale removal and placement efforts described in 
the previous answer have been costly, and costs will continue until the 
large numbers of animals now in long-term holding facilities reach the 
end of their natural lives. Holding unadoptable horses has been the 
greatest challenge of the wild horse and burro program since its 
beginning. This problem alone has been the primary cause for the start 
and stop history of the program, whereby BLM has come close on 
occasions to reaching AML by removing animals from the range, only to 
have the corresponding increase in costs to deal with the excess 
animals force BLM to divert funds away from gathers, removals, and 
adoptions, thus leading to another spike in the WH&B population on the 
range. BLM has by law only two ways to deal with horses removed from 
the public lands: adoption, and long-term holding.
    Progress in the program to date has also been the result of 
improved management efficiencies in the following areas: the placement 
of excess animals in contracted pasture has resulted in a much lower 
cost per animal than the previous method of storage in feedlot 
situations; the removal of excess animals has been refined, resulting 
in significant cost savings; larger regional and national level 
contracting efforts have provided additional savings; and BLM has also 
implemented policies for selective removal to minimize the number of 
animals going in to long-term holding pastures.
    Question. Can you tell us that no other option exists except 
slowing key BLM functions to increase funding for a failing program?
    Answer. As explained in the April 2004 report to Congress: 
``Reaching Appropriate Management Levels in Wild Horse and Burro 
Management,'' increasing funding for the program to allow BLM to reach 
AML levels as quickly as possible by accelerating the removal of excess 
animals from the range is the most cost-effective means for addressing 
the WH&B problem. Upon achievement of AML's, the program cost to the 
BLM will begin to decrease. Total program costs will then remain 
constant, but, in the long-term, will start to decrease again as 
natural mortality occurs in long-term holding facilities. The BLM 
considers the WH&B overpopulation to be a bureau-wide resource 
management issue, not a singular issue limited to one MLR program, or 
one or two states. The BLM believes that the benefits that will be 
attained by achieving AML in WH&B populations are very significant and 
will support a majority of resource functions managed by the bureau, 
including rangeland, wildlife, fisheries, endangered species, soil 
water and air, and recreation resources, to name a few. Given competing 
priorities, the BLM Management Team and State Directors agreed that the 
most efficient approach to addressing the WH&B situation was through a 
permanent base adjustment rather than asking for additional funds.
    Question. I believe this requires strong Departmental attention. 
Why weren't the additional costs of this program spread department 
wide, rather than merely focused on the BLM?
    Answer. The additional costs for the Wild Horse and Burro Program 
were spread across many programs within BLM, as these programs will 
realize the benefits of improved rangeland health conditions by the 
achievement and maintenance of appropriate management levels of wild 
horses and burros. These benefits more clearly relate to the management 
of the public domain (BLM) than to management of other programs under 
the Secretary's direction.

        BLM--COST RECOVERY AND REDUCTIONS IN OIL AND GAS PROGRAM

    Question. Madam Secretary, the BLM budget assumes income from a 
number of user fees. I am most concerned with the $4 million proposal 
in the oil and gas management account. As you know, energy concerns 
continue to remain at the forefront of much of the work here on Capitol 
Hill.
    When will the rule makings be in place for these cost recovery 
mechanisms and can you provide the subcommittee with additional 
information as to when the funding will be available to continue work 
in the oil and gas programs?
    Answer. BLM plans to publish an energy and minerals cost recovery 
rule in September 2004 with fee collection under the rule to begin in 
early fiscal year 2005. Funds will be available to field offices for 
use immediately after the fee is collected.
    Question. Can you assure the subcommittee that oil and gas 
permitting activity will remain at or above the fiscal year 2004 level 
if we were to adopt the Administration request?
    Answer. BLM does not expect the level of permitting activity to 
drop in areas with known potential as a result of the cost recovery 
proposal contained it its 2005 Budget. Demand for natural gas is 
growing and the fee increases are small relative to the value of the 
underlying resource. The proposed fees for document processing comprise 
a small share of the producers' total cost; therefore, we do not expect 
the fees to act as a disincentive to exploration and development.
    Question. The Administration is also proposing cost recovery for 
hard-rock mining applications. Shouldn't the Department first focus on 
better management practices and creating a timely permitting system 
before charging for what is currently a broken process?
    Answer. The fees collected under this rule are small, relative to 
the value of the mineral resource, but have the potential to provide 
BLM with funding in a timely manner, especially in times of rapidly 
changing demand. The BLM is undertaking initiatives that assure that 
its energy and minerals permitting is more timely. Please refer to the 
Federal Register of March 8, 2004 (69 FR 10866). This publication 
revises the Departmental Manual for actions subject to the National 
Environmental Policy Act of 1969 (NEPA). The revision streamlines the 
NEPA process within the Department of the Interior, prevents 
duplication of studies and efforts, and requires parallel (as opposed 
to sequential) studies of various issues related to an Environmental 
Assessment (EA) or Environmental Impact Statement (EIS). These changes 
will reduce considerably the time necessary to revise and respond to a 
plan of operations.
    The BLM and the DOI do not consider our permitting process to be 
``broken.'' However, we recognize that the NEPA process is the single 
most time consuming event in the permitting process. The completion of 
base line analysis and findings of the NEPA document, however, provide 
the guidelines used by management in its permitting process. By 
reorganizing and streamlining the Department's NEPA process and 
requirements as referenced above, the industry will begin to experience 
a considerable reduction in the time it takes for the BLM to reach a 
decision point on a proposed plan of operations.
    However, it is important to keep in mind that hardrock mining 
operations are very different from other resource extraction activities 
(such as oil and gas) and, if conducted improperly, can have serious 
environmental consequences. Plans of operation often require a 
substantial amount of upfront review to ensure that risks are properly 
evaluated and the environment and taxpayers are protected from 
unforeseen costs. Therefore, it is unreasonable to expect that 
permitting of large-scale operations will ever be a speedy process.
    Question. Does the Department have a computerized tracking system 
for various permit types and can you provide the Committee with 
information illustrating the amount of time that currently elapses 
between submissions of plans of operations or notices and when the 
permit is finally approved?
    Answer. BLM has two database tracking systems (MIS and LR2000) that 
are used in relation to its 3809 activities. MIS tracks the number of 
Plans and Notices that are targeted for a given year and at the end of 
it, compares the planned number with the number of Plans and Notices 
that were actually completed. LR2000 is designed to track all aspects 
of a case (Plan or Notice application) from beginning to end or closure 
of the case. Data regularly entered into these systems allows BLM to 
track key dates associated with a case. Key dates would include, but 
are not limited to, the date of receipt of the application, the date of 
approval of the application, and the date of an inspection. BLM can 
access the database and specifically request all pending cases as well 
as dates associated with the initial application.
    Under the 3809 regulations, as revised in 2001, Notices are 
required to provide a financial guarantee for reclamation prior to 
commencing operations. Based on a review of LR2000 serial register 
pages for Notices and Plans of Operation, after the required financial 
guarantee has been accepted, the amount of elapsed time before BLM 
issues a notice to proceed ranges from 15 days to 6 months. The revised 
3809 regulations also require BLM to respond within 30-days of receipt 
regarding the completeness of the proposed operations. The required 
information submitted must be complete in order for BLM to determine 
that the operation will prevent unnecessary or undue degradation of 
public lands. Due to the varied complexity of the proposed operations 
and the level of NEPA analysis required, new plans and/or amendments 
can range from 3 to 18 months before BLM approves the operation. In 
some cases it may be in excess of two or more years.

                         BLM--RANGE MONITORING

    Question. We have heard from many of BLM's managers on the ground, 
as well as industry, that the Bureau must do a better job of range 
monitoring. Last year we provided additional resources in both BLM and 
Forest Service to accomplish this goal. Unfortunately, BLM range has 
been reduced by $1.2 million in the request, with most of this funding 
being redirected to the wild horse and burro program.
    Why would the Administration reduce range monitoring that will 
allow us to target range improvements and shift the funding to other 
programs offering less potential for improvement on the ground?
    Answer. In fiscal year 2004, Congress added about $1.2 million to 
the BLM range program, directed specifically for on-the-ground 
monitoring. BLM allocated this funding to on-the-ground data collection 
that would supplement existing monitoring and assessment work 
associated with issuing grazing permits. The additional fiscal year 
2004 monitoring funds were considered a one-time add-on and were not 
requested in fiscal year 2005. BLM continues to make monitoring, 
assessment and evaluation of data a priority where it will fulfill our 
goal to have all grazing permits fully processed in the year they 
expire. To accomplish this, BLM has redirected efforts to conduct fewer 
lower priority tasks such as use supervision visits and compliance 
checks. Monitoring will be deferred on lower priority areas where 
permits have already been fully processed or standards of rangeland 
health are being met. Data collection will be conducted in high 
priority areas. The Department also believes that providing additional 
funds to the Wild Horse and Burro program will ultimately help improve 
range health by removing excess animals from the range.
    Question. In the absence of sound range management, how do you 
propose we target improvements and defend potential challenges to BLM's 
work as a steward of the land?
    Answer. BLM is committed to resolving the wild horse and burro 
issue because maintaining populations at Appropriate Management Levels 
will reduce impacts on rangeland resources. Rangeland monitoring is 
used to detect change and status of rangeland conditions to ensure 
achievement of healthy rangelands. Rangeland monitoring studies verify 
the need to achieve appropriate management levels (AML) of wild horses 
and burros on public lands. BLM has made substantial progress towards 
the achievement of AML and is presented with the opportunity to finally 
achieve those levels by continuing to aggressively pursue the removal 
of excess wild horses and burros. For that reason, BLM has proposed to 
redirect funds from other subactivities such as the range program to 
reach the goal of appropriate management levels as quickly as possible. 
This will result in the improvement of healthy rangeland conditions.

             BLM--HAZARDOUS FUELS WORK AND COST CONTAINMENT

    Question. I notice the administration request increases wildland 
fire suppression funding by $28.6 million over the fiscal year 2004 
level. We have had numerous discussions regarding cost containment and 
have had the National Academy of Public Administration review cost 
containment options.
    Can you outline steps you have implemented or plan to implement to 
contain the escalating costs of fire suppression operation?
    Answer. The Department is very interested in containing the costs 
of emergency responses to wildfires. The Department shares the concerns 
of this Committee regarding the cost of suppression operations, not 
only because of our awareness of the limited resources available, but 
also because of the impact that borrowing for fire suppression has on 
other DOI programs.
    This Department and the U.S. Forest Service have been working 
together closely for the past year on suppression cost containment. The 
Wildland Fire Leadership Council, the executive policy-making body for 
the National Fire Plan, directed that the agencies conduct fire 
incident management and cost reviews at large fires in 2003. These 
reviews focused on operational and overhead actions taken on five of 
the largest fires and reported that there were common areas of concern. 
Among their findings was that cost containment guidance was understood 
and followed by fire managers; extensive use of contract crews and 
engines may be significant cost driver; incident management team 
transitions contributed to high costs; resource ordering and 
availability problems contributed to high costs; and, there was 
inadequate contracting support and oversight at large fires.
    In response to these findings, the fire management agencies have 
taken several actions. The Federal Fire and Aviation Operations Plan 
for 2004 requires that incident commanders must suppress wildfires at 
minimum cost, considering firefighter and public safety, benefits, and 
values to be protected, consistent with resource objectives. This year, 
additional incident business advisors will be assigned to large fires, 
oversight of contract resources will be increased, problems in the 
resource ordering system are being corrected, and the costs of 
transitioning from one incident management team to another will be 
reduced.
    The section of the Operations Plan that directly addresses cost 
containment issues is attached.

                            COST CONTAINMENT

    Policy: ``Fires are suppressed at minimum cost, considering 
firefighter and public safety, benefits, and values to be protected, 
consistent with resource objectives.''
    Principle: Agency Administrator oversight and involvement during 
the decision-making process is critical for containing suppression 
costs.
    Intent: The primary criterion for choosing suppression strategies 
is to minimize costs without compromising safety. Planned and actual 
suppression costs must also be commensurate with the values to be 
protected. They must be included and displayed in the Wildland Fire 
Situation Analysis (WFSA).
    It is inappropriate to expend suppression dollars with the explicit 
objective of achieving resource benefits even though resource benefits 
may result in some areas of the fire.
    Indirect suppression strategies are viable alternatives in many 
situations. Prior to selecting such a strategy carefully weigh the 
implications on safety, cost and escape potential. When fire danger 
trends are rising, the selection of these strategies must be carefully 
scrutinized.
    Long-duration wildfires where large numbers of firefighting 
resources are being committed need to be closely evaluated by National 
Interagency Cost Oversight Teams.
    Objective: Expend only those funds required for the safe, cost-
effective suppression of the incident.
Direction
  --Agency Administrators are responsible for financial oversight. This 
        responsibility cannot be delegated. See Table 1 following this 
        section for approval thresholds.
  --Maintain a minimum of two inter-agency National Interagency Cost 
        Oversight Teams.
  --When fire danger trends are rising, the long-term consequences of 
        indirect suppression strategies, including final fire cost, 
        will be considered in the initial action decision.
  --Produce WFSA alternatives that display a full range of appropriate 
        management response options. All alternatives must be developed 
        with strong emphasis on cost accountability based on the values 
        to be protected, with due consideration given to a minimum cost 
        alternative.
  --A suppression cost objective will be included in the Delegation of 
        Authority to the Incident Commander. Revision or amendment of 
        the WFSA is required if incident cost objectives are exceeded.
  --Incident suppression cost objectives will be included as a 
        performance measure in Incident Management Team evaluations.
  --An Incident Business Advisor (IBA) must be assigned to any fire 
        with projected suppression costs of more than $5 million. An 
        IBA is advised for fires with suppression costs of $1-5 
        million. If a certified IBA is not available, the approving 
        official will appoint a financial advisor to monitor 
        expenditures. The IBA reports directly to the responsible 
        Agency Administrator.
    In October 2003, the Wildland Fire Leadership Council convened a 
senior level interagency strategic issues panel comprised of State, 
local, Tribal and Federal representatives, and incident team members. 
These individuals, who represent a mix of on-the-ground and policy 
expertise, are examining cost containment issues in a broader, land 
management-based scope that integrates suppression and vegetation 
management. The panel's findings will be announced this summer.
    The Council has also approved several other changes to the wildland 
fire management program that will help in controlling costs in the 
future. First, common fire incident cost codes will be used in all 
agency financial systems for all fires beginning this year. Being able 
to accurately report on the accumulated costs of specific fire 
incidents will improve accountability and give agencies a new tool for 
identifying major cost drivers. Second, the Council ratified the 
interagency decision to adopt common budget structures and definitions 
for budget line items. For the first time, beginning in 2005, costs 
charged to Suppression, Preparedness, and Burned Area Rehabilitation 
will mean the same thing for both agencies, resulting in transparent 
cost accounting.
    Later this year, fire management plans for all lands managed by DOI 
bureaus will be completed. The plans will identify areas and the 
conditions under which naturally-occurring wildfires will be managed as 
a least-cost suppression action or a wildland fire use action. 
Monitoring actions on wildland fires should cost less than active 
suppression action and may benefit the areas being burned.
    The root cause for the catastrophic wildfires we have been 
experiencing in recent years is the buildup of hazardous fuels that 
ignite easily and spread with a much higher intensity than in past 
decades. The accumulation of hazardous fuels resulting from one hundred 
years of aggressive fire suppression, coupled with 10 years of drought 
conditions in much of the West, present an ongoing danger to lands and 
communities and will likely continue to result in a high level of fire 
activity. This Department has a very active and increasingly successful 
fuels reduction program. Nevertheless, it will take many years to 
reduce fuel loads sufficiently to gain some measure of control over the 
risk of catastrophic wildfires.
    Question. Additionally, the request increases hazardous fuel 
funding by $25 million.
    Can you outline what the Department of the Interior has done 
following the implementation of the Healthy Forests Act to make these 
dollars go as far as possible?
    Answer. The Department is taking several steps to make fuels 
dollars go farther. For example, the Department has implemented CEQ 
guidelines streamlining fuels treatment environmental assessments (EA). 
This will save time and money. The Bureau of Land Management, in 
particular, is making extensive use of the new categorical exclusion 
(CX) for certain fuels treatments. Moreover, use of the CX is allowing 
fuels treatments that otherwise would not have taken place, because of 
the increased cost and time of conducting the EA compared to that 
needed to support a CX, to go forward quickly.
    In addition, the Wildland Fire Leadership Council has approved 
moving forward with LANDFIRE, a sophisticated GIS vegetative mapping 
system that will provide data layers on fuel and condition class. This 
information will improve the efficiency of selecting and strategically 
placing fuels treatments to obtain a greater degree of risk reduction.
    Further, the Department has increased contracting in the hazardous 
fuels reduction program, drawing upon the expertise of the private 
sector and the cooperation of local resources to improve program 
performance. More than 50 percent of fuels treatment dollars go to 
contractors. This also stretches the ability of agencies to treat 
priority acres and expedites the pace at which fuels projects can be 
conducted compared to if bureaus only utilize in-house staff.
    Question. Are you increasing the number of forest stewardship 
projects or the use of categorical exclusions to increase the 
percentage of these dollars that actually goes for on-the-ground work 
as opposed to paper work?
    Answer. The Bureau of Land Management is making extensive use of 
the new categorical exclusion (CX) for certain fuels treatments. The 
use of CXs is expected to increase in fiscal year 2005 as field staffs 
better understand the authority and processes involved.
    The use of stewardship projects is also expected to increase in 
fiscal year 2005. The Bureau of Land Management expects to award 34 
stewardship contracts in fiscal year 2004. In fiscal year 2004 many of 
the stewardship projects were conversions of existing fuels treatments. 
In fiscal year 2005 we will be able to design fuels treatment projects 
as stewardship projects. As field staffs gain experience with the 
authority and the processes involved they are better able to identify 
and design fuels treatment projects that will make good stewardship 
projects. In fiscal year 2006 the Bureau of Land Management expects to 
award 50 to 60 stewardship contracts.

                   BIA--TRIBALLY CONTROLLED COLLEGES

    Question. Madam Secretary, you know the Tribally Controlled 
Community Colleges are a program I believe have been a resounding 
success in helping our native communities, yet your request reduces 
their funding by $5 million.
    Considering Tribal Colleges receive much less federal funding per 
student than other federally funded institutions, how can you justify 
this decrease?
    Answer. Education is one of the highest priorities of the 
Administration. The President and I remain committed to the President's 
promise to improve education and ``leave no child behind.'' The 2005 
request continues the President's commitment so that Indian children 
have safe and nurturing places to learn. Funding for elementary and 
secondary school operations is continued at the 2004 level, nearly 22 
percent above the levels provided just eight years ago (1996).
    Since 1996, funding for tribally controlled colleges and 
universities has increased by 58 percent. Just since 2001, we've 
increased funding for these schools by 14 percent. The 2005 budget 
maintains funding for tribal colleges at the 2003 enacted level. It 
includes an increase of $506,000 for two existing TCUs that recently 
met the statutory requirements for BIA support. Together with expected 
funding from the U.S. Department of Education, our budget will provide 
about $9,500 per student count.
    Question. Last year you argued the Tribally Controlled Community 
Colleges were reduced to support other educational programs in Indian 
country.
    Can you show me where this $5 million was shifted in the request 
before us?
    Answer. The needs in Indian country are widespread and disparate. 
Increases for fiscal year 2005 have been requested in the areas of 
higher priority to Tribes on a nationwide basis. These include law 
enforcement and public safety, economic development, forestry, and 
self-determination efforts.

                     BIA--DETENTION CENTER FUNDING

    Question. I applaud the efforts of the Departments of Justice and 
Interior to fund a round of 20 new tribal detention facilities. 
However, it is my understanding that BIA funds have been slow in coming 
to staff and equip the detention facilities once construction is 
completed.
    Your budget request includes an increase of $7.8 million to open 8 
of the 20 facilities built in cooperation with DOJ. Will this funding 
level fully meet the need, or will the opening date of some facilities 
be slowed due to a lack of funds for staffing?
    Answer. Including prior year funding and the 2005 President's 
Budget, all of the 15 detention centers that have already been 
completed or scheduled to be completed by February 2005 will be fully 
funded for operations, based on estimates of total identified operating 
need.
    Three detention centers are currently scheduled to be completed at 
the very end of fiscal year 2005 (September 2005). The President's 
Budget provides funding for start-up purposes for these three 
facilities.

            BIA--CLAIM SETTLEMENTS AND OVERALL FUNDING LEVEL

    Question. I notice that about half of the reduction to the BIA 
accounts comes from the Claim Settlement account. It is my 
understanding that the amount requested fulfills the government's 
responsibility in fiscal year 2005.
    Can you confirm the budget request level fully funds government's 
responsibility for claims in fiscal year 2005?
    Answer. Yes, the budget request level fully funds the government's 
responsibility to pay Indian land and water rights claims in fiscal 
year 2005. A number of settlements have ended in recent years, and only 
a few new ones have been added. The Department does not request funding 
for a settlement until it is finalized either through legislative or 
judicial action.

                        BIA--SCHOOL CONSTRUCTION

    Question. The administration proposes cutting the BIA school 
construction budget by $66 million following an unprecedented effort to 
reduce the backlog.
    Can you explain the Department's decision to reduce the school 
construction account and the impact on this decision now that BIA has 
released an updated list of schools slated for construction?
    Answer. By the time we have completed the work proposed in our 2005 
budget, 60 percent of BIA schools will be in good or fair condition. At 
the beginning of fiscal year 2002, 65 percent of BIA schools were in 
poor condition.
    We do have a $66 million reduction in the 2005 program. To put this 
in perspective, however, this is a reduction of about one-fifth. We are 
still proposing a robust program of $229 million. As recently as 1999, 
spending on BIA school backlog needs was only $60 million a year.
    The reason that we are comfortable with the fiscal year 2005 
program level is that we currently have 21 replacement schools in the 
planning and design process or under construction. The 2005 budget will 
build the remaining five schools on the current replacement priority 
list. The budget also provides $10 million for the tribal school 
construction demonstration program, which is likely to fund an 
additional two schools on a cost share basis with Tribes. Funding 
additional replacement schools in 2005 would get us too far ahead of 
our ability to prudently manage the construction program.
    Question. Can you give us an idea of the carryover balances in the 
school construction account for the past few fiscal years?
    Answer. The carryover in fiscal year 2002 was $101 million, and in 
fiscal year 2003 $201 million. The reason for the high carryover 
amounts is because construction funds are not obligated until planning 
and design is completed.

             OFFICE OF THE SPECIAL TRUSTEE--OVERALL FUNDING

    Question. The ongoing trust management issue and reorganization 
efforts remain a hot-button issue for many of my constituents. Most 
tribal organizations are extremely unhappy with the direction of the 
reorganization. I have numerous questions regarding the implementation 
of these proposals.
    I have been approached with concerns that funding the regional 
trust officers is a waste of money that is not supported by tribal 
entities. I have been told there is a serious lack of appraisers and 
other key support positions for trust management activities on the 
ground, and a more wise use of funds would be to increase the oversight 
work directly on trust land.
    How do you respond to these criticisms, and will you work with us 
to ensure that these concerns are addressed?
    Answer. The addition of Fiduciary Trust Officers at the local 
(agency) level and support staff is to provide services to 
beneficiaries of the trust. OST believes strongly that this is not a 
waste of money to provide direct service to beneficiaries. No trust 
management functions currently managed by the BIA are being diminished 
or eliminated. These beneficiary services (individual and tribal) and 
improvements made in the delivery of current services will allow 
Interior to meet the fiduciary responsibilities required by statute and 
regulation.
    The 1994 Trust Reform Act governs the primary duties of the Special 
Trustee. Other duties have been added to the office of the Special 
Trustees that primarily revolve around managing the financial 
activities associated with the trust. The fiscal year 2005 increase in 
the OST budget is primarily associated with other trust reform 
activities, such as historical accounting, Indian land consolidation, 
and litigation support.
    Tribal requests for more staff locally for trust management 
activities is also partly addressed by the addition of Fiduciary Trust 
Officers who, in addition to the services they provide, will free up 
the time of current personnel to focus on their current jobs rather 
than being regularly interrupted to respond to beneficiary inquiries. 
It is difficult to ascertain the extent of the need for additional 
personnel such as appraisers until the currently planned additional 
staff are in place and workforce plans are completed that take into 
account more streamlined reengineered trust business processes. Another 
consideration is that the addition of more permanent full-time staff is 
not always the most effective response when there are options such as 
contracting for services and using the services of temporary staff when 
possible, to address temporarily increased or backlogged workload.
    In addition, implementation of more streamlined reengineered trust 
business processes of the ``To Be'' model will likely mean less 
workload at the agency level.
    Question. Moving to land consolidation efforts, we both agree that 
reducing fractionation of trust lands must be part of effective trust 
reform. I note the $53 million increase for land consolidation, but am 
concerned how this vast increase will be administered.
    Related to the question regarding appraisers and other support 
positions, how will you ensure these funds are wisely spent?
    Answer. The BIA through the Indian Land Consolidation Office (ILCO) 
has developed a strategic plan for the expansion of the Indian Land 
Consolidation Program (ILCP) on a national level. There are 
approximately 156 ``allotted'' reservations through out the country. 
The plan identifies methodology's to be used and strategies to expand 
the program based on targeting the most highly fractionated 
reservations first. One goal is to obtain fair market values through 
reservation-wide appraisals that will enable the ILCP to acquire all 
available land interests from willing sellers on all reservations in 
which those interests are located. Additional funds will allow 
contractors to be hired to provide the necessary valuations. A case 
management system will automate processes, recording and increase the 
number of interests acquired. ``Youpee'' heirs will be identified and 
title issues resolved. ILCO will continue to provide program guidance 
and technical assistance as the program expands to eventually include 
all allotted reservations. Additional contractors will be hired to 
assist ILCO with ``outreach'' marketing, sales, and recording efforts.
    Question. Can you update us on the legal status of the Cobell case?
    Answer. There are currently four appeals by the government pending 
in the Cobell v. Norton litigation. The first appeal is from the 
structural injunction issued by the District Court in September 2003. 
The structural injunction describes in detail what the District Court 
believes is required by the American Indian Trust Fund Management 
Reform Act of 1994, both by way of historical accounting and by way of 
trust reform generally. The Court of Appeals has stayed the injunction 
pending appeal.
    The second and third appeals are from preliminary injunctions 
issued by the District Court with respect to Interior's use of the 
Internet. The fourth appeal seeks a writ of mandamus disqualifying 
Special Master Balaran from further participation in the case because 
of bias. Mr. Balaran resigned as Special Master on April 5, 2004, 
rather than face potential disqualification and it remains to be seen 
whether the appeal will go forward in modified form. In the meantime, 
plaintiffs continue to seek discovery in the case.
    Question. What are the prospects of a meaningful mediation process?
    Answer. The Department is pleased that the parties to the 
litigation have agreed on a mediation team after months of preliminary 
discussions that have involved the litigating parties and a bipartisan 
groups of authorizing committee staffs. The next step in the mediation 
effort is to work out a retention agreement with the selected team. We 
continue to support the effort to mediate a resolution to the many 
issues in Cobell.

             OFFICE OF THE SPECIAL TRUSTEE--SELF GOVERNANCE

    Question. Last year, we authored Section 139 that allows Self 
Governance tribes the ability to perform a number of trust duties.
    Can you update us on the implementation of Section 139 as a model 
for tribal participation in trust management?
    Answer. In accordance with the Section 139, the Special Trustee 
must conduct reviews to determine the status of the Tribal Trust 
Program in order to provide for the certification from the Secretary 
that the tribe is operating trust programs in accordance with and 
meeting the same fiduciary requirements that the Secretary is required 
to meet in accordance with the law and the court decisions.
    OST review teams have provided preliminary results of those reviews 
to the four tribes that were part of the demonstration group. Several 
of the tribes are not currently meeting the requirements and are 
expected to develop corrective action plans to help them reach the 
level of performance necessary to be certified as in compliance. OST 
will continue to work with the tribes to implement this provision.

                  ABANDONED MINE LAND REAUTHORIZATION

    Question. The authority to collect the tax on coal under the 
Surface Mining Control and Reclamation Act (SMCRA) expires at the end 
of this fiscal year. The Administration is proposing to reauthorize 
this legislation with some significant changes.
    Can you outline for the subcommittee the basic changes in existing 
law proposed by the administration? What is the rationale for these 
changes?
    Answer. The 1977 Surface Mining Control and Reclamation Act 
established the Office of Surface Mining and authorized the office to 
collect fees to finance reclamation of abandoned mine lands. Section 
402(a) of SMCRA establishes a per tonnage fee for mined coal. These 
fees are placed in the Abandoned Mine Reclamation Fund, and are used to 
finance reclamation of abandoned mine lands in the United States. 
Interest accrues on the unused portion of the collected fees and 
becomes part of the Fund to be used for reclamation. A portion of the 
interest is transferred to the United Mine Workers of America Combined 
Benefit Fund in order to help finance health benefits.
    Through the AML program, problems at many high-priority sites have 
been addressed. However, when AML coal user fee collection authority 
expires in September 2004, approximately $3 billion in significant 
health and safety problems will still remain, along with another $3.6 
billion of other high priority problems affecting the general welfare 
of individuals living in coalfield areas. These are not merely ``ugly 
landscapes'' that need to be cleaned up; these are serious health and 
safety hazards. A recent study conducted by the OSM found that 3.5 
million Americans live less than one mile from health and safety 
hazards created by abandoned coal mines.
    There is a fundamental imbalance between the goals established by 
the 1977 Act and the requirements for allocating funds under the Act. 
The statutory allocation formula limits the ability of the AML program 
to meet its primary objective of abating AML problems on a priority 
basis. The majority of grant funding, or 71 percent, is distributed to 
states on the basis of current production. Yet there is no relationship 
between current production and the magnitude of the AML problem in each 
State. As a result, some States have completed reclamation on all of 
the abandoned coal mine sites or are working on low-priority sites, 
while others are still decades away from completing reclamation of the 
most critical high-priority sites. Under the current allocation it will 
take on average 47 years to reclaim all high-priority sites, though in 
a few States it would take over 100 years.
    Interwoven with the allocation issue is the need to address States 
and Indian Tribes that have been certified as having completed the 
reclamation of coal mining related AML sites. Unappropriated balances 
in the AML fund that would be available under the 1977 Act to certified 
States and Tribes are expected to reach about $530.0 million by the end 
of September 2004.
    The administration's bill would change the current statutory 
allocation of fee collection, which is progressively directing funds 
away from the most serious coal-related problem sites. Under this 
proposal, all future AML fee collections, plus the existing 
unappropriated balance in the Rural Abandoned Mineland Program (RAMP) 
account, would be directed into a new single account. Grants to non-
certified states or Tribes (those states that still have coal problems 
remaining) would be distributed from that single account based upon 
historic production, which is directly related to the magnitude of the 
AML problems.
    Existing state and tribal share accounts would not receive any 
additional fees collected after September 30, 2004. The current 
unappropriated balance in the state and tribal share accounts would be 
dealt with in one of two ways: (1) Certified states and Tribes would 
receive the current unappropriated balances in their accounts on an 
accelerated basis in payments spread over ten years (fiscal year 2005-
2014), subject to appropriation. There would be no restrictions on how 
these monies are spent, apart from a requirement that they be used to 
address in a timely fashion any newly discovered abandoned coal mines; 
(2) Non-certified states and Tribes would receive their unappropriated 
balances in annual grants based upon historic production. If a non-
certified state or tribe completes its abandoned coal mine reclamation 
before exhausting the balance in its state share account, it would 
receive the remaining balance of state share funds in equal annual 
payments through fiscal year 2014. Non-certified states and Tribes that 
exhaust their unappropriated state share balances before completing 
their abandoned coal mine reclamation would continue to receive annual 
grants in amounts determined by their historic coal production from the 
newly-created single account.
    The proposal amends SMCRA to remove the existing authorization of 
expenditures from the AML fund for RAMP under the jurisdiction of the 
Secretary of Agriculture. No funds have been appropriated for this 
program, which reclaimed lower priority abandoned mine land (AML) 
sites, since fiscal year 1995. Elimination of this authorization would 
facilitate the redirection of AML fund expenditures to high-priority 
sites. Accumulated unappropriated balances in the RAMP account would be 
made available for abandoned coal mine reclamation.
    The proposal modifies reclamation fee rates in an effort to closely 
match anticipated appropriations from the fund with anticipated 
revenues. The proposed changes would maintain the current fee structure 
while uniformly reducing the fee rates by 20 percent on average (15 
percent for the five years beginning with fiscal year 2005, 20 percent 
for the next five years, and 25 percent for the remaining years through 
September 30, 2018). Those rates are based on an analysis of coal 
production trends and the resultant impacts on reclamation fee 
receipts. The Administration's proposed uniform graduated fee 
reductions make the program revenue neutral and have the added benefit 
of resulting in lower costs to consumers who purchase coal-generated 
electricity. The new expiration date reflects the time required to 
collect revenues sufficient to reclaim all outstanding currently 
inventoried coal-related health and safety problem sites. Finally, 
existing language requiring the Secretary to establish a new fee rate 
after September 30, 2004, based on CBF transfer requirements would be 
removed.
    The Administration's legislative proposal extends the fee 
collection authority for 14 years, to 2018. This extension would 
facilitate the collection of sufficient fees to enable all states and 
Tribes with high priority mining-related health and safety issues to 
reclaim those sites in 25 years or less.
    The Administration's bill would replace and improve upon the 
existing provisions in SMCRA regarding the United Mine Workers of 
America Combined Benefit Fund (CBF) by removing the $70 million per 
year cap, and by making interest credited to the account in prior years 
available. These measures would protect the integrity of the AML fund 
while providing additional monies to meet CBF needs for unassigned 
beneficiaries.
    The bill provides that no State or tribe with high-priority problem 
sites would receive an annual allocation of less than $2 million. This 
provision would ensure that States and Tribes with relatively little 
historic production receive an amount conducive to the operation of a 
viable reclamation program.
    The Administration's bill also provides various other provisions to 
improve the efficiency and efficacy of the AML program. One such 
provision authorizes the Secretary to adopt regulations prescribing 
conditions under which the AML Fund could be used to promote remining 
and thus leverage those funds to achieve more reclamation of abandoned 
mine lands and waters. Another provision authorizes expenditures for 
collection and audit of the black lung excise tax. This revision would 
synchronize collections and allow OSM auditors to conduct audits of 
black lung excise tax payments at the same time as they audit payment 
of reclamation fees under SMCRA. This change would promote governmental 
efficiency, eliminate redundancies, and reduce the reporting and record 
keeping burden on industry.
    The bill also proposes amending the emergency reclamation program 
for abandoned mine land problems that present a danger too great to 
delay reclamation until funds are available under the standard grant 
application and award process. The proposal would revise this section 
by authorizing the Secretary to adopt regulations requiring States to 
assume responsibility for the emergency reclamation program. This 
change would promote efficiency and eliminate a redundancy in that 
potential emergencies would be investigated only by the State, not by 
both the OSM and the State, as occurs under the current program.
    Question. The fiscal year 2005 budget request proposes a $53 
million increase to be refunded from the Abandoned Mine Land fund to 
states and tribes that have been certified--meaning they have met their 
obligation to do reclamation work on abandoned coal mining sites.
    How many states and tribes would be eligible for this $53 million 
annual payment?
    Answer. Under Sec. 411 of SMCRA, the Governor of a State, or the 
head of a governing body of an Indian tribe, may certify to the 
Secretary that reclamation of all the priority coal mining sites has 
been achieved. Notice of the proposed certification is published in the 
Federal Register, and the public is provided opportunity to comment. If 
the Secretary determines that the certification is correct, he or she 
concurs with the certification. Currently, the States of Louisiana, 
Montana, Texas, and Wyoming, and the Hopi and Navajo Tribes have 
certified. The Crow Tribe has determined that it has received adequate 
funding to complete coal reclamation, and is treated as if it were 
certified. We estimate that as of September 30, 2004, these seven 
entities will have accumulated State/Tribal share balances in the AML 
Fund totaling $531.7 million. To pay off the balances in 10 years, the 
Administration proposes to pay 10 percent each year as follows.

                      AML REAUTHORIZATION PROPOSAL
                        [In millions of dollars]
------------------------------------------------------------------------
                                                             Fiscal year
                   Certified State/Tribe                         2005
                                                               funding
------------------------------------------------------------------------
Louisiana..................................................          0.1
Montana....................................................          4.7
Texas......................................................          2.0
Wyoming....................................................         41.9
Crow Tribe.................................................          0.8
Hopi Tribe.................................................          0.6
Navajo Tribe...............................................          3.0
                                                            ------------
      Total................................................         53.1
------------------------------------------------------------------------

    Question. At the rate of $53 million per year, how long would it 
take to refund to these states and tribes the money they are entitled 
to under the state share?
    Are any additional states or tribes expected to become certified 
over the next few years? If so, would these additional states share in 
the $53 million pot of funds?
    Answer. OSM estimates that all the remaining States will have been 
paid their state share balance before they finish their coal 
reclamation work and become certified, therefore they will not be 
eligible for the payout to certified States and Tribes.
    Question. I hope to be Chairman for a long time but how can you 
assure states like Montana that are certified that they will get all 
their money if it is subject to appropriation every year?
    Answer. The Administration believes it is important to honor the 
commitments made to States and Tribes in the original legislation even 
though the conditions under which those commitments were made have 
changed dramatically. As OSM developed a reauthorization plan, many 
changes were examined that would allow OSM to alter the current 
statutory allocation formula which results in a progressive 
distribution of resources away from the most serious AML problems and 
refocus the program toward coal-related problems. The Administration's 
proposal also reflects the commitment to paying the certified States 
and Tribes their owed balances. Under the current system all they have 
is an IOU that is never going to be paid. Moreover, the funds they do 
receive have rules attached that restrict how they can be spent.
    The proposal ends that unfairness and gets additional funds back to 
the states where it's owed. For example, Montana would receive $4.7 
million every year over the next 10 years. Restrictions on that money 
would be removed so that the governor, the legislature, and the people 
of Wyoming--not those in Washington--would decide how to best use the 
money for the benefit of the people of Wyoming.
    The Administration believes the ten-year payout in the President's 
budget is reasonable and reflects an expedited payment schedule without 
creating adverse affects on our overall budget.
    Question. What has been the reaction of the States to your 
proposal?
    Answer. The problems posed by mine sites that were either abandoned 
or inadequately reclaimed prior to the enactment of SMCRA do not lend 
themselves to easy, overnight solutions. To the contrary, these long-
standing health and safety problems require legislation that strikes a 
balance by providing States and Tribes with the funds needed to 
complete reclamation, while fulfilling the funding commitments made to 
states and tribes under SMCRA. This is the inherent tension that 
currently exists in SMCRA. The Administration believes that its 
proposal addresses these problems in a manner that is fair to all 
States and supports the Administration's budget and program priorities. 
The proposal has received support from many States.

              ROYALTY-IN-KIND/STRATEGIC PETROLEUM RESERVE

    Question. Currently, over 80 percent of the royalties from oil 
production in the Gulf of Mexico is taken ``in kind'' of which 
approximately 60 percent goes to fill the Strategic Petroleum Reserve 
(SPR).
    What is the current estimated time frame to fill the SPR?
    Answer. Assuming continuation of current rates to fill, MMS 
estimates that the SPR will be filled in July or August 2005.
    Question. Once the SPR is filled, is it intended to continue to 
take the bulk of Gulf of Mexico royalty ``in kind'' rather than ``in 
value''?
    Answer. Decisions on whether producing properties now committed to 
the SPR initiative will revert to a cash royalty status after the SPR 
is filled will be made in the future considering prevailing market 
conditions and the comparative potential to optimize minerals revenue 
management under each approach. The MMS continues to believe that 
selective use of the RIK approach, when economic conditions warrant, 
can provide substantial benefits to the American taxpayer through 
potential revenue enhancement and reduction in administrative costs.
    Question. Since MMS believes taking the royalty ``in kind'' 
minimizes questions over how to value oil production, what are the 
future plans for this program?
    Answer. The November 2001 Presidential directive on SPR fill only 
addresses fill to the 700 million barrel capacity. No further decisions 
have been made regarding the SPR capacity or use. Decisions on whether 
producing properties now committed to the SPR fill will revert to a 
cash royalty status after the SPR is filled will be made in the future 
considering prevailing market conditions and the comparative potential 
to optimize minerals revenue management under each approach.

                NATURAL GAS PRODUCTION IN GULF OF MEXICO

    Question. I am concerned about the lack of domestic production of 
both oil and natural gas. I see in your budget that while oil 
production from the Outer Continental Shelf in the Gulf of Mexico has 
almost doubled since 1990, the production of natural gas has remained 
flat. As you know, the demand for natural gas continues to grow as more 
power plants come on line using this form of energy.
    Are you looking at options in the Gulf of Mexico to stimulate 
natural gas production? If so, what are some of these options? Does 
increased production require that we put in more money on the federal 
side to expand leasing, or do we need changes in law, or both?
    Answer. The MMS offers multi-tiered royalty relief in the form of 
royalty suspensions on specified volumes of production to encourage 
exploration for oil and gas production from the shallow water, deep 
shelf and the deepwater of the Gulf of Mexico. The shallow water, deep 
shelf offers the best opportunities to quickly move new natural gas 
production to markets due to its close proximity to existing production 
facilities and pipelines on the shelf. Discoveries of natural gas on 
the shelf can be placed on production and reach peak capacity in less 
than two years, whereas deepwater discoveries have longer lead times 
for development and may not reach peak production for five to ten years 
after discovery.
    The MMS royalty suspension volumes discontinue royalty relief if 
oil and/or gas prices rise above the price threshold. For example, the 
new deep gas rule for active leases issued prior to 2001 stipulates a 
gas price threshold of $9.34 per million BTU in 2004. A variety of 
other gas and oil price thresholds apply to other components of the MMS 
royalty relief program. High oil and/or natural gas prices serve as 
market-based incentives that encourage production, which in turn makes 
the royalty-relief incentives unnecessary. The price thresholds are 
increased annually based on calculated rates of inflation. In three of 
the past four calendar years (2000, 2001, and 2003), the average price 
of natural gas exceeded the threshold price for royalty relief from 
deepwater. Since royalties are paid when the average price of oil or 
gas exceeds the threshold price in any calendar year, deepwater royalty 
suspensions have applied more to oil production than to gas production 
in recent years.
    In calendar year 2003, the average price of natural gas exceeded 
the threshold price for royalty relief from the shallow water, deep 
shelf and deepwater incentives. In order to encourage additional 
exploration for natural gas in shallow water, MMS has set the threshold 
price for royalty relief from the deep shelf to $9.34 per MMbtu as part 
of the final rule on deep gas royalty relief for existing leases 
published January 26, 2004. Operators with shallow water leases issued 
beginning in 2001 have a one-time option to convert their leases to the 
provisions in the final Deep Gas Rule.
    Approximately 70 percent of current gas production comes from the 
shelf. The estimated future gas production from the shelf at all 
drilling depths is approximately 40 to 45 percent of the estimated gas 
production from deepwater, and the shallow water, deep shelf estimated 
future gas production is only 10 to 20 percent of the estimated gas 
production from deepwater. Deepwater natural gas production is expected 
to contribute an increasing share of the total gas production from the 
Gulf of Mexico, with deepwater gas production surpassing shallow water 
gas production sometime after 2010. If natural gas prices remain above 
$5 per MMbtu for an extended period, there will be no royalty incentive 
above the prevailing market price to explore as the high price of gas 
should act as an incentive. The MMS is currently evaluating price 
thresholds for deepwater leases relative to the high average natural 
gas prices in recent years.

                 FISH AND WILDLIFE SERVICE CONSULTATION

    Question. We hear complaints from many agencies about the 
timeliness of Fish and Wildlife Service consultations required by the 
Endangered Species Act. These consultations are necessary before much 
of the on-the-ground work can get done in our forests, refuges, and 
parks.
    Why is the consultation program proposed for a decrease in fiscal 
year 2005 when it doesn't seem you can get all the work done in a 
timely manner now?
    Answer. The proposed reduction in the fiscal year 2005 consultation 
program would not affect the resources available to the Service to 
conduct section 7 consultations with other Federal agencies. Instead, 
the President's budget eliminates the approximately $2 million that, in 
fiscal year 2004 and prior years, has been passed through to local 
jurisdictions engaged in the NCCP process in southern California. This 
Federal financial support has been an important component of the 
collaborative partnership among local, state, and federal governments 
and the private sector to address the conservation of listed species in 
southern California, and can continue to be in the future; however, it 
is more appropriate for these local jurisdictions to seek funds from 
the Service's HCP Planning Grant program (under Section 6 of the ESA). 
The HCP Planning Grant program, which was not available when direct 
funding for NCCP participants was initiated, is designed to support 
potential permit applicants efforts to develop HCPs.
    In addition, the Service has been working on a number of methods to 
streamline the section 7 consultation process for Federal agencies. 
These streamlined methods include, most notably, developing 
programmatic consultations that cover multiple actions over broad 
geographic ranges such as forest related activities. Additionally, the 
Service has concluded an alternative consultation process with the 
Forest Service and the Bureau of Land Management for certain forest 
related activities that reduce fuels loading under the National Fire 
Plan, and has proposed a similar alternative consultation process for 
the EPA's pesticide registration activities. The Service believes that, 
by improving efficiencies using these and similar streamlining methods, 
available resources may be directed to those consultations that are 
more complex in order to complete them in a more timely manner.

                           INTERNET SHUTDOWN

    Question. As you know, Judge Lamberth has issued an order shutting 
down most of the Department's e-mail and internet access. While this 
shut down will have serious Department-wide impacts, we've heard some 
very troubling things about the impact on the Minerals Management 
Service. This is because MMS conducts much of its business with the oil 
and gas industry and the States over the internet. It is possible that 
the agency's ability to collect revenues and to disburse funds to the 
states will be jeopardized.
    Can you outline for us what the impacts of the shutdown on MMS will 
be? Are you looking at ways to minimize these impacts?
    Answer. The court-ordered shutdown on March 15, 2004 forced most of 
the Department's computers to be disconnected from the Internet, 
including e-mail. This shutdown affected most Interior programs. For 
MMS the lack of Internet access had the potential to cause delays in 
the distribution of funding to Indian allottees and disrupt the payment 
of royalties to States and scheduled lease sales. However, the Court of 
Appeals temporarily put on hold the Court's ruling on March 24.
    Question. We have provided the Department additional resources to 
upgrade computer security across the board.
    What have you done in the last year to improve the security of 
trust data? Why have we again run afoul of the Court in this area?
    Answer. On March 15, 2004 the District Court again ordered Interior 
to disconnect from the Internet. The stay entered by the Court of 
Appeals on March 24, 2004, permits some of Interior to use Internet-
based tools for a host of important missions (although the Bureau of 
Indian Affairs, the Office of the Special Trustee for American Indians 
and the Solicitor's Office generally remain offline). Monthly scanning 
results have demonstrated the significant reduction in potential risk 
associated with unauthorized access from the Internet. The Internet is 
critical to Interior, for it allows us to do everything from accepting 
national park reservations to providing research tools in Indian 
schools to disbursing millions of dollars in oil and gas revenue to 
states, Indian Tribes, and individual Indians.
    Despite the claims of the court, Interior continues to make 
significant progress in improvement to computer security across the 
Department and especially in regard to trust data. A summary of some 
recent activities follows:

Computer Security
    Interior continues to make progress in ensuring IT security and, in 
particular, measures to address the potential risks associated with 
unauthorized access, from the Internet, to individual Indian trust data 
(IITD). Some of the most recent noteworthy accomplishments and 
completions are as follows:
  --The Interior CIO attained the Certified Information System Security 
        Professional (CISSP) certification, which brings the total 
        number of Interior employees with a CISSP certificate to fifty-
        two.
  --As of March 31, 2004, Federal Information Security Management Act 
        (FISMA) requirements for annual IT security awareness training 
        for system users had been completed by approximately 21,000 
        (28.9 percent) employees and contractors.
  --During the past year, Interior established a Computer Security 
        Incident Response Capability (CSIRC), which is available 24 
        hours a day, seven days a week. Recently, Interior's incident 
        response program incorporated a CSIRC web portal to facilitate 
        incident reporting as required by FISMA.
  --Interior continued testing its wide area networks (WAN) against an 
        operational security profile based on the ``SysAdmin, Audit, 
        Network, Security (SANS)/FBI Top 20'' vulnerability list. The 
        scanning process was changed to account for false positives in 
        the reports. Bureaus identify and correct false positives 
        before the final monthly report is produced. In the March 2004 
        report, there were no high-risk SANS/FBI Top 20 vulnerabilities 
        identified in the perimeter telecommunications equipment 
        exposed to the Internet.
  --BLM refined the setting on its virus scanning software to improve 
        detection and trapping of malicious software. New settings in 
        SpamAssassin (BLM's email spam blocking tool) blocked thousands 
        of files which may have contained viruses in attachments.
  --MMS implemented Microsoft System Update Servers (SUS) and System 
        Management Servers (SMS) to deploy critical security patches to 
        servers and desktops.
  --OST hired a permanent IT Security Manager. The IT Security Manager 
        initiated information security assessments of the OST local 
        area network and wide area network (LAN/WAN).

OMB Circular A-130--Certification and Accreditation
    To ensure continued progress in the C&A of Internet IT systems, 
Interior awarded contracts to 10 vendors to conduct C&A tasks. Most 
major applications and general support systems have received an Interim 
Approval to Operate (IATO). Approximately 20 percent of Interior's 
major applications and general support systems have completed the C&A 
process, as of March 31, 2004.
    In response to OMB guidance, Interior has been engaged in an effort 
to identify and catalogue its IT systems and applications in 
preparation for subsequent C&A activities. A subset of Interior's 
systems and applications involve IITD. More than two thirds of those 
systems involving IITD are operated by bureaus or offices that have 
been without Internet connectivity since December 5, 2001, and most of 
those systems have received an IATO.
    The bureaus and offices housing the remaining approximately one 
third of systems with IITD were evaluated by the Special Master and 
permitted to reconnect to the Internet. All of these systems have 
received IATO. Full certification and accreditation work is ongoing for 
these reconnected systems.

IT Systems Architecture
    The DOI Enterprise Architecture Repository (DEAR) is operational 
and accessible by Interior bureaus and offices. DEAR contains 
Interior's official inventory of IT systems. DEAR is being used as a 
decision support system for Interior's enterprise architecture program 
by determining opportunities for consolidating redundant systems, 
improving data sharing between systems and analyzing the underlying 
infrastructure of Interior's systems to improve interoperability and 
overall infrastructure management. As the official inventory of 
Interior's IT systems, DEAR currently tracks the security certification 
and accreditation status of Interior's systems.
    Interior is continuing efforts to implement a newer version of the 
CGI land title records system. The C&A assessment of the system was 
completed and the system received a recommendation for certification 
from independent vendors. The Trust Enterprise Architect and data 
standardization support contractor continued efforts to develop a data 
dictionary for trust data elements. The effort includes identifying 
common data elements to facilitate data exchanges between systems. The 
contractor mapped more than 5,700 standardized data elements. The Trust 
Data Dictionary serves as the control for the effort to standardize 
data elements.

Audit Findings Database
    The audit findings database contains a consolidated list of audit 
findings and recommendations for the key Interior bureaus and offices 
involved in individual Indian trust management. The database is being 
subdivided into two separate databases, one to reflect the key findings 
and recommendations cited or referenced in the Special Master's 
November 2001 report and one to capture similar items in other IT 
reports.
    The affected bureaus and offices report that more than 95 percent 
of the findings and recommendations in both databases have been 
addressed and resolved. An initial staff review indicates that none of 
the remaining open items pertain to the potential for unauthorized 
access from the Internet to IITD.

Preliminary Injunction & Reconnection to the Internet
    On March 15, 2004, the U.S. District Court issued a preliminary 
injunction that ordered most Interior IT systems to be disconnected 
from the Internet. On March 24, 2004, the U.S. Court of Appeals for the 
District of Columbia Circuit granted an administrative stay of the 
preliminary injunction. On April 7, 2004, the Court of Appeals granted 
a permanent stay pending appeal of the March 15 preliminary injunction. 
The Court of Appeals stay permitted Interior to reconnect selected IT 
systems to the Internet.
    Other Interior IT systems, serving BIA, OST, OHA and SOL, have been 
disconnected from the Internet since December 5, 2001. Continued 
disconnection from the Internet adversely impacts the operations of 
each of the affected entities. At the conclusion of this reporting 
period, these bureaus and offices had not been permitted access to the 
Internet for well over two years.
    Interior has appealed the July 28, 2003, and March 15, 2004, 
preliminary injunctions. On April 1, 2004, the Court of Appeals 
consolidated the government appeals. Oral argument is currently 
scheduled for September 14, 2004.
    There are many challenges that must be addressed regarding the 
integration, performance, funding, security, and data integrity of 
Interior IT systems. Interior initiated or completed steps to address 
some of the challenges, however, delays and obstacles listed below 
still impede progress to achieving Interior's IT management goals:
  --Employee fears about becoming personally implicated in the Cobell 
        litigation are undermining creativity and decision-making. This 
        continues to be an impediment within Interior as contempt or 
        other disciplinary actions against individuals working on this 
        issue continue to be sought by plaintiffs.
  --Funding availability will continue to dictate the timing of IT-
        related initiatives. Interior's fiscal year 2004 appropriation 
        will require Interior to manage a variety of IT-related 
        requirements and tradeoffs. The government continually has to 
        evaluate current funding requirements.
  --Interior is conducting a business process reengineering effort to 
        standardize and streamline trust business processes. The ``As-
        Is'' portion of that process has been completed and the ``To-
        Be'' reengineering efforts are underway. IT systems 
        specifications, design and procurement may depend upon the 
        timing and results of the reengineering effort and available 
        funding.
  --Several Interior bureaus and offices (BIA, OHA, OST, SOL) have not 
        been permitted, by the Court, to have Internet access since 
        December 5, 2001. Lack of Internet access impedes work 
        processes and the ability to communicate effectively, both 
        internally and externally.
  --The additional resources (time, personnel and funding) provided for 
        IT security have limited funding for a wide variety of other 
        IT-related responsibilities, which may adversely impact overall 
        systems performance and reform. Tradeoffs for an increased 
        security posture may include adverse impacts on hiring skilled 
        personnel for other aspects of Interior's IT programs, funding 
        for lifecycle replacement of hardware and software, or the 
        ability to undertake IT-related initiatives.
    Question. What are some of the other impacts that the internet 
shutdown will have if it remains in place? When will these impacts 
start to really be felt?
    Answer. Impacts would have adverse consequences to many day-to-day 
Interior activities, personnel, payroll and retirees, and other Federal 
Agency partners, States and contrary to the Judge's opinion, tribes and 
individual Indians as well. Examples of some of the impacts include:
  --In the MMS, lack of Internet access would result in delays of 
        approximately $3 million per month being timely distributed to 
        individual Indian allottees. Some potential impacts may occur 
        to individuals as a result of not receiving this income, 
        including the inability to pay for nursing home care, food, 
        clothing, heat, electricity, and medical expenses.
  --In OST, lack of Internet access would result in the inability to 
        prudently invest funds due to lack of access to the financial 
        information system for a portfolio of approximately $3.3 
        billion in trust funds held for tribes and individual Indians.
  --In the MMS, a potential disruption in the scheduled Central Gulf of 
        Mexico Lease Sale 190, expected to generate as much as $200 
        million. Revenues are distributed via Internet access to the 
        MRM system. There would be a disruption in making royalty 
        payments to States of $88 million per month.
  --For the National Business Center, the shutdown would have delayed 
        migration of e-Gov payroll clients, including the Department of 
        Transportation, NASA, and the National Science Foundation, 
        which will defer cost savings to the government.
  --For the Department's financial management requirements, the 
        shutdown would jeopardize completion of the CFO Act Audits, in 
        accordance with mandatory deadlines, including completion of 
        audit by November 15.
  --The shutdown would have impeded electronic commerce business 
        processes and prevent connectivity with trading partners, 
        vendors and clients.
  --The shutdown would have impacted agencies that procure services 
        from the Department, including the new Millennium Challenge 
        Corporation and four other agencies. The Millennium Challenge 
        Corporation provides grants to developing countries to promote 
        democracy and combat terrorism.
  --The shutdown would prevent the Department from performing 
        acquisition activities for DOI and non-DOI clients including 
        the U.S. Maritime Administration, which has been certified as a 
        national security critical client, the Department of Defense, 
        and the Department of Homeland Security.
    Question. When do you believe that you will be allowed to 
reestablish internet access?
    Answer. Access to the Internet, except for the Bureau of Indian 
Affairs, Office of the Solicitor, and Office of Special Trustee was 
restored on March 24, 2004.

            HEALTHY FORESTS/NEW ESA CONSULTATION PROCEDURES

    Question. I was pleased to see this week that you have announced 
some new procedures designed to speed up the Endangered Species Act 
consultation process for hazardous fuels reduction projects under the 
Healthy Forests Act.
    Can you explain how these new procedures will work?
    Answer. In October 2003, the Fish and Wildlife Service and NOAA 
developed the guidance document ``Alternative Approaches for 
Streamlining Section 7 Consultation for Hazardous Fuels Treatment.'' 
The guidance combines several streamlining techniques that have been 
tested over the years and encourages early coordination and cooperation 
among Federal agencies and their partners during the project planning 
stages.
    A major part of this guidance relates to the development and use of 
design criteria, or ``screens,'' to streamline the consultation process 
while minimizing the potential for adverse effects to listed species 
and their habitats at both the landscape and site-specific levels. Use 
of such design criteria helps to ensure that fire management agencies 
are aware of the needs of listed species and their habitats during the 
early phases of planning, allowing them to incorporate these needs into 
their activities. This can greatly streamline the section 7 
consultation process because much of the effects analysis is completed 
at one time, rather than repeatedly each time a new action, or batch of 
actions, is proposed.
    The FWS and NOAA published a final rule establishing counterpart 
regulations to streamline consultation on proposed projects that 
support the National Fire Plan. These counterpart regulations allow the 
Forest Service, BLM, BIA, and NPS to make ``not likely to adversely 
affect'' determinations without concurrence from the FWS or NOAA.
    Question. When do you expect to have these fully implemented?
    Answer. The final rule appeared in the Federal Register on December 
8, 2003, and took effect on January 7, 2004. As part of the 
implementation of the counterpart regulations, the Services finalized 
Alternative Consultation Agreements with the BLM and the Forest Service 
on March 3, 2004.
    We have completed the Alternative Consultation Agreements with the 
BLM and Forest Service, and developed the necessary training materials. 
Once the BLM and the Forest Service have conducted the trainings for 
their personnel, they will begin using the new authorities conveyed by 
these regulations.
    Question. How much more work do you expect to be able to do as a 
result of these new procedures?
    Answer. The counterpart regulations will allow Service biologists 
to focus efforts on those National Fire Plan activities that are likely 
to adversely affect listed species or critical habitat and thereby 
speed the approval process for these projects. The actual number of 
such projects is determined by the BLM and USFS, so we have no reliable 
way to address the question of how many additional consultations we 
will be able to process due to the establishment of the counterpart 
regulations. However, we do expect that the overall rate of approval 
for fire plan projects will improve as a result a faster review 
schedule for those projects that qualify for review only by BLM/USFS 
and by providing more focused Service review of those fire plan 
projects that may adversely affect listed species.

                      OSM--STATE REGULATORY GRANTS

    Question. As you know, the Office of Surface Mining provides grants 
to states, on a 50/50 cost share basis, to regulate mining in their 
states. This is a good deal for the Federal government, since if the 
states did not regulate surface mining the Federal government would be 
required to do it and pay 100 percent of these costs. I see that the 
budget request for this activity is $57.575 million but that the states 
asked for $62 million.
    If we don't fund the full amount asked for by the states will it 
lead to any serious problems such as legal challenges to state programs 
based on their inability to carry out their regulatory requirements?
    Answer. The President's Budget requests a total of $58 million for 
State/Tribal regulatory programs. OSM's most relevant requested 
estimates formulating the fiscal year 2005 proposed budget, provided by 
the States and Tribes totaled $62 million. The President's budget 
provides over 95 percent of the State and Tribal request. The amount 
requested in the President is a slight increase from fiscal year 2004 
and OSM believes that the requested total will be sufficient to assist 
the States/Tribes.
    Question. Do you expect that any states will turn the regulatory 
program back over to the Federal government due to lack of funding?
    Answer. In a fiscal year 2002 study, the States/Tribes were asked 
about uncontrollable costs for their regulatory programs. The States/
Tribes said that 70 percent of their regulatory program budgets are in 
salaries and fringe benefits. Other uncontrollable costs would include 
indirect costs, fuel expenses, office rent, contractual services 
(including legal costs), vehicle replacement or lease, and equipment 
replacement. OSM believes the increase would be adequate to cover 
uncontrollable costs and allow that States to meet their 50 percent 
share.

                         ENERGY POLICY ACT--MMS

    Question. The Congress has been debating the Energy Policy Act for 
some time now. I hope that we can pass a responsible bill in the next 
few months.
    Can you tell us whether there are provisions in the energy bill 
that will help the Minerals Management Service to enhance domestic 
production of oil, gas and alternative fuel sources?
    Answer. The energy bill includes provisions that call for relief or 
reduction in royalty rates for natural gas produced from deep wells in 
the shallow waters of the Gulf of Mexico. Recently, Interior finalized 
a rule very similar to the bill's provisions. This provision will 
encourage more production of oil and gas. There is also an OCS 
alternative use provision to the bill, which would provide MMS with the 
authority to grant easements and rights-of-way for alternate energy-
related uses on the OCS; to act as lead agency for coordinating the 
permitting process with other executive agencies; to monitor and 
regulate facilities used for alternative energy production and energy 
support services; and it will allow an oil and gas platform previously 
permitted under the OCSLA to remain in place after oil and gas 
activities have eased to allow the use of the platform for other energy 
and marine-related activities.
    Question. If an energy bill is not enacted, can any of these 
initiatives be implemented administratively? If so which ones? Is the 
Administration moving forward on this front?
    Answer. There certainly are elements of the energy bill that we can 
work on administratively. For example, Interior is now working with 
FERC on administrative reforms to the hydroelectric relicensing process 
to afford applicants better review of their environmental proposals.
    We have also worked extremely hard to diminish the backlog of 
applications for permits to drill waiting to be processed by BLM. In 
fact recently the Casper Star Tribune reported that the BLM Buffalo 
Field Office has unjammed a backlog of 1,400 permits in the Powder 
River Basin.
    The energy bill also includes provisions that call for relief or 
reduction in royalty rates for natural gas produced from deep wells in 
the shallow waters of the Gulf of Mexico. Recently, Interior finalized 
a rule very similar to the bill's provisions.
    There are however other provisions of the bill that affect Interior 
that cannot be accomplished administratively--most notable among them 
are:
  --Allowing environmentally sound development of a very small portion 
        of the ANWR.
  --Allowing Indian Tribes to enter into comprehensive energy plans 
        that would allow them to enter into energy development leases 
        and rights-of-way agreement without seeking Secretarial 
        approval on a project-by-project basis.
  --The Department's OCS alternate uses proposal which provides 
        authority--
    --to grant easements and rights-of-way for alternate energy-related 
            uses on the OCS.
    --to act as lead agency for coordinating the permitting process 
            with other executive agencies.
    --to monitor and regulate facilities used for alternative energy 
            production and energy support services.
    --to allow an oil and gas platform previously permitted under the 
            OCSLA to remain in place after oil and gas activities have 
            eased to allow the use of the platform for other energy and 
            marine-related activities.
  --Permanent authority to use Royalty In Kind revenues to pay the 
        costs for transportation, natural gas processing, and disposal 
        costs for royalty in-kind oil and gas production.

                U.S. GEOLOGICAL SURVEY--LANDSAT FAILURE

    Question. Last May, the Landsat 7 satellite operated by GS began 
sending back degraded data. Efforts to repair failed equipment were 
unsuccessful. Two reprogrammings, one approved this past summer and 
another anticipated later this year, would divert resources from other 
GS programs to provide nearly $8 million to continue current Landsat 7 
operations. This is the estimated amount lost in sales revenue since 
the failure.
    Madam Secretary, tell me why we shouldn't pull the plug on Landsat 
7, bring the satellite down and save the taxpayers some money? What is 
the purpose of collecting and archiving defective data? Is this 
information useful in its current form--particularly since the same 
data is collected and available from other countries around the world?
    Answer. Landsat 7 provides a unique set of capabilities unlike 
other Earth observation systems in orbit. The combination of moderate 
resolution (30-meter), broad-area coverage, spectral range, and global 
availability is not duplicated by other existing satellite systems. 
Although other satellites have been considered as possible substitutes, 
the costs to purchase the comparative area coverage of a Landsat 7 
scene would be much higher. Each satellite system has a different swath 
width, a different revisit rate and time, and a significantly different 
resolution. For example, to cover the area of a Landsat 7 scene would 
require 9 scenes taken from the French SPOT system and 283 scenes from 
the higher resolution satellites such as IKONOS, making the costs much 
higher to acquire than the equivalent of Landsat 7 data. Also, it would 
take several revisits taking weeks to months from any of these systems 
to acquire the equivalent of a Landsat 7 scene.
    It is important to continue to collect and archive Landsat data as 
it is still useful for many of it's originally intended purposes. 
Landsat 7 imagery assists in decision making for fire management 
practices, suppression, and remediation measures by land and resource 
management bureaus. In addition to supporting current fire management 
practices, the increased coverage provided by Landsat 7 is a critical 
factor in fire measures. The 8-day coverage cycle provided through the 
combined data sets of Landsats 5 and 7 provides essential information 
relative to awareness of land cover and the development of fire fuels, 
as well as timely information regarding burn severities and extents and 
recovery rates needed for remediation measures, that would not be 
sufficient under a 16-day coverage cycle with Landsat 5 alone. Uses of 
remotely sensed data by the National Park Service, the Bureau of Land 
Management, the Bureau of Indian Affairs, and the Forest Service 
include rehabilitation actions and hazardous fuel reduction planning, 
applicable to both wildfire and prescribed fire, and providing a means 
for record-keeping and accountability validation required under the 
National Fire Plan.
    In addition to wildland fire needs, Landsat 7 imagery provides 
information that is vital to Federal activities such as agricultural 
crop monitoring; coastal erosion detection, monitoring and assessing 
the impacts of natural disasters; aiding in the management of water, 
biological, energy, and mineral resources; analyzing the impacts of 
climatic and other global changes; and support for some national 
defense needs. Land managers have expressed a strong need to have this 
information continue to be available. Aside from Interior bureaus, the 
major users of this data include the Departments of Defense and 
Agriculture, the Environmental Protection Agency, and the National 
Oceanic and Atmospheric Administration.
    As a result of the scan line corrector malfunction, the USGS has 
been taking actions to increase the utility of the Landsat 7 data that 
includes ``fixing'' the data gaps from the malfunctioning scan line 
corrector. The USGS held a workshop with Landsat users from the Federal 
government and academia in October 2003 to identify new products for 
data acquired since the malfunction. Representatives from the former 
NASA Landsat 7 Science Team and selected other users identified 
requirements for new products to assist in filling in the data gaps for 
customers Two new products, Anniversary composites and Multi-scene 
composites will be implemented in response to this. The initial 
product, the Anniversary composite, is generated by replacing all the 
missing data in the data gaps of a scan line corrector off data set 
with information derived from a Landsat image that was acquired prior 
to the scan line corrector malfunction. This technique results in a 
composite data product without data gaps, which can be used to meet 
additional user requirements.
    Question. Secretary Norton, your Department plans to issue a report 
at the end of this month--following discussions within the 
Administration--that will outline how best to ensure Landsat continuity 
data.
    Can you give us a brief summary of the report now? Are there 
specific recommendations that can be implemented to assure the future 
development of the Landsat Data Continuity Mission? Does NASA have a 
timeline for launching the next satellite, and have the resources been 
requested to fund it? If not, what happens to the Landsat mission?
    Answer. A recent memorandum from the Director of the Office of 
Science and Technology Policy to agencies stated the following:

    ``. . . to maintain Landsat's legacy of continual, comprehensive 
coverage of the Earth's surface, the United States Government will 
transition the Landsat program from a series of independently planned 
missions to a sustained operational program and establish a long-term 
plan for the continuity of Landsat data observations. In particular, 
the Departments of Defense, the Interior, and Commerce and the National 
Aeronautics and Space Administration have agreed to take the following 
actions:
  --Transition Landsat measurements to an operational environment, 
        through incorporation of Landsat-type sensors on the National 
        Polar-orbiting Operational Environmental Satellite System 
        (NPOESS) platform, thus ensuring long-term continuity of these 
        high-priority measurements and providing for integrated 
        collection and availability of data from these two critical 
        remote sensing systems;
  --Plan to incorporate a Landsat imager on the first NPOESS spacecraft 
        (known as C-1), currently scheduled for launch in late 2009. 
        The specific implementation plan shall be jointly reviewed and 
        approved by the NPOESS Executive Committee and Landsat Program 
        Management; and
  --Further assess options to mitigate the risks to data continuity 
        prior to the first NPOESS-Landsat mission, including a bridge' 
        mission.''

    The USGS will work with other DOI bureaus and other agencies to 
consider options for implementation of the strategies above within 
available funding.

                U.S. GEOLOGICAL SURVEY--PROGRAM MISSION

    Question. Among its responsibilities, USGS is widely regarded as 
the nation's lead federal civilian mapping agency. However, an OMB 
review of the National Map Implementation Plan states that the 
transition away from the traditional USGS role as the nation's civilian 
mapping agency is occurring too slowly. (page 151, GS budget)
    Can you please elaborate on this comment? When and how was this 
core mission of the Survey redefined? Will you explain what transition 
the GS mapping program is expected to make?
    Answer. Land managers, policy- and decision-makers, researchers, 
and the public depend on a common set of current, accurate, and 
consistent basic information that describes the Earth's land surface 
and its dynamics. Since the establishment of the USGS, the bureau has 
had the mission responsibility to meet this need. This core mission of 
the USGS has not been redefined.
    What is changing is the way the USGS accomplishes this mission 
responsibility. In the 20th Century, the USGS fulfilled this mission 
responsibility through the creation and distribution of 55,000 
topographic maps, which provide the only topographic synthesis that was 
comprehensive, accurate, and consistent across jurisdictions.
    In the 21st Century, several factors provide an opportunity for the 
USGS to accomplish this mission in a new way. These factors include 
increased demand for more current and more accurate geospatial data; 
new technologies and lower costs to collect, maintain, and disseminate 
data; and partnership opportunities with Federal, State, and local 
agencies and the private sector, which in most cases already collect 
the geospatial data needed to put together a national map. The USGS is 
taking advantage of this opportunity by organizing sustainable 
partnerships to develop, integrate, access, and archive this map 
information. The USGS will continue to collect basic topographic data 
and will provide additional data where no other data source exists.
    This new approach is based on an increased reliance on partners. 
Through The National Map, the USGS will integrate data on a national 
scale and make it publicly available to continue to provide current, 
seamless, and nationally consistent base geospatial data for the 
Nation.

               U.S. GEOLOGICAL SURVEY--STATUS OF REPORTS

    Question. In fiscal year 2003, the Survey was directed in report 
language to provide the House and Senate committees with two reports. 
The first was a priority system for expansion of the State cooperative 
research units funded through the Biological Resources Division. The 
second was a strategic plan and prioritized vision for expansion of the 
National Biological Information Infrastructure network. Both of these 
programs have strong support in Congress and the reports were intended 
to guide us in setting future funding priorities.
    We are now into the fiscal year 2005 budget cycle and have yet to 
receive either report. Why? Could you please look into this matter and 
let us know when the committees can expect the information they 
requested?
    Answer. The USGS has been working closely with constituent groups, 
partners, and customers to ensure that the strategic plans for these 
programs appropriately reflect the needs of all parties involved in 
these activities, as well as the sound science for which the bureau is 
known. The process of engaging these parties has required more time 
than was anticipated at the beginning of the plan development. The USGS 
and the Department are working together to ensure that the reports meet 
the needs of Congress and will forward the reports soon.

                 NATIONAL PARK FUNDING--PROJECT FUNDING

    Question. This Committee has devoted a great deal of time and 
resources to address the backlog of maintenance in our land management 
agencies, particularly within the National Park System. The President 
also made a commitment to address the park backlog, and I think has 
done an admirable job given the budgetary constraints under which we're 
operating.
    Can you update us on where we are in terms of understanding what 
the backlog is, and what progress we're making in reducing the overall 
size of the backlog?
    Answer. The NPS has completed preliminary condition assessments at 
all but four of the most asset intensive parks. The assessments for 
these four parks are scheduled for completion by the end of fiscal year 
2004. These preliminary assessments identified apparent deficiencies 
within the eight standard asset categories, which the NPS has used to 
develop a preliminary baseline facility condition index (FI) to assist 
in evaluating the relative condition of NPS assets.
    Instead of compiling a list of ``backlog'' projects, the NPS is now 
deploying an asset management strategy that seeks to prioritize the 
most important facility projects on which to spend limited resources. 
By using the asset priority and facility condition information, as well 
as considering visitor and employee health and safety requirements, 
resource protection needs, and visitor service needs, the NPS will be 
able to manage the asset inventory much more systematically than it 
ever has in the past. The objective of the NPS asset management program 
is to measure performance accomplishments and assure that the overall 
condition of the inventory improves because of funds dedicated to 
improving assets.
    The backlog cannot be stated as a single number since it is not 
static and is always changing. While the NPS is scheduled to complete 
the comprehensive condition assessments at all parks by the end of 
fiscal year 2006, the preliminary estimates associated with the 
deficiencies identified to date total about $5.7 billion. Instead of 
using a backlog to quantify maintenance needs, the condition 
assessments will define the amount of resources needed to move the 
overall condition of the NPS asset inventory from its current condition 
to acceptable condition. This estimate cannot be determined until the 
comprehensive condition assessments are completed; even then, the 
backlog will be constantly modified to respond to changes in on-the-
ground circumstances.

                   NATIONAL PARK FUNDING--OPERATIONS

    Question. Once we make the investments to put park resources in 
good condition, obviously it makes sense to spend the money to keep 
them that way. Part of this means providing funds for periodic 
maintenance work, but we also need to make sure the parks have the 
operational capacity--the people--to either do the work or oversee it. 
We know that parks are feeling pinched on that front.
    On the one hand, I have seen data that shows park operational 
funding is up substantially over the last 10 years in constant 
dollars--up per acre, up per park unit, and up per park visit. At the 
same time, I know parks are considering reduced operating hours for 
some facilities, reductions in interpretive staff, and other cuts.
    How do you reconcile these facts?
    Answer. It is true that park operational funding has increased over 
the last ten years. Counting supplemental appropriations and transfers, 
the amount enacted for the Operation of the National Park System (ONPS) 
appropriation has increased from $1.095 billion in fiscal year 1994 to 
$1.610 billion in fiscal year 2004, a net increase of $515 million. Of 
this amount, nearly $439 million was directly provided to parks for 
operations.
    Of the funds directed to park operations, $135 million was provided 
for pay and benefit adjustments for park employees. Another $26 million 
was provided for the ``Ranger Futures'', ``Temporary Employee 
Conversation'' and other ``special pay initiatives.'' A total of $269 
million in increases was provided for specific park base operations. 
Additionally, $9 million was provided for ``park-related'' activities, 
such as Lewis & Clark Bicentennial and National Capitol Performing 
Arts.
    In addition to park base increases, additional increases were 
provided for the support of improved park operations. These activities 
provide significant benefits to the parks. The $198 million in funding 
increases included:
  --$70 million to increase the amount of annual funds provided for 
        backlog maintenance projects, the implementation of a condition 
        assessment process and for development of a new maintenance 
        management system;
  --$74 million to improve the basis of scientific and resource 
        information through the Natural Resource Challenge;
  --$16 million was used to enhance partnership efforts such as the 
        Challenge Cost Share Program;
  --$10 million was dedicated to implementation of the Comprehensive 
        Everglades Restoration Plan;
  --$7 million was directed towards cultural resource projects in 
        parks, including collections and curation;
  --$32 million was provided to cover centralized administrative 
        billings that allowed parks to avoid the costs of such items as 
        GSA space rental, unemployment compensation and tort claim 
        payments;
  --$11 million was used for other assorted program changes to assist 
        parks such as structural fire, risk management, natural sounds, 
        the Vanishing Treasures program, training, social science 
        surveys, the Underground Railroad, and the Lewis and Clark 
        Corps of Discovery II;
  --$7 million for central office operations;
  --$21 million in pay and benefit raises for non-park staff; and,
  --$5 million to implement the President's Management Agenda of 
        management and operational improvements.
    The NPS believes it has credibly managed the funding provided. We 
are also engaged at present in a variety of self-examinations and 
comprehensive evaluations using new management tools including the 
Program Assessment Rating Tool (PART), Maintenance Management and 
Condition Assessments, and Performance Measurement and Strategic 
Planning to help us make more informed decisions. The amount requested 
for operations at individual parks is determined through a layered 
deliberative process over at least a 12-month period, involving the 
NPS, the Department of the Interior, and the Office of Management and 
Budget. The budget process always requires tough decisions and choices 
concerning the prioritization of competing needs to fit available 
budget allowances.
    Question. To what degree has pay parity impacted the National Park 
Service, and the Interior bureaus generally?
    Answer. The Congressional action of providing civilian pay parity 
added $15 million to the planned absorption in the park base.

                      FINANCIAL MANAGEMENT SYSTEM

    Question. Your budget proposes that we invest $18 million in a new 
financial management system for the Department. It seems as if it 
hasn't been that long since we paid a substantial amount for the 
current financial systems.
    Given the sometimes spotty track record the Federal government has 
in major systems acquisitions, how confident are you that this system 
will ultimately work?
    Answer. Very confident. The FBMS solution is comprised of 
commercial off the shelf software that is currently in use elsewhere in 
the Federal government. The vital core financial component is software 
that has been tested and met the standards established for federal 
financial systems by the Joint Financial Management Improvement Program 
(JFMIP).
    Question. What procedures have you put in place to ensure that it 
will?
    Answer. During the acquisition process, we required the competitors 
to have passed the 2003 JFMIP test before contract award. We required 
the competitors to have established software implementation practices 
in place for themselves and their subcontractors that met at least the 
requirements of the Software Engineering Institute's Capability 
Maturity Model (CMM) Level 2 certification.
    We have established a number of review procedures to ensure that 
the project is managed well and meets its cost, schedule and 
performance objectives. These include at least quarterly earned value 
reviews and quality audits. We also plan to contract for Independent 
Verification and Validation (IV&V) services. We have established a 
governance process that includes bureau leaders in the project 
implementation, and a change control process to manage the project's 
scope. We have placed considerable emphasis on the change management 
aspects of the project, since our market research and lessons shared by 
other agencies with recent system implementation experiences indicate 
that helping people transition from the old way to the new way of doing 
their work is critical to the project's success. We will use the 
Department's capital planning and investment control (CPIC) process for 
project reporting and monitoring.
    Question. What would be the practical effects of continuing to use 
the current systems for a few more years?
    Answer. Because we are using a phased approach to the FBMS 
implementation, we plan to use the current systems in some bureaus for 
several more years, until the transition is complete. However, we have 
many immediate and longer term concerns about the current systems. 
Interior's FFS software version is no longer JFMIP compliant and, along 
with the Department's acquisition system software, will not be 
supported by the vendor after September 30, 2004. The current systems 
are expensive and difficult to operate and secure. They do not share 
data among systems, requiring extensive data reconciliation and 
frequent data calls to the bureaus. We cannot resolve the material 
weakness in property management or completely address concerns raised 
by the Office of Inspector General related to fleet management and 
grants management with the current systems. The systems require 
Herculean efforts to close and balance in order to issue financial 
statements. As the federal requirements increase from annual to 
quarterly financial statements, those Herculean efforts must be 
multiplied. Worse, we are unable to provide consistent, timely, 
accurate information to managers and oversight organizations. These 
crises require us to act now to build the foundation for better 
financial and business management in the future.

                              PARTNERSHIPS

    Question. Madam Secretary, you have placed a great deal of emphasis 
on cooperative conservation and on partnerships. While I think this is 
generally the right philosophy, we have to be careful not to cede too 
much control over partnership projects--especially those that the 
Department will ultimately have to operate or manage.
    What procedures have you put in place to ensure that the Department 
maintains control over these ventures?
    Answer. In regard to the National Park Service, efforts are being 
taken to improve existing review and approval procedures for 
partnership construction projects. Already, the Bureau's Director's 
Order 21 established NPS policy for fundraising and donations, and 
required that fundraising campaigns with a goal greater than $1 million 
must be approved by the Director. Partnership construction projects are 
reviewed by the Bureau's Development Advisory Board at the conceptual 
level, in conjunction with requests for fundraising approval, as well 
as at the thirty percent design stage (similar to NPS line-item 
construction projects). However, a review of existing NPS partnership 
projects is demonstrating that weaknesses still exist in the process by 
which such projects are developed, approved and administered. 
Therefore, NPS has embarked upon the development of new procedures that 
will provide the following:
  --A clearer delineation of how senior level approval and oversight of 
        projects is administered at varying stages in the project's 
        development.
  --Clearer definitions of roles and responsibilities of all partners 
        to an agreement.
  --Notification to Congress of projects over $5 million.
  --Objective assessment of partner capability to carry out their fund-
        raising roles.
  --Direction concerning the need for Federal design control and 
        approval processes including appropriate sizing and scoping of 
        facilities.
  --Validation of assumptions about funding sources and revenue streams 
        (especially any Federal funding commitments).
  --Assessment of operational implications of new development and how 
        they are to be addressed.
  --Development of a communication plan for determining when a project 
        is publicly announced.
  --Clear strategies for the partnership to scale back or terminate if 
        the fundraising effort is not successful.
    By these new procedures, NPS would assure that partners are not 
driving NPS priorities in the development of construction projects and 
that such projects are not developed outside of the budget process 
whether or not Federal funding is assumed to be a part of the project. 
The NPS has also initiated a training program on partnership ventures 
and is providing additional tools to park personnel such as web site, 
model contracts, a mentor program, and further policy guidance to 
assist in developing and administering partnerships.

                            PRESERVE AMERICA

    Question. The budget request includes $10 million for a new 
``Preserve America'' program to promote heritage tourism. At the same 
time you propose to virtually eliminate funding for heritage areas 
authorized by Congress, even as proposals for many new heritage areas 
are pending in Congress.
    Is it your view that the Congressionally authorized heritage areas 
are not effective in promoting heritage tourism and the ``sustainable 
uses of . . . historic and cultural sites . . .''? Why did you not 
simply propose a $10 million increase in the existing Historic 
Preservation Fund grants-to-states program, and allow the states and 
tribes to decide where their preservation priorities lie? Why establish 
yet another program infrastructure?
    Answer. Preserve America and the National Heritage Areas Program 
share similar public policy goals as they both support and encourage 
the recognition, preservation and reuse of historic assets to enhance 
economic development and community identity. Their principal difference 
lies in geographic and ``political'' scale. National Heritage Areas are 
created by Congress and are, in most cases, quite large in geographic 
scale--encompassing multiple communities, counties, parishes, political 
jurisdictions, watersheds or ethological systems. Preserve America 
Communities are local and self-selecting, and generally a single 
government unit (towns, small cities, or neighborhoods of larger 
cities).
    Heritage tourism is an important strategic tactic for federally-
designated heritage areas. To date, the most effective heritage areas 
have more than amply shown their capabilities in recognizing the 
educational and economic potential of heritage tourism. We expect 
similar success from Preserve America Communities--only on a smaller 
scale. We do not see their efforts as competition--but rather as 
complementary.
    The reduction in funding for the National Heritage Area Program is 
not proposed as an offset in support of Preserve America but rather 
reflects the Administration's concerns for the need for broad national 
heritage area program legislation and national performance standards. 
We must ensure cost-effective accountability for the ever-increasing 
number of heritage areas and encourage established areas to become 
self-sufficient. The Department recommends that no new areas be 
proposed and the priority of the program's budget be reduced until such 
time as such legislation is enacted and performance standards 
established.

                       SNOWMOBILES IN YELLOWSTONE

    Question. Though I disagreed with some of the specifics, the 
Administration put forward a common-sense plan to regulate snowmobile 
use in Yellowstone National Park. That plan was the subject of 
conflicting court rulings all winter, creating a great deal of 
confusion about whether the Park was ``open'' at any given time--
whether to snowmobiles or visitors in general.
    Though I know you can't predict the outcome of the current legal 
wrangling, what is the National Park Service prepared to do to get the 
message out with regard to the Park's operating regime for next winter?
    Answer. The National Park Service (NPS) recognizes that this is a 
difficult time for the gateway communities surrounding Yellowstone and 
Grand Teton National Parks due to the uncertainties associated with the 
future of winter use in the parks. The NPS and the Department of the 
Interior are working closely with Department of Justice to set a course 
for winter use in Yellowstone and Grand Teton National Parks.
    The NPS is working to insure that park visitors have the most 
current and accurate information available to plan their visits to the 
park. As we discuss this issue with the public, the media and other 
officials, the NPS has constantly emphasized two messages:
  --Yellowstone and Grand Teton National Parks will be open next 
        winter, and people are encouraged to come and enjoy the park.
  --The Greater Yellowstone Area is a excelent winter recreation 
        destination. Snowmobiling, cross-country skiing, downhill 
        skiing, auto touring and snowcoach touring abound in the area.
    When the final decision on winter use is made, the NPS will:
  --Develop questions and answers for distribution to the public and 
        employees.
  --Issue news releases.
  --Brief Congressional delegation staff; local and national media; 
        community leaders and businesses; park concessioners; and NPS 
        employees.
  --Update the Yellowstone and Grand Teton's websites, which are 
        valuable resources for winter use information.
  --Hold informal public meetings in the surrounding communities to 
        share information on winter use and answer questions.
  --Continue to work with the Tourism Divisions of Wyoming, Montana and 
        Idaho on an outreach strategy.

                 NATIONAL PARK SERVICE--SECURITY COSTS

    Question. The National Park Service has previously provided 
information to the Committee indicating that the incremental costs of 
maintaining Code Orange alert status are about $60,000 per day. This 
estimate, however, predates some of the security-specific funding 
increases that have been provided by Congress.
    Based on current base funding levels, is the $60,000 per day figure 
still accurate? What is your current estimate of incremental costs if 
we go to Code Orange?
    Answer. The last Code Orange alert began on December 21, 2003 and 
ended on January 9, 2004. Based on those costs, the current NPS 
incremental cost of going from Code Yellow alert to Code Orange is 
$55,000 per day. The NPS is learning from experience about moving to 
Code Orange and is trying to reduce those incremental costs further.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Thank you Secretary Norton for appearing before the committee 
today. I understand that your department is operating under difficult 
budgetary constraints.

                       BUREAU OF LAND MANAGEMENT

    Question. In 1958, the State of Alaska was granted over 103 million 
acres of land under the Alaska Statehood Act. In 1971, Native Alaskans 
were granted 44 million acres of land under the Alaska Native Claims 
Settlement Act. 45 years later, the State is still waiting for the 
transfer of 15 million acres and title to over 60 million additional 
acres, and Native Alaskans are still waiting for the transfer of over 
10 million acres and title to millions more.
    To remedy this situation, Senator Lisa Murkowski and myself 
sponsored S. 1466, the Alaska Land Transfer Acceleration Act to 
accelerate conveyances to the State of Alaska and Native Corporations, 
finalize pending native allotments, and complete the University of 
Alaska's remaining land entitlement by 2009. While these legislative 
changes are a necessary component, the goal of completing the 
conveyances by 2009 requires increases in funding.
    Given the importance of completing the Alaska conveyance process, 
why did the Bureau of Land Management decrease funding for this program 
by over $8 million?
    Answer. The BLM fully supports the Alaska Conveyance program and 
proposes to fund the program in 2005 at the 2004 request level (plus an 
increase for uncontrollables). The $8 million increase provided by 
Congress in 2004 was not sustainable within overall budget constraints. 
The total BLM operating budget request for 2005, which balances many 
competing priorities, is only $8.3 million more than the 2004 enacted 
level.
    Question. The Alaska National Interest Lands Conservation Act 
(ANILCA) directed the Secretary to assess oil, gas, and other mineral 
potential on public lands in Alaska. As we are all aware, the U.S. is 
now reliant on foreign sources for 60 percent of our oil and 16 percent 
of our natural gas. Decreases in supply have brought current energy 
prices to an all time high which is hindering our economic recovery. 
Development of our energy and mineral resources is vitally important to 
increase our domestic energy supplies. Alaska remains the nation's best 
opportunity for developing these resources.
    Why did the Bureau of Land Management decrease funding for the 
assessment of Alaska's vast natural resources?
    Answer. The BLM fully supports the assessment of Alaska's vast 
natural resources, and is requesting the same level of funding for the 
Alaska Minerals program in fiscal year 2005, $2.2 million, as was 
requested in fiscal year 2003 and fiscal year 2004. This funding will 
provide for on-going Alaska mineral assessment studies, an economic 
cost factor analysis, expanding public availability to electronic 
minerals information, and continuing cost-sharing partnerships with 
United States Geological Survey, the Alaska Division of Geophysical and 
Geological Surveys, the University of Alaska, and the Alaska Native 
Claims Settlement Act regional corporations. The fiscal year 2004 
Congressional increase was not sustainable within the constraints of 
the overall budget.

                       FISH AND WILDLIFE SERVICE

    Question. The Endangered Species Act provides broad protections for 
fish, wildlife and plants that are threatened or endangered. Every 
year, Congress appropriates hundreds of millions of dollars for that 
program. One of the most important aspects of the program is the 
Candidate Conservation component, which focuses on preventing a species 
from declining and therefore avoids the necessity of listing a species. 
This is incredibly important to my state of Alaska, where the listing 
of species and designation of critical habitat has the potential to 
permanently halt many of our industries.
    Given the importance of preventing the decline of species, why was 
funding eliminated for Sea Otter research in the Fish and Wildlife 
Service's budget?
    Answer. The President's budget reflects the Service's considered 
approach to funding its highest priority items. Sea otter research is a 
priority of the Service, but it is not as high a priority as are other 
actions that would be funded under the Service's request.
    Question. Also, why was funding eliminated for the recovery of the 
threatened spectacled eider and Steller's eider?
    Answer. In fiscal year 2004, Congress provided $889,000 in pass-
through funding for the Alaska Sea Life Center to continue a recovery 
research program for the threatened spectacled eider and Steller's 
eider. Specifically, these funds were used to identify and implement a 
recovery research agenda for these species. The Service is currently 
collaborating with the Sea Life Center as well as the North Slope 
governments and the State of Alaska. Past funding and effective 
partnerships make this pass-through unnecessary in fiscal year 2005. 
These types of activities are generally more appropriately funded 
through Service (and other) grant programs, which ensure that limited 
resources are directed to the highest priority activities.
    Question. I am pleased to see that the Fish and Wildlife Service 
has increased its budget request in fiscal year 2005 for land 
exchanges. This is incredibly important in my state. As you know, we 
have a unique situation where the state, natives and private landowners 
have inholdings within wildlife refuges. I understand that the agency 
is currently negotiating with several of these parties to resolve this 
situation.
    What is the current status of these negotiations and when do you 
expect these exchanges to be completed?
    Answer. The U.S. Fish and Wildlife Service (Service) and numerous 
entities in Alaska continue to conduct an active land exchange program. 
The Service is currently working with Native corporations, private 
individuals, and the State of Alaska to identify land exchanges, of 
mutual benefit to all parties, that protect high-quality fish and 
wildlife habitat within the boundaries of existing National Wildlife 
Refuges in Alaska. Several of these refuges expect completion of 
pending exchanges in fiscal years 2004 and 2005. Many proposed 
exchanges are pending, dependent on the completion of negotiations on 
other exchanges. The status of specific land exchanges is listed below.
Current status of specific land exchanges
    Alaska Maritime NWR/Homer Administrative Site.--This exchange 
within the Homer city limits was completed in April 2004. It conveyed 
ownership of the warehouse being leased by the Refuge as well as 
adjoining vacant lands to the United States in exchange for prime 
commercial land along the Sterling Highway that will be used for 
expansion of the local grocery store.
    Alaska Maritime NWR/Koniag Women's Bay.--An exchange agreement has 
been signed by both parties and appraisals are complete. We are 
awaiting Koniag's identification of lands necessary to equalized values 
in the exchange. We anticipate this exchange will be completed in 
fiscal year 2004.
    Alaska Maritime NWR/Newby.--Appraisals are in the contracting 
process for this exchange. The Service anticipates completion of this 
exchange in fiscal year 2005. This exchange will benefit the new Ocean 
and Islands Visitors Center by acquiring lands adjacent to the Visitors 
Center property and within the viewshed of the Visitors Center.
    Alaska Maritime NWR/Shumagin Corp.--No action taken. The Shumagin 
Corporation has agreed to relinquish a sizable amount of their 
overselections. When final ANCSA entitlement has been determined, 
Shumagin has expressed interest in an exchange to consolidate their 
holdings.
    Alaska Maritime NWR/Sitkinak.--Final details have been worked out 
in a Memorandum of Understanding with the State of Alaska. The Service 
awaits signature on the MOU by the State to proceed with the exchange. 
This exchange will transfer about 1,653 acres to the United States and 
result in the State of Alaska owning all of Sitkinak Island, where 
cattle are currently being raised.
    Alaska Peninsula NWR/Koniag.--Awaiting completion of the Koniag 
Women's Bay exchange prior to initiating exchange involving subsurface 
acreage for other Koniag lands.
    Kenai NWR/CIRI.--Preliminary identification of exchange lands has 
been completed by the Service and CIRI for this exchange. Further site 
work will be accomplished this summer. Fiscal year 2005 funding will be 
required to initiate appraisals and secure title evidence/insurance and 
closing. Wilderness area could potentially be expanded by 3,000 acres 
if exchange is completed. The exchange would also provide an 
alternative route for relocation of the Sterling Highway near the 
confluence of the Kenai and Russian Rivers.
    Kodiak NWR/Koniag.--On hold pending completion of Koniag Women's 
Bay exchange.
    Yukon Delta NWR/NIMA Corp.--Solicitation for bids for contract 
appraisals has been initiated. A Memorandum of Understanding to 
complete the exchange has already been signed by NIMA. Fiscal year 2005 
funding will be required to complete exchange. The equal value exchange 
will result in the acquisition of about 37,000 acres by the United 
States. This exchange will facilitate consolidation of NIMA Corporation 
lands on Nunivak Island and Refuge lands on the Yukon Delta
    Yukon Flats NWR/Beaver.--On hold pending the completion of 
negotiations with Doyon.
    Yukon Flats/Doyon.--Negotiations are proceeding with this proposed 
exchange. Doyon Limited wants to acquire about 127,000 acres of refuge 
land that may be valuable for oil and gas development. In return, the 
United States would receive high value wildlife habitat lands. Only a 
few outstanding issues remain, and the parties continue talks to 
identify mutually beneficial terms leading to an exchange agreement. 
Legislation will be necessary to provide authority to implement the 
terms identified in the proposed exchange agreement, when it is 
completed.
    Yukon Flats NWR/Stevens Village.--On hold pending the completion of 
negotiations with Doyon.
    Question. An ongoing issue in my state relates to access to 
inholdings in conservation units. ANILCA provides that such access be 
allowed subject to reasonable regulations. However, in several 
instances throughout the state, access is being denied or severely 
restricted.
    What is currently being done to ensure that individuals are able to 
access their homes and villages?
    Answer. Reasonable access is available by traditional methods 
(airplanes, water boats, and snowmobiles, when snow cover is adequate) 
for travel to and from the homes and villages of the vast majority of 
inholdings within the boundaries of the National Wildlife Refuges in 
Alaska. When access is unavailable, the inholder must file a right-of-
way application, which is reviewed and processed according to 
procedures outlined in Title XI of ANILCA. The Service's Alaska Region 
works directly with inholders throughout the application process to 
ensure resulting right-of-way permits that meet their access needs and 
protects the natural values of the National Wildlife Refuge.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

    Question. The Department has recently studied the employees and 
their duties at the Natchez Trace Parkway. I understand that a decision 
will soon be reached determining the most efficient way in which the 
Department believes the Trace should be organized. Either these jobs 
will be outsourced to a private company or cost-saving measures will 
result in jeopardizing the jobs of existing employees.
    What was the cost to conduct this A-76 study?
    Answer. Required under the fiscal year 2004 Appropriations 
language, the mandatory Report to Congress, defined ``incremental cost 
of conducting a study'' as ``over-time or back-filling behind employees 
who were working on the study''. To date, there have been no such costs 
to the Natchez Trace or Southeast Regional offices.
    Question. What was the cost of consultants fees to assist in the 
study?
    Answer. The cost of consultant fees to assist in the study is 
$268,000.
    Question. Do the total savings reflected in the study exceed the 
cost of conducting the study?
    Answer. By computing the cost of the as-is organization prior to 
the study and computing the cost of the Most Efficient Organization 
(MEO) one can make a projection. However, actual savings remain unknown 
until after the organization has run through at least one budget year 
and the costs captured at the end. There will be audits done to 
ascertain this but these analyses are at least a year away.
    Question. If the most efficient organization wins the bid, will 
there be sufficient funds to implement the organizational structure 
based on the study's guidelines?
    Answer. Even with the implementation of the Most Efficient 
Organization's reduction-in-force and additional increases for cost-of-
living allowances and inflation, the park is able to maintain its total 
operations without an increase in base funding.
    Question. Do these guidelines require additional positions to 
implement the study and if so, has the Department accounted for those 
positions in their funding request for the Trace?
    Answer. No. They don't require additional positions to implement 
the study.
    Question. If the Trace wins the bid and there is a requirement to 
reduce the number of people employed by the Trace, how much will it 
cost the park service to implement these measures?
    Answer. If the NATR received the requested buy-out authority, each 
buy-out would cost up to $25,000. It is impossible to calculate the 
cost of any involuntary separation because we can only speculate on how 
many employees would chose to take the buy-out since the specific buy-
out, early-out authority has not been approved for NATR.
    Question. The Shiloh National Military Park has a unit in Corinth, 
Mississippi. This battlefield is in a rural part of the state and much 
of the original archeology of the Civil War era is untouched. Because 
of its pristine condition and the amount of preserved land which has 
been maintained by volunteers, it is important that these areas be 
preserved by the Department of the Interior.
    Is the Park Service working toward incorporating the outlying 
battlegrounds into the existing park boundary?
    Answer. Currently there is a Special Resource Study/Boundary 
Adjustment Study taking place. As part of the planning process an 
Environmental Assessment (EA) has been completed and the public review 
process is currently taking place. The Study identified 18 non-
contiguous sites to comprise the Corinth Unit. The Siege and Battle of 
Corinth Commission (SBCC) is willing to donate the portions of these 
tracts which they own to the park. The preferred alternative is to 
accept the land owned by SBCC as a donation for the Corinth Unit. The 
NPS would also work to acquire approximately 190 acres at the Battery 
Robinett and Contraband Campsites in the future as funding becomes 
available or the lands are offered for donation. The rest of the land 
would be identified as part of the project, but partners would be 
enlisted to acquire and manage the land.
    Question. What are the plans of the Park Service to acquire these 
lands and maintain them?
    Answer. The preferred alternative reflects acquiring the Battery 
Robinett and Contraband Campsite areas as well as those areas to be 
donated by SBCC. Legislation is needed to authorize the boundaries of 
the Corinth Unit. The Corinth Unit would continue to be maintained and 
interpreted by the National Park Service under this alternative.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell

                               BIA BUDGET

    Question. It's been reported in the press that the BIA is slated 
for a 2.4 percent reduction in the fiscal year 2006 budget, on top of 
the 2.3 percent reduction in this year's budget request.
    Can you comment on the accuracy of that report?
    Answer. The formulation process for the President's fiscal year 
2006 budget is just starting, and no decisions have been made on 
proposed funding levels.

                       HAZARDOUS FUELS REDUCTION

    Question. As we all know, Colorado is in a terrible drought. Even 
the recent rains and snows are not enough to bring the moisture levels 
up to normal. Last year, over 80 percent of Colorado was classified 
under the U.S. Drought Monitor as ``Extreme'' drought or 
``Exceptional'' drought, which is obviously worse.
    This drought is going to create a lot of hazardous fuels for future 
fires. The Forest Service told me in the past that they were delayed in 
fuels reduction due to ``analysis paralysis.'' I am curious as to your 
level of progress in fuels reduction and if you have encountered the 
types of setbacks and delays experienced by the Forest Service.
    Answer. We share the concerns for both the potential of wildland 
fire and our ability to aggressively treat the thousands of acres that 
need to be treated in Colorado. As you are aware, the drought has also 
caused a serious outbreak of the IPS Beetle. In Colorado, Department of 
the Interior bureaus treated 23,791 acres in fiscal year 2003, and have 
treated 17,066 acres as of June 18, in fiscal year 2004. The majority 
of these acres have been in the Wildland Urban Interface (WUI) area. 
The pace of treatment in Colorado has been a function of weather 
conditions. During these types of drought conditions, the use of 
prescribed fire, our most efficient tool for acre accomplishments, is 
very limited, and the emphasis shifts to more expensive, labor 
intensive mechanical treatments. Efforts are being coordinated with the 
State, private land owners and the U.S. Forest Service to be as 
efficient as possible in the execution of these projects.

                        FIRE FIGHTING BUDGETING

    Question. I've previously spoken with Forest Service Chief Bosworth 
about the difficulty of planning a budget for wildfires considering the 
unpredictability of mother nature and unplanned significant deviation 
from the 10-year fire average.
    Do you expect to have similar budgeting issues for fire fighting 
efforts?
    Answer. Budgeting for wildfire suppression is inherently difficult 
because future levels of fire activity cannot be predicted with 
precision. However, use of the 10-year suppression cost average has 
proved to be a reasonable and durable basis for suppression budgeting. 
Although suppression costs have exceeded the 10 year average in the 
past several fire seasons, looking back historically there have been 
many years in which suppression costs were below the average. For 
example, during the four fire seasons from 1995 to 1998 costs were 
below the average in three seasons and less than $2 million above the 
average in the fourth.

                          PARK SERVICE BACKLOG

    Question. As you know, addressing the Park Service's maintenance 
backlog was identified as one of the President's priorities. I couldn't 
help but notice that the fiscal year 2005 budget for construction and 
maintenance to address this backlog has remained more or less constant 
over the past 2 years. One would expect this area to receive more 
attention. What are some of the reasons your budget has remained at or 
below past years' levels for addressing this backlog?
    Answer. The 2005 request does continue to support the President's 
commitment to address NPS deferred maintenance. The fiscal year 2005 
request addresses NPS deferred maintenance with funding from facility 
maintenance, construction, the Federal Lands Highway program and a 
portion of fee demonstration revenues. The fiscal year 2004 funding 
estimate for these programs is $1.035 billion, and the fiscal year 2005 
request for these programs is an estimated $1.112 billion. Both 
estimates are dependent on enactment of the President's proposed 
funding for the NPS Park Roads and Parkways Program under the Federal 
Lands Highway Program, currently pending before Congress. By 
comparison, in fiscal year 2001, the last budget enacted under the 
previous Administration, the funding levels in the same programs 
totaled an estimated $814.6 million.

                       ENDANGERED SPECIES PROGRAM

    Question. As you know, only six animal species in the United States 
have ever been recovered by the Endangered Species Program in its 30 
year existence and none have been de-listed in the last 2 decades. 
Unfortunately, more species have been de-listed due to extinction 
(seven) than recovery (six).
    In light of these facts, can you explain why in the fiscal year 
2005 budget for Endangered Species listing has increased by more than 
$5 million while the budget for recovery has gone down by almost $10 
million? What good does it do to keep listing species if we aren't 
making good strides to recover species already on the list?
    Answer. The Service agrees that recovery of listed species is the 
fundamental goal of the Act. However, while the Endangered Species 
program has the lead for that responsibility, all programs in the 
Service (as well as programs in many other agencies, programs supported 
by States, local governments, organizations, and individuals) directly 
or indirectly benefit recovery of listed species. As a result, and 
unlike the situation for adding species to the Endangered Species list, 
resources appropriated to the recovery program itself are a relatively 
small portion of the total resources available to help recover species. 
We coordinate with other Service programs such as Refuges, Fisheries, 
Partners for Fish and Wildlife, and Environmental Quality to implement 
recovery actions for those species found on both private and public 
land. We also work closely with other Federal agencies, the States, 
non-governmental organizations, private landowners, and other 
stakeholders to leverage our Federal funds to the maximum amount 
possible to complete specific priority tasks and projects that will 
help achieve recovery objectives (to downlist or delist the species) 
outlined in the species' recovery plans. Tools such as Safe Harbor 
Agreements with non-Federal property owners are a good example of our 
partnership activities that help recover listed species. We are always 
looking for opportunities to foster new partnerships and expand ongoing 
ones.
    A significant portion of the proposed decrease in the recovery 
budget would eliminate line-item funding for specific, projects, 
including the Upper Colorado River Fish Recovery Program. This proposal 
does not reflect any lack of commitment by the Service to the recovery 
of the endangered fishes of the upper Colorado River basin; however, we 
believe that other sources of funding, including funding provided by 
our project partners, may be available to continue this work, that 
increases in grants available from various sources may be available to 
support specific, high-priority actions implemented through this 
program, and that other high-priority actions will continue to be 
supported through our Recovery funding. In times of declining overall 
budgets, specific line item funding reduces our flexibility to dedicate 
resources to the highest priority, most essential, and most successful 
conservation efforts. Taken as a whole, the President's budget reflects 
a continued commitment to the protection and conservation of endangered 
species through the use of partnerships and collaboration.
    In the last two decades (since 1985), a total of 7 animal species 
in the United States have been delisted because they have been 
recovered. These species are the Atlantic Coast population (FL, AL) of 
brown pelicans (1985), the American alligator (1987), the gray whale 
(1994), the Arctic peregrine falcon (1994), the American peregrine 
falcon (1999), the Aleutian Canada goose (2001), and the Douglas County 
population of the Columbia white-tailed deer (2003). In addition, 2 
plants in the United States (Robbins cinquefoil and Rydberg milk-vetch) 
have been recovered.
    It's important to note that there are other conservation benefits 
associated with adding a species to the endangered species list. While 
it may take years to recover a species, listing can provide immediate 
protections, increased focus on a species' needs, and often generate 
resources from other entities such as other Federal agencies, States 
and local jurisdictions, and the private sector, including non-
governmental organizations and private landowners.

                         MIDNIGHT RIDER REMOVED

    Question. In last year's Interior Appropriations Conference Report, 
language was inserted that modified the Court-imposed requirement for a 
historical accounting to commence: this rider suspended the requirement 
until either (a) Congress amends the 1994 Act, or (b) Dec. 31, 2004.
    This year's OST budget request proposes to strike that language 
from the next bill.
    Why does the Department want this language removed?
    Answer. The fiscal year 2004 Interior Appropriations language was 
inserted in the conference report of the fiscal year 2004 bill in 
response to the September 2003 ruling in the Cobell case. It places a 
moratorium on any accounting until Congress addresses the issue of what 
kind of accounting it expects under the 1994 Act or until December 31, 
2004, whichever comes first. The Department is of course hopeful that 
Congress will address this issue before December 31, 2004. The fiscal 
year 2005 budget request does not assume this. However, we have not 
advocated either removing or extending the existing language. It 
addresses the fiscal year 2004 language by assuming the accounting 
moratorium will be lifted as of December 31, 2004, and therefore 
proposes $80.0 million to fund the Individual Indian Money accounting. 
That amount is based on the Department's costs to begin, after December 
31, 2004, implementation of the Department's proposed historical 
accounting plan. This amount may be revised depending on how the Court 
of Appeals for the District of Columbia circuit rules with regard to 
the structural injunction in the Cobell case or on whether 
Congressional action is taken to delineate the specific historical 
accounting obligations of the Department as suggested in the 2004 
Appropriations Act.

                           BIA REORGANIZATION

    Question. Last year the BIA instituted a sweeping reorganization, 
primarily to address trust management issues.
    Can you give the Committee an estimate of the total cost of this 
reorganization effort?
    Answer. Other than the initial costs of consultation with the 
Tribes, the cost of the reorganization effort is comprised mostly of 
the cost of hiring additional staff to improve the delivery of trust 
resources at the field locations. Between fiscal year 2004 and fiscal 
year 2007, the Bureau plans to hire 124 additional staff, 108 of which 
will be Deputy Superintendent positions at the local level to oversee 
daily trust transactions and operations. Once filled, the total cost of 
these positions, including travel, training and equipment is estimated 
to be approximately $16 million per year. The President's fiscal year 
2005 budget request includes the first increment of funding for these 
positions--$5.5 million to support 25 Deputy Superintendent positions 
at the local level to oversee daily trust transactions and operations.
    Question. Is there any fiscal year 2005 funding slated to go toward 
further reorganization?
    Answer. The President's fiscal year 2005 budget request includes 
$5.5 million to support 25 Deputy Superintendent positions at the local 
level to oversee daily trust transactions and operations.

                     OFFICE OF TRIBAL CONSULTATION

    Question. One of the new proposals in this budget request is $1.1 
million to establish a permanent Office of Tribal Consultation within 
the BIA.
    How permanent is this new office, and do you anticipate a similar 
level of funding every year?
    Answer. The Office of Tribal Consultation will coordinate all 
consultation efforts for Indian Affairs. This office will ensure that 
consultation is occurring where appropriate, and be the contact point 
for all Indian Affairs efforts on consulting with tribal governments.
    Question. Executive Order 13175 directs that tribal consultation 
occur at every level of every Federal agency. Where is the proposed 
location for this new office in the Departmental organization? Will it 
be within the BIA, or in the Secretary's office?
    Answer. The Office of Tribal Consultation will be located in the 
Office of the Secretary within the Office of the Assistant Secretary--
Indian Affairs.

                       INDIAN LAND CONSOLIDATION

    Question. The Indian Land Consolidation program is to receive a 
substantial increase in this budget, up to $75 million.
    Is this level of funding substantial enough to begin addressing the 
problem of fractionated interests?
    Answer. The Department feels the Indian Land Consolidation Program 
(ILCP) has been very successful to date, with the level of resources 
available to the program. The program has purchased 74,626 interests to 
date (as of March 1, 2004) with an estimated value of $29.2 million and 
is the equivalent of 49,155 acres.
    Currently approximately 2.3 million individual Indian owner 
interests are fractionating at a rate of approximately 6 percent per 
year. At this rate of increase, approximately 140,000 to 160,000 owner 
interests will need to be purchased yearly to prevent fractionated 
interests from expanding.
    Question. How much more would be required?
    Answer. The fiscal year 2005 budget proposes an unprecedented 
amount of $70 million for ILCP, an increase of $48.3 million. Because 
of the magnitude of the problem and the necessary legislative reforms 
that are still required--such as probate reform, partition of land, and 
the disposition of unclaimed property--it is difficult to predict any 
estimate of the total amount of funds that will be necessary to 
complete the consolidation of fractional interest. However, this 
unprecedented level of funding, when coupled with other meaningful 
reforms should begin to significantly address this longstanding and 
growing problem.
    Question. What is the carryover in this account from previous 
appropriations?
    Answer. The unobligated balance carryover in the Indian Land 
consolidation account as of September 30, 2003 was $10,578,768.

                         TRIBAL SELF GOVERNANCE

    Question. I am glad to hear that 40 percent of the BIA operating 
budget is now going directly to Tribes as Tribal Priority Allocations. 
But I hope to see that number go even higher.
    How many ``first-time and expanded'' contracting tribes due you 
anticipate will enter the 638 program this year?
    Answer. For fiscal year 2005, the Department anticipates that there 
will be five additional tribes/consortia entering into Self-Governance 
compacts: however, these tribes have had previous contracting 
experience with the BIA, and will not increase the amount of programs, 
services, functions or activities assumed from the BIA.

                       TRIBAL SCHOOL CONSTRUCTION

    Question. Tribal School construction: In 1997 a GAO study estimated 
a backlog of school construction in the amount of approximately $700 
Million. Your testimony indicates that funding for tribal school 
construction has been decreased by approximately $61 million for fiscal 
year 2005, but does not provide any justification for the decrease.
    Does this decrease suggest the backlog has been eliminated, if not, 
then what is the justification for the decrease?
    Answer. We have made substantial progress in improving the 
condition of BIA schools. By the time we have completed the work 
proposed in our 2005 budget, 60 percent of BIA schools will be in good 
or fair condition. Three years ago, 65 percent of BIA schools were in 
poor condition.
    We do have a $66 million reduction in the 2005 program. To put this 
in perspective, however, this is a reduction of about one-fifth. We are 
still proposing a robust program of $226 million. As recently as 1999, 
spending on BIA school backlog needs was only $60 million a year.
    The reason that we are comfortable with this year's program level 
is that we currently have 21 replacement schools in the planning and 
design process or under construction. The 2005 budget will build the 
remaining five schools on the current replacement priority list. The 
budget also provides $10 million for the tribal school construction 
demonstration program, which is likely to fund an additional two 
schools on a cost share basis with Tribes. Funding additional 
replacement schools in 2005 would get us too far ahead of our ability 
to prudently manage the construction program.

                    UNITED TRIBES TECHNICAL COLLEGE

    Question. In this proposed budget, the funding for the United 
Tribes Technical College (UTTC) has been eliminated, even though it has 
been part of the Interior appropriations since the 1980s.
    UTTC and Crownpoint Institute of Technology are under the Perkins 
Act and not the Tribally-Controlled Community Colleges Act. What is the 
justification for forcing these schools to seek funding add-ons each 
year instead of seeking a permanent solution?
    Answer. UTTC and Crownpoint receive funding from the Department of 
Education under section 117 of the Carl Perkins Act. Under the proposed 
2005 Department of Education budget, section 117 is funded at $7.2 
million. No other tribal colleges are eligible to receive funding under 
this section. Depending on student enrollment, section 117 funding will 
provide UTTC and Crownpoint with about $6,600 or $6,700 per student 
count. TCUs receive an average of $4,230 per Indian Student Count in 
fiscal year 2004.
    Question. What alternatives have the Department pursued to find 
permanent funding for these two schools?
    Answer. The Department has not pursued ``permanent'' funding for 
these schools. However during formulation of the fiscal year 2005 
budget the Department conducted an analyses comparing per student 
funding at CIT and UTTC with that of the TCUs.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                   ENEMY SWIM DAY SCHOOL REPLACEMENT

    Question. It is my understanding that there is some disagreement 
between the Bureau of Indian Affairs and the Office of Facilities 
Management and Construction about the appropriate replacement size for 
the Enemy Swim Day School, which Congress appropriated funding for in 
fiscal year 2004. I'm told that the Enemy Swim Day School successfully 
appealed the size of the school, and received a written commitment from 
BIA Deputy Assistant Secretary Aurene Martin on January 6, 2004, 
agreeing that the size of the replacement school would be 67,889 square 
feet. However, OFMC is apparently refusing to honor the outcome of this 
appeal and is instead insisting that the size of the school be 45,000 
square feet.
    What is the current status of this replacement project? Does the 
appeals process mean anything if OFMC is allowed to ignore the outcome? 
What steps do you intend to take to favorably resolve this dispute 
between various Interior offices?
    Answer. The Bureau of Indian Affairs (BIA) Office of the Assistant 
Secretary (AS-IA), Office of Indian Education Programs (OIEP) and the 
Office of Facilities Management and Construction (OFMC) have been 
working diligently with tribes and school boards to improve the process 
for replacement school construction. A new interim policy has been 
approved by the AS-IA that clearly defines how student enrollment is 
calculated and used in projecting the size of new schools. This was in 
response to findings from the OIG about student enrollment projections, 
which may have resulted in some over-built schools.
    In the case of the Enemy Swim appeal of the interim policy for 
enrollment projection, approval for 139 students was granted, as 
requested by the school. In a meeting held with Enemy Swim, OFMC, OIEP 
and Enemy Swim, the school was given the authority to construct the 
school to the amount of square footage they could reach within 
available funding. The resulting space projection for this project is 
in the range of 45,000 square feet, which is well within the acceptable 
square footage for the approved student enrollment of 139. OFMC also 
was agreeable to the school's request to retain two modular buildings 
on the existing school campus for Adult FACE and school administration. 
The buildings will be set up on the new school campus and will be 
eligible for O&M funding.
    OFMC will continue to work with the Enemy Swim School 
Administration and school board to complete this project, which will 
alleviate health and safety conditions for the students and staff.

              STATUS OF OTHER SCHOOL CONSTRUCTION PROJECTS

    Question. I am very concerned to note that, of the 20 school 
replacement projects currently pending, only 1 of these schools has 
been completed--and that project is done only because the Tribe started 
the construction with its own funds under the Cost Share Demonstration 
program. For some of these projects, design has been underway since 
2001 or before and yet construction is still not started, much less 
completed. I am particularly concerned about the status of the two 
projects in my state, the Ojibwa Indian School and the Turtle Mountain 
High School. The BIA and OFMC have put obstacle after obstacle in place 
that have delayed construction. Meanwhile, Native American children are 
being forced to continue to attend classes in over-crowded, often 
unsafe and unsanitary conditions.
    What actions do you intend to take to ensure that replacement 
school construction projects are completed in a more timely manner?
    Answer. The Bureau and OFMC are very committed to the timely 
completion of replacement school construction projects. Many of the 
projects identified in fiscal year 2003 and fiscal year 2004 
construction appropriations were adversely affected because the BIA has 
been resolving findings from the OIG about student enrollment 
projections, non-ISEP student counts and the size of schools. Based on 
these findings, the BIA developed interim policy for enrollment 
projections, which directly affects the size of the schools that can be 
constructed. This directly impacted the two projects at Ojibwa and 
Turtle Mountain.
    Currently, the design phase for Ojibwa Indian School project is 70 
percent complete. This project is handled through a Public Law 100-297 
grant. The Ojibwa School Board has requested the ability to award site 
preparation for this project before completion of the 100 percent 
design approval. The Bureau is working with Ojibwa to accomplish this 
because of the short window for the construction season in North 
Dakota.
    The design phase for the Turtle Mountain High School project is 99 
percent complete. The Bureau is in the final stage of review.
    The Bureau has established goals and objectives that clearly 
outline Planning, Design and Construction timeframes. The goal is to 
have the replacement schools completed in four years from Planning and 
Design through construction.
                                 ______
                                 
               Questions Submitted by Senator Harry Reid

                       BUREAU OF LAND MANAGEMENT

Wild Horses and Burros
    Question. Overpopulation of wild horses and burros poses a grave 
threat to the nation's rangelands, which have are already degraded by 
the extreme drought and fires of the past several years. The problem is 
especially severe in Nevada, where the 2003 wild horse population was 
conservatively estimated to be 17,930. This number does not account for 
the large number of foals born in 2003 and 2004, or for the 1,400 
horses in Nevada holding facilities, at an average daily cost of $3.47 
per horse. Now, twenty-eight years after Congress authorized removal of 
wild horses and burros from public lands, Nevada is nowhere near its 
Appropriate Management Level of 14,000 animals.
    Why does Nevada, with 48 percent of the Nation's wild horses and 
burros, receive only 14 percent of Wild Horse and Burro Program 
funding?
    Answer. During the last three years (fiscal year 2001 to fiscal 
year 2003) an average of 46 percent of the BLM's total Wild Horse and 
Burro (WH&B) program expenditures were directly attributable to Nevada 
wild horses and burros. According to the fiscal year 2003 population 
data, Nevada managed 48 percent of the nation's free roaming wild 
horses and burros.
    Question. How does the Department plan to overcome past failures of 
the Wild Horse and Burro Program, particularly regarding the severe 
overpopulation of wild horses on fragile, drought-stressed rangeland in 
Nevada?
    Answer. We agree that the overpopulation of wild horses and burros 
poses a threat to the nation's rangelands, and that the drought and 
wildfire situation aggravates it that much more. The best approach to 
resolving these issues is to get to appropriate management levels (AML) 
and maintain them.
    The current population of wild horses and burros on public lands is 
36,000 animals. Populations have not been this low since the 1970's. 
The target appropriate management level is 26,433 and BLM is now in a 
position to achieve appropriate management levels within two years.
    The progress to this point has also been the result of improved 
management efficiencies. The following are examples of those:
  --The BLM has reduced removal costs by making improvements in 
        contracting.
  --The BLM has realized a cost savings by shifting from removals being 
        done through BLM crews to removals done by contractors.
  --The BLM achieved cost savings on long-term holding of excess 
        animals by establishing a policy on the age of animals being 
        removed that has reduced the number of younger age animals that 
        go into long-term holding.
  --The BLM has provided direction that all AML be established by 
        fiscal year 2005 to facilitate the goal of having populations 
        at those levels.
  --The BLM has established a four-year gather cycle policy to minimize 
        gather costs and reduce stress on animals.
  --The BLM is reducing costs by determining the minimum feasible level 
        of facilities to handle excess animals.
  --The BLM has achieved significant cost savings in vaccines and 
        medicines by converting from state-by-state purchase contracts 
        to national purchase contracts.
  --The BLM is reducing costs by moving from holding animals in 
        contracted corral facilities to contracted pastures.
  --The BLM has established a relationship with the National Wild Horse 
        and Burro Foundation to aid in improving the marketing 
        practices of the Adoption Program.
  --The BLM has conducted three internal/external reviews/audits of the 
        Wild Horse and Burro Management Program; results of these 
        reports involve potential improvements or cost savings.
  --The BLM has established programs in cooperation with prisons to 
        hold, train and adopt horses. The result is lower holding costs 
        with the added benefit of gentling of wild horses and 
        increasing adoptions.
  --The BLM has established a system of checks and balances and 
        accountability using the Wild Horse and Burro Steering 
        Committee, the BLM Executive Leadership Team and the Wild Horse 
        and Burro Staff.
  --The BLM utilizes the National Wild Horse and Burro Advisory Board 
        to pursue efficiencies and recommended changes to program 
        procedures.
    The bureau's strategy to improve management of wild horses and 
burros on public lands is to redirect funds from other MLR programs to 
the WH&B program for the next several years to achieve AML west-wide by 
2006. Most of the programs from which funds will be redirected will 
benefit from the eventual achievement of AML. Once AML is achieved, the 
Bureau projects that the wild horse and burro budget will begin to 
decline as the need for removal will drop from over 10,000 per year to 
about 5,000 per year with corresponding savings in holding, feeding, 
veterinary care, preparing for adoption, and adoption. The large number 
of horses now held in long-term holding will also begin to decline 
through natural mortality. BLM plans to direct the majority of this 
effort to Nevada with plans to remove at least 5,500 animals per year 
for the next two years.
    For a more detailed review of these items and others please refer 
to the recently submitted report to Congress: ``Reaching Appropriate 
Management Levels in Wild Horse and Burro Management.''

                   EASTERN NEVADA LANDSCAPE COALITION

    Question. I appreciate efforts to restore health to our precious 
forests and rangelands. I believe that success hinges on involving 
local partners in this momentous effort. I am especially proud of the 
Eastern Nevada Landscape Coalition, a non-profit organization dedicated 
to restoring the dynamic and diverse landscapes of the Great Basin 
through collaboration with the Bureau of Land Management. 
Unfortunately, despite a 5-year, $1 million per year assistance 
agreement, the Department has only allocated $300,384 to this important 
coalition for fiscal year 2004, and has forewarned the group not to 
expect any funding in fiscal year 2005. In fact, funds for these types 
of partnerships have seen an overall decrease in your fiscal year 2005 
budget. Recognizing that the cost of fire prevention is a great deal 
less than that of fighting fires and subsequently restoring rangeland, 
would you support investing Bureau of Land Management wildfire money in 
this coalition?
    Answer. The Eastern Nevada Landscape Coalition (ENLC) is a valued 
partner to BLM. Through this partnership, much work has been 
accomplished to benefit the rangelands in eastern Nevada. BLM fully 
supports the mission of ENLC, and we collaborate with them whenever 
possible. The assistance agreement signed with ENLC authorized $1 
million per year, but that level of funding for such work has not been 
available. BLM must abide by Federal procurement laws regarding 
competitive bidding for projects that could be accomplished by ENLC 
through the assistance agreement.
    In response to your specific question about wildland fire 
management funding, the Department of the Interior has in recent years 
conducted numerous hazardous fuels reduction projects on federal lands 
within the geographic area of the ENLC, and will likely continue to do 
so. As indicated in the table below, 16 fuels projects totaling 
$711,000 were funded by the Department of the Interior in fiscal year 
2003 and fiscal year 2004 combined. The Department is increasingly 
using contracts, grants, and cooperative agreements to perform fuels 
treatments. To the extent the ENLC is qualified to conduct such 
treatments, there are certainly opportunities for ENLC to participate 
in the DOI hazardous fuels reduction program through contracts, grants, 
or cooperative agreements.

                      EASTERN NEVADA LANDSCAPE RESTORATION--FUELS TREATMENT FUNDED PROJECTS
----------------------------------------------------------------------------------------------------------------
                                           Mechanical              Prescribed                Other
         Fiscal year            Projects   treatment    Funding     burning     Funding    treatments   Funding
                                            (acres)                 (acres)                 (acres)
----------------------------------------------------------------------------------------------------------------
2003.........................         10        2,458   $412,000          530    $21,000  ...........  .........
2004.........................          6          451   $204,000  ...........  .........        1,085    $74,000
                              ----------------------------------------------------------------------------------
      Total..................         16        2,909   $616,000          530    $21,000        1,085    $74,000
----------------------------------------------------------------------------------------------------------------

    BLM will continue to fund projects on-the-ground in the ENLC area 
of emphasis to the degree possible. Fuels treatment projects are funded 
on a priority basis across all BLM administered lands, and BLM will do 
everything possible to ensure the vast majority of dollars received 
make it to the ground where it will do the most good.
    In addition to fuels reduction funding, BLM seeks opportunities to 
engage ENLC in land health restoration work through other programs, 
including the Cooperative Conservation Initiative (CCI) program, which 
support the Great Basin Restoration Initiative and the Eastern Nevada 
Landscape Restoration Project. The Gleason Creek Co-op Sagebrush 
restoration project is under consideration for $50,000 in CCI funding 
in fiscal year 2005.

                         U.S. GEOLOGICAL SURVEY

    Question. The United States Geological Survey plays a critical role 
in providing decision makers and the public with important information 
about floods, earthquakes, water quality and availability, mineral 
resources, wildlife, and the spread of invasive species, which inform 
economic development and land use planning. Yet, funding for important 
programs such as the Mineral Resources Program and the Water Resources 
Research Institute Program are slated for significant reductions or 
elimination in fiscal year 2005.
    How do you reconcile the need for science in support of decision 
making at the Department of Interior in light of the cuts for the USGS 
in this budget?
    Answer. The USGS and the Department are working very hard to better 
integrate USGS scientific work with the science needs of the other DOI 
bureaus to ensure that on-the-ground decisions are based on the best 
possible science. Much of the ``reduction'' in the USGS comes from the 
fact that the budget does not continue Congressional earmarks from the 
fiscal year 2004 budget. In the fiscal year 2004 USGS budget, there 
were $17.1 million in earmarks. Although the work funded by these 
earmarks has merit in many instances, it doesn't necessarily address 
the highest priority science needs of the USGS or the Department. The 
Department's effort to make the highest and best use of its resources 
is not limited to looking at earmarks. Within the USGS budget, there 
are several reductions in lower priority base programs that allow the 
Department to fund higher priority needs, such as $2.8 million for 
increased research in the Klamath Basin.
    Question. The 108-year-old Cooperative Water Program is a 50:50 
costshare between USGS and State and local governments, which funds 
water-resource activities requested by local governments. In recent 
years, non-federal contributions have increased, despite static Federal 
funding levels, demonstrating strong support and need for this program. 
If the $60.4 million shortfall in the Federal match were funded, then 
28 percent more locally driven water-resource data collection and 
scientific investigation could be accomplished at no additional cost to 
local governments. Does the USGS have sufficient funds to match all the 
monies provided by the States for this program?
    Answer. In fiscal year 2003, the USGS provided $64.4 million for 
Cooperative Program activities, and the 1,400 State and local partners 
provided $135.6 million, or roughly 68 percent of total program 
funding. States are aware of what USGS is able to provide in matching 
grants for the cooperative program when they provide additional funding 
above what can be matched. The current funding level is sufficient to 
maintain a robust cooperative water program.
    Question. The U.S. Geological Survey Fire Science program would be 
reduced significantly in the fiscal year 2005 budget, despite the 
Department's stated support for understanding and preparing for 
wildland fires. The budget documents state that alternative sources of 
funding have been provided in both the Forest Service and Bureau of 
Land Management budgets. Specifically what are these alternative 
funding sources, where is it located in the other agencies' budgets, 
and what mechanism will transfer the funds to the USGS Fire Science 
Program?
    Answer. The funds are proposed to come from the Bureau of Land 
Management (BLM) Wildland Fire Management appropriation. The funds 
would be made available through a cooperative agreement.

                         NATIONAL PARK SERVICE

    Question. The Interior Department's budget does not account for 
funds that it will spend this year on privatization studies. How much 
money does the Department expect to spend on privatization studies this 
year?
    Answer. The Department conducts competitive sourcing studies, which 
are designed to improve the quality, efficiency, and effectiveness of 
services that we deliver. As part of the competitive review process, 
the Department has completed studies covering more than 2,617 FTE to 
date and of the positions studies to date, 1,102 have been maintained 
in house and 1,515 have been contracted out. Throughout this process, 
no permanent Interior employee has lost a job. In instances where 
activities were contracted out, vacancies were eliminated, personnel 
retired, or permanent employees were placed elsewhere in the 
organization. In 2004, the Department anticipates that it will expend a 
total of $1.8 million in fiscal year 2004 appropriations for 
competitive sourcing studies as compared to the $2.5 million amount 
that is specified in 2004 Appropriations Act. The 2005 budget request 
includes $4.2 million for competitive sourcing studies for Interior 
agencies.
    Question. I am worried that recent Park Service memos directing 
staff to avoid publicizing budget limitations discourage the parks in 
Nevada from communicating with me. They should not feel that the Park 
Service leadership will retaliate against them for giving me honest 
assessments of their parks. What was the intent of the Park Service in 
sending these memos? Would you agree that there should be open 
communication between the parks and Congress?
    Answer. While there was an internal National Park Service (NPS) 
memorandum that mentioned ``service level adjustments'' for the 
upcoming season, the intention was to head off any potential service 
reductions by discussing problems internally in order to make the 
management decisions that might be required, and to determine if the 
redirection of available funds was necessary. The Department strongly 
agrees with you that there should be continued open communication with 
Congress.
                                 ______
                                 
               Questions Submitted by Senator Mike DeWine

    Question. What additional funds are needed to provide full science 
support for research conducted on behalf of the Great Lakes Fishery 
Commission at the Hammond Bay Biological Station and the Upper 
Mississippi Environmental Science Center?
    Answer. The USGS currently receives appropriated and reimbursable 
funds for the Hammond Bay Biological Station and the Upper Mississippi 
Environmental Sciences Center (UMESC) for Great Lakes research. The 
UMESC field stations operate through reimbursable agreements with the 
States to conduct Great Lakes research. The funding provided is 
sufficient to carry this research forward at this time.
    The Upper Mississippi Environmental Sciences Center conducts 
research which provides natural resource managers with scientific 
information needed to address issues such as the effects of 
contaminants, declining and endangered species, fishery drug research 
and development, river inventory and monitoring, the effects of 
nutrient loading, and long term resource (water, vegetation, wildlife) 
monitoring. Research at the Hammond Bay Biological Station focuses on 
development of alternative methods of controlling sea lamprey 
populations, refinement of existing methods for lamprey control, and on 
the effects of sea lampreys on Great Lakes fishes. Alternative control 
methods research currently includes barriers to sea lamprey migration, 
release of sterilized male sea lampreys to reduce reproduction, and the 
identification and use of migratory and sex pheromones. Other research 
focuses on application of lampricides, sea lamprey life history 
studies, population assessment, and interactions between host species 
and parasitic sea lampreys. The station has fish-holding facilities and 
houses the facility operated seasonally by the U.S. Fish and Wildlife 
Service to sterilize male sea lampreys. The funding provided is 
sufficient to carry this research forward at this time.
    Question. What additional funds are needed for the Fish and 
Wildlife Service to provide its support to Great Lakes Fishery 
Commission efforts?
    Answer. The Fish and Wildlife Service, as an agent for the bi-
national Great Lakes Fishery Commission (Commission) since 1955, 
manages sea lamprey control activities in U.S. waters of the Great 
Lakes. This bi-national program is vital to the restoration of native 
fish in the Great Lakes and the $4.5 billion sportfishing industry. 
Congress appropriated $894,000 in fiscal year 2003 and $889,000 in 
fiscal year 2004 to the Service to help fund its support of the sea 
lamprey control program. The President's Budget for fiscal year 2005 
includes a request for $889,000.
    Question. The USGS's Great Lakes Science Center (GLSC) provides 
research support for a variety of state and tribal partners that allows 
them to better manage the unique resources of the Great Lakes. Over the 
last 10 years, however, the USGS has not provided sufficient funding 
for an adequate level of professional and administrative staffing to 
maintain the federal/state/tribal partnership on the Great Lakes. 
Please provide for the subcommittee an analysis of the levels of 
staffing and funding support received by the GLSC since its transfer to 
the USGS.
    Answer. The GLSC transferred to the USGS from the FWS in fiscal 
year 1996. Total allocated staffing in fiscal year 2004 at 102 FTEs is 
7 FTE above the allocated fiscal year 2003 staffing. Funding at the 
GLSC is projected to be $11.1 million in fiscal year 2004. A table 
summarizing funding since 1995 follows:

                                                                 [Dollars in thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                      Fiscal year
                 Great Lakes Science Center                  -------------------------------------------------------------------------------------------
                                                                1995     1996     1997     1998     1999     2000     2001     2002     2003      2004
--------------------------------------------------------------------------------------------------------------------------------------------------------
Funding.....................................................   $8,012   $5,943   $7,153   $7,275   $7,415   $8,580   $8,230   $9,809   $10,105   $11,136
FTE.........................................................      107      105      104       97       98       98       98       98        95       102
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. We understand that the President's budget includes a 
slight increase for the Great lakes Science Center to address Great 
Lakes deep-water fishery research issues. How much has the president 
proposed for the large-vessel program? How much more does USGS need to 
develop the scientific capability to completely address these deep-
water fishery assessment issues for its state and tribal partners 
without starving other GLSC programs?
    Answer. The President has proposed a $500,000 increase in the 
fiscal year 2005 budget for the Deepwater Science Program at the Great 
Lakes Science Center (GLSC). Therefore, with the proposed increase, 
there would be $4.4 million for the Deepwater Science Program in the 
fiscal year 2005 budget. This funding level is sufficient to carry this 
program forward at this time.
    Question. Congress has gone to great lengths to provide research 
vessels for the Great Lakes Science Center that facilitate research on 
the Great lakes. Some of these vessels have been inadequately 
maintained to the point their capability and safety have been called 
into question. What resources are needed to ensure their continued safe 
operations and to accomplish their scientific mission?
    Answer. The USGS has worked to improve the vessel fleet on the 
Great Lakes. All vessels have undergone an extensive condition 
assessment with contracted naval architects. Any serious safety issues 
were immediately addressed. All eligible deferred maintenance/capital 
improvement (DMCI) projects for the vessels resulting from the 
condition assessments are included in the bureau's DMCI Program for 
consideration of funding in fiscal year 2006 and out years. For long-
term vessel stability, the USGS is developing a vessel maintenance plan 
with the naval architect consultants. Once this plan is in place, a 
vessel capital replacement plan will be formulated to address replacing 
ageing vessels. The annual operations and maintenance costs for Great 
Lakes vessels are approximately $1.1 million, which is budgeted. 
Vessels are now scheduled for haul-out maintenance on a 3-4 year cycle.
    Question. What is the USGS doing to address the concerns raised by 
the Council of Lake Committees' Blue Ribbon Panel report and what 
measures will be used to improve communications and accountability for 
program delivery of the deep-water assessment program?
    Answer. To address the concerns raised by the Council of Lake 
Committees' (CLC) Blue Ribbon Panel report, the USGS and the CLC 
developed and entered into a Memorandum of Agreement (MOA) and a 
Memorandum of Understanding (MOU). These documents were designed to 
facilitate cooperation and establish new mechanisms for the USGS and 
the CLC to work in partnership. The MOA establishes specific dates for 
the USGS to provide the CLC with both budgetary and scientific 
information relative to the deepwater science program. The USGS has 
already provided the first two reports as outlined in the MOA to the 
CLC. In fiscal year 2004, an additional $1.0 million was appropriated 
for the Deepwater Science Program. To help re-build the Deepwater 
Science Program, seven additional FTEs were re-directed to the GLSC. 
The President's fiscal year 2005 budget maintains the 2004 $1.0 million 
increase and requests an additional $0.5 million for the Deepwater 
Science Program.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, April 
1, in room SD-124. At that time we will hear testimony from the 
Honorable Charles W. Grim, Director, Indian Health Service.
    [Whereupon, at 11:27 a.m., Thursday, March 25, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
April 1.]

</pre></body></html>
